<html>
<title> - H.R. 594, H.R. 1013, H.R. 1646, H.R. 2304, H.R. 2610, H.R. 2753, H.R. 2772 AND H.R. 3061</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                    H.R. 594, H.R. 1013, H.R. 1646,
                   H.R. 2304, H.R. 2610, H.R. 2753,
                        H.R. 2772 AND H.R. 3061

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, December 1, 2011

                               __________

                           Serial No. 112-86

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
          Committee address: http://naturalresources.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
71-541                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e98e9986a98a9c9a9d818c8599c78a8684c7">[email&#160;protected]</a>  


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
PJon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday,, December 1, 2011......................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
        Prepared statement of....................................     3
    Markey, Hon. Edward J., a Representative in Congress from the 
      Commonwealth of Massachusetts..............................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Colby, Michael H., President, Clearwater Commercial Marine 
      Association................................................    49
        Prepared statement of....................................    50
    Frank, Hon. Barney, a Representative in Congress from the 
      Commonwealth of Massachusetts, Oral statement on H.R. 2610.     6
    Hayes, Robert G., Recreational Fishing Representative........    65
        Prepared statement of....................................    67
    Jones, Hon. Walter B., a Representative in Congress from the 
      State of North Carolina....................................    12
        Prepared statement on H.R. 2753..........................    13
    Keating, Hon. William R., a Representative in Congress from 
      the Commonwealth of Massachusetts..........................    19
        Prepared statement on H.R. 1013..........................    21
    Marks, Rick E., Principal, Hoffman Silver Gilman & Blasco....    25
        Prepared statement of....................................    27
    Oliver, Chris, Executive Director, North Pacific Fishery 
      Management Council.........................................    40
        Prepared statement of....................................    41
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     9
        Prepared statement on H.R. 594 and H.R. 3061.............    10
    Runyan, Hon. Jon, a Representative in Congress from the State 
      of New Jersey..............................................    16
        Prepared statement on H.R. 1646 and H.R. 2772............    18
    Schwaab, Eric, Assistant Administrator, National Marine 
      Fisheries Service, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    91
        Prepared statement of....................................    93
    Shelley, Peter, Esq., Vice President, Conservation Law 
      Foundation, Inc............................................    55
        Prepared statement of....................................    56
    Wittman, Hon. Robert J., a Representative in Congress from 
      the Commonwealth of Virginia...............................    13
        Prepared statement on H.R. 2034..........................    15
    Zales, Captain Robert F., II, President, National Association 
      of Charterboat Operators...................................    35
        Prepared statement of....................................    37

Additional materials supplied:
    Clements, Jim, Member, Board of Directors, Gulf Fishermen's 
      Association, Statement submitted for the record............   105
    Crockett, Lee R., Director of Federal Fisheries Policy, Pew 
      Environment Group, Statement submitted for the record......   106
                                     

LLEGISLATIVE HEARING ON H.R. 594, TO PROMOTE JOBS CREATION, 
PROMOTE SUSTAINABLE FISHERIES AND FISHING COMMUNITIES, 
REVITALIZE WATERFRONTS, AND FOR OTHER PURPOSES. ``COASTAL JOBS 
CREATION ACT OF 2011''; H.R. 1013, TO AMEND THE MAGNUSON-
STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT TO PROVIDE THE 
NEW ENGLAND FISHERY MANAGEMENT COUNCIL ADDITIONAL RESOURCES TO 
ADDRESS RESEARCH AND MONITORING PRIORITIES ESTABLISHED BY THE 
COUNCIL. ``STRENGTHEN FISHERIES MANAGEMENT IN NEW ENGLAND ACT 
OF 2011''; H.R. 1646, TO AMEND THE MAGNUSON-STEVENS FISHERY 
CONSERVATION AND MANAGEMENT ACT TO PRESERVE JOBS AND COASTAL 
COMMUNITIES THROUGH TRANSPARENCY AND ACCOUNTABILITY IN FISHERY 
MANAGEMENT, AND FOR OTHER PURPOSES. ``AMERICAN ANGLER 
PRESERVATION ACT''; H.R. 2304, TO AMEND THE MAGNUSON-STEVENS 
FISHERY CONSERVATION AND MANAGEMENT REAUTHORIZATION ACT OF 2006 
TO PROVIDE THE NECESSARY SCIENTIFIC INFORMATION TO PROPERLY 
IMPLEMENT ANNUAL CATCH LIMITS, AND FOR OTHER PURPOSES. 
``FISHERY SCIENCE IMPROVEMENT ACT OF 2011''; H.R. 2610, TO 
AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT 
ACT TO REFORM PROCEDURES FOR THE PAYMENT OF FUNDS FROM THE 
ASSET FORFEITURE FUND, AND FOR OTHER PURPOSES. ``ASSET 
FORFEITURE FUND REFORM AND DISTRIBUTION ACT OF 2011''; H.R. 
2753, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
MANAGEMENT ACT TO PROVIDE INTERNET ACCESS TO REGIONAL FISHERY 
MANAGEMENT COUNCIL MEETINGS AND MEETING RECORDS, AND FOR OTHER 
PURPOSES. ``FISHERY MANAGEMENT TRANSPARENCY AND ACCOUNTABILITY 
ACT''; H.R. 2772, TO AMEND THE MAGNUSON-STEVENS FISHERY 
CONSERVATION AND MANAGEMENT ACT TO PERMIT ELIGIBLE FISHERMEN TO 
APPROVE CERTAIN LIMITED ACCESS PRIVILEGE PROGRAMS, AND FOR 
OTHER PURPOSES. ``SAVING FISHING JOBS ACT OF 2011''; AND H.R. 
3061, TO AMEND THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
MANAGEMENT ACT TO EXTEND THE AUTHORIZED TIME PERIOD FOR 
REBUILDING OF CERTAIN OVERFISHED FISHERIES, AND FOR OTHER 
PURPOSES. ``FLEXIBILITY AND ACCESS IN REBUILDING AMERICAN 
FISHERIES ACT OF 2011.''
                              ----------                              


                      Thursday,, December 1, 2011

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:02 a.m. in Room 
1324, Longworth House Office Building, Hon. Doc Hastings 
[Chairman of the Committee] presiding.
    Present: Representatives Hastings, Duncan of Tennessee, 
Wittman, McClintock, Thompson, Duncan of South Carolina, 
Labrador, Southerland, Runyan, Markey, Kildee, Napolitano, 
Holt, Grijalva, Bordallo, Sablan, Garamendi, and Hanabusa.
    The Chairman. The Committee will come to order. Before we 
begin, I ask unanimous consent that the Subcommittee on 
Fisheries, Wildlife, Oceans and Insular Affairs be discharged 
from further consideration of H.R. 594, Coastal Jobs Protection 
Act of 2011, and H.R. 1013, Strengthen Fisheries Management in 
New England Act of 2011. Without objection, so ordered.
    The Committee on Natural Resources is meeting today to hear 
testimony on eight bills that amend the Magnuson-Stevens 
Fishery Conservation and Management Act. Under Committee Rule 
4[f], opening statements are limited to the Chairman and 
Ranking Member of the Committee. However, I ask unanimous 
consent that any Members that wish to have an opening statement 
to appear in the record submit that statement before the close 
of business today. Without objection, so ordered.
    I will now recognize myself for five minutes.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    The Chairman. In 2010, U.S. commercial fishermen landed 
over eight billion pounds of fish valued at $4.5 billion. In 
addition, approximately 10 million recreational fishermen made 
more than 71 million recreational trips. Clearly, the economic 
activity created by the nation's fisheries resources is 
significant, especially for coastal communities.
    As Members know, the Magnuson-Stevens Fishery Conservation 
and Management Act is a primary statute governing fishing 
activities in Federal waters. At the end of 2006, Congress 
passed a major reauthorization of the Act. The reauthorization, 
which was signed into law in 2007, placed a new emphasis on 
science, with the expectation that all eight Regional Fishery 
Management Councils would have the same high level of 
scientific information that the North Pacific Council has 
enjoyed for years.
    Unfortunately, we have learned that several regions of the 
country do not have frequent stock surveys or stock 
assessments, and with the current budget climate, that is 
unlikely to change. In July of this year, the Subcommittee on 
Fisheries, Wildlife, Oceans and Insular Affairs held a hearing 
on fisheries science and whether there was sufficient 
scientific information available for fishery managers to make 
informed decisions. One concern raised during the hearing was 
that in cases where there was limited data available, the 
agency and fishery management councils were being overly 
cautionary in their decisions, which is resulting in 
artificially low harvest levels.
    The new requirement for setting annual catch levels and 
accountability measures was partially based on the availability 
of better, more time-sensitive recreational harvest data. A new 
recreational data collection program was supposed to have been 
finished two years ago and would have provided better 
information for establishing science-based harvest levels. But 
without it, the agencies and councils are forced to use more 
precaution when setting recreational harvest levels. This is 
resulting in fishery closures and uncertainty for businesses 
that rely on fishing opportunities. That was not the result 
that Congress expected or intended.
    Under the Magnuson-Stevens Act, there has always been a 
balance between conservation and the full utilization of our 
nation's fishery resources. The trend toward more precaution in 
setting harvest levels has altered this balance and is 
resulting in lost economic opportunities and jobs. While the 
intention of the 2006 amendments was to base harvest levels on 
science, the intent was not to create a new avenue for 
litigation.
    Unfortunately, the requirement that all fishery management 
plans contain measures for setting annual catch limits is now 
being cited as the basis for new lawsuits. The result is that 
the agency is becoming even more precautionary. At a time when 
jobs are precious and the economies of many of our coastal 
communities are fragile, restricting fishing opportunities 
through multiple levels of bureaucratic precaution is not what 
Congress intended.
    One of the bills before us today deals with the issue of 
catch shares. As we have seen on the West Coast, catch shares 
can work when they are developed by the industry and are 
developed from the bottom up. However, they are not likely to 
work when they are developed from the top and forced onto the 
participants of the fishery. Whether right or wrong, the 
perception is that the agency is pushing catch shares and the 
agency is determining how they will be established.
    Today's hearing will focus on eight bills that address 
specific concerns with the Magnuson-Stevens Act. Some of the 
bills are a reaction to regional concerns while others address 
national concerns. I hope today's witnesses will help this 
Committee identify where the Act can be amended to resolve the 
major problems without sacrificing the concept of basing 
harvest levels on sound science.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    In 2010, U.S. commercial fishermen landed over 8 billion pounds of 
fish valued at $4.5 billion. In addition, approximately 10 million 
recreational fishermen made more than 71 million recreational fishing 
trips. Clearly, the economic activity created by the Nation's fishery 
resources is significant, especially for coastal communities.
    As Members know, the Magnuson-Stevens Fishery Conservation and 
Management Act is the primary statute governing fishing activities in 
Federal waters. At the end of 2006, Congress passed a major 
reauthorization of the Act. That reauthorization, which was signed into 
law in 2007, placed a new emphasis on science with the expectation that 
all of the eight regional fishery management councils would have the 
same high level of scientific information that the North Pacific 
Council has enjoyed for years. Unfortunately, we have learned that 
several regions of the country do not have frequent stock surveys or 
stock assessments and, with the current budget climate, that is 
unlikely to change.
    In July of this year, the Subcommittee on Fisheries, Wildlife, 
Oceans and Insular Affairs held a hearing on fisheries science and 
whether there was sufficient scientific information available for 
fishery managers to make informed decisions. One concern raised during 
the hearing was that in cases where there is limited data available, 
the agency and fishery management councils were being overly cautionary 
in their decisions, which is resulting in artificially low harvest 
levels.
    The new requirement for setting annual catch levels and 
accountability measures was partially based on the availability of 
better, more time-sensitive recreational harvest data. A new 
recreational data collection program was supposed to have been finished 
two years ago and would have provided better information for 
establishing science-based harvest levels. But without it, the agency 
and councils are forced to use more precaution when setting 
recreational harvest levels. This is resulting in fishery closures and 
uncertainty for businesses that rely on fishing opportunities. That was 
not the result Congress expected or intended.
    Under the Magnuson-Stevens Act, there has always been a balance 
between conservation and the full utilization of our Nation's fishery 
resources. The trend toward more precaution in setting harvest levels 
has altered this balance and is resulting in lost economic opportunity 
and lost jobs.
    While the intention of the 2006 amendments was to base harvest 
levels on science, the intent was not to create a new avenue for 
litigation. Unfortunately, the requirement that all fishery management 
plans contain measures for setting annual catch limits is now being 
cited as the basis for new lawsuits. The result is that the agency is 
becoming even more precautionary. At a time when jobs are precious and 
the economies of many of our coastal communities are fragile, 
restricting fishing opportunities through multiple levels of 
bureaucratic precaution is not what Congress intended.
    One of the bills before us today deals with the issue of catch 
shares. As we have seen on the West Coast, catch shares can work when 
they are developed by the industry and are developed from the bottom 
up. However, they are not likely to work when they are developed from 
the top and forced onto the participants in the fishery. Whether right 
or wrong, the perception is that the agency is pushing catch shares and 
the agency is determining how they will be established.
    Today's hearing will focus on eight bills that address specific 
concerns with the Magnuson-Stevens Act. Some of the bills are a 
reaction to regional concerns while others address national concerns. I 
hope today's witnesses will help this Committee identify where the Act 
could be amended to resolve the major problems that are currently 
facing fishermen and fishing communities without sacrificing the 
concept of basing harvest levels on sound science.
                                 ______
                                 
    The Chairman. With that, I yield back my time and am 
pleased to recognize the gentleman from Massachusetts, the 
Ranking Member, Mr. Markey.

    STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much. From Cape 
Cod to the Florida Keys to the Kenai Peninsula, fishing is an 
integral part of America's coastal communities. Healthy 
fisheries support healthy coastal economies. Unfortunately, the 
fishing industry hit rough waters in the 1990s, battling a 
perfect storm of depleted fish stocks, pollution and warming 
seas.
    However, amendments to the Magnuson-Stevens Fishery 
Conservation and Management Act in 1996 and in 2006 steered our 
fisheries toward more sustainable practices. In 2010, the 
United States brought 8.2 billion pounds of seafood ashore 
valued at $4.5 billion. Science-based management of the ocean's 
bounty by regional stakeholders supported this success.
    Our nation has some of the most diverse and productive 
coastal waters in the world, including the nation's most 
valuable port, which is in New Bedford, Massachusetts, 
represented by Congressman Barney Frank. Since 1976, the 
Magnuson-Stevens Act--and, by the way, as that bill emerged 
from this Committee, it was called the Studds-Young bill after 
Congressman Gerry Studds and Congressman Don Young. They felt 
that their names should have been on that bill, not just 
Magnuson and Stevens, and that is an accurate reflection of the 
work that was done out of this Committee.
    That law sought to preserve this abundance for American 
fishermen by requiring fishery managers to end overfishing. The 
Act also recognized the importance of regional decisionmaking 
by creating Regional Fishery Management Councils. These 
stakeholder-governed councils are responsible for deciding how 
many fish can be caught and by whom. In 1996, with many of our 
fisheries depleted, Congress established a 10-year target to 
restore depleted populations to healthy levels. Chronic 
overfishing continued, so in 2006 Congress reauthorized the Act 
to ensure that fishing limits are in place for all stocks by 
the end of 2011.
    Now we have reached a historical moment where NOAA 
scientists and Regional Fishery Management Councils have 
plotted a course to end overfishing. So far, 23 stocks have 
been rebuilt and most others are reaching healthy levels. 
Rebuilding all fish stocks could increase the value of 
commercial fisheries by over 50 percent, increasing their total 
value to over $6 billion annually. By early next year, we will 
have in place the tools needed to end overfishing for all 
stocks. Sustainable fish stocks provide the certainty and 
stability that our fishing communities need.
    I am concerned that some of the bills we will examine today 
will either legislate fisheries management decisions best left 
to the regional councils or legislate flexibility that already 
exists in the current law. For example, 56 percent of fish 
stocks already have extended rebuilding timelines due to 
existing flexibility in the law.
    Just as technology brought us the ability to catch more 
fish, science-based decisionmaking will help ensure fish for 
future generations of fishermen. Unfortunately, just as we are 
asking NOAA to do more and better stock assessments, the 
majority want to cut NOAA's funding to preserve existing 
funding for other programs, so we want to make sure that we 
have a proper balance.
    The appropriation bill passed last month reduced the 
funding levels for NOAA's National Marine Fisheries Service 
down to 2005 levels. We know improved data collection and stock 
assessment allow NOAA to make better and timelier fishery 
management decisions, and we must supply them with the 
resources to do their job.
    My colleagues from Massachusetts, Barney Frank and Bill 
Keating, have put forward two bills that would direct 
additional money to fishery assessments, and I support that. 
Mr. Pallone's Coastal Jobs Creation Act directs Federal 
investment into coastal communities. These bills deserve the 
support of this Committee and swift action on the House Floor.
    In evaluating the bills before us today, we should consider 
whether each bill supports strong science in fisheries 
management and respects the regional expertise that the local 
councils bring in making decisions. In Samuel Taylor 
Coleridge's Rime of the Ancient Mariner, an albatross leads the 
ancient mariner out of desolate seas. The Magnuson-Stevens Act 
has the same potential to guide us to the end of overfishing. 
We should not repeat the mariner's mistake and harm what is 
leading America's fisheries into safer seas.
    I thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Mr. Markey follows:]

     Statement of The Honorable Edward J. Markey, Ranking Member, 
                     Committee on Natural Resources

    Thank you, Mr. Chairman.
    From Cape Cod to the Florida Keys to the Kenai [KEEN-eye] 
Peninsula, fishing is an integral part of America's coastal 
communities. Healthy fisheries support healthy coastal economies.
    Unfortunately, the fishing industry hit rough waters in the 1990s, 
battling a perfect storm of depleted fish stocks, pollution, and 
warming seas. However, amendments to the Magnuson-Stevens Fishery 
Conservation and Management Act in 1996 and in 2006 steered our 
fisheries toward more sustainable practices. In 2010, the United States 
brought 8.2 billion pounds of seafood ashore, valued at $4.5 billion. 
Science-based management of the oceans' bounty by regional stakeholders 
supported this success.
    Our nation has some of the most diverse and productive coastal 
waters in the world. Since 1976, the Magnuson-Stevens Act has sought to 
preserve this abundance for American fishermen by requiring fishery 
managers to end overfishing. The Act also recognized the importance of 
regional decision-making by creating Regional Fishery Management 
Councils. These stakeholder-governed Councils are responsible for 
deciding how many fish can be caught and by whom. In 1996, with many of 
our fisheries depleted, Congress established a ten-year target to 
restore depleted populations to healthy levels. Chronic overfishing 
continued, so in 2006, Congress reauthorized the Act to ensure that 
fishing limits are in place for all stocks by the end of 2011.
    Now we have reached a historical moment where NOAA scientists and 
Regional Fishery Management Councils have plotted a course to end 
overfishing. So far, twenty-three stocks have been rebuilt and most 
others are reaching healthy levels. Rebuilding all fish stocks could 
increase the value of commercial fisheries by over 50 percent, 
increasing their total value to over $6 billion annually. By early next 
year, we will have in place the tools needed to end overfishing for all 
stocks. Sustainable fish stocks provide the certainty and stability 
that our fishing communities need.
    I am concerned that some of the bills we will examine today will 
either legislate fisheries management decisions best left to the 
regional councils or legislate flexibility that already exists in the 
current law. For example, fifty-six percent of fish stocks already have 
extended rebuilding timelines due to existing flexibility in the law.
    Just as technology brought us the ability to catch more fish, 
science-based decision-making will help ensure fish for future 
generations of fishermen. Unfortunately, just as we are asking NOAA to 
do more and better stock assessments, Republicans want to cut NOAA's 
funding to preserve tax breaks for millionaires and billionaires. For 
the Republican Majority, it's not about setting lobster traps on 
Georges Bank, it's about the caviar set on Wall Street.
    The appropriation bill passed last month reduced the funding levels 
for NOAA's National Marine Fisheries Service down to 2005 levels. We 
know improved data collection and stock assessments allow NOAA to make 
better and timelier fishery management decisions and we must supply 
them with the resources to do their job. My colleagues from 
Massachusetts have put forward two bills that would direct additional 
money to fishery assessments. Mr. Pallone's Coastal Jobs Creation Act 
directs federal investment into coastal communities. These bills 
deserve the support of this committee and swift action on the House 
floor.
    In evaluating the bills before us today, we should consider whether 
each bill supports strong science in fisheries management and respects 
the regional expertise that makes Councils the appropriate place for 
making decisions. In Samuel Taylor Coleridge's ``Rime of the Ancient 
Mariner'', an albatross leads the Ancient Mariner out of desolate seas. 
The Magnuson-Stevens Act has the same potential to guide us to the end 
of overfishing. We should not repeat the Mariner's mistake and harm 
what is leading America's fisheries into safer seas.
                                 ______
                                 
    The Chairman. I thank the gentleman for his opening 
statement.
    Our first panel today are the sponsors of the bills that we 
will be hearing today. They include Congressman Barney Frank, 
who has been in the news lately, and I suspect part of that is 
because we announced he is going to appear as a witness on this 
Committee today. I am sure that is part of it. Congressman 
Frank Pallone, Congressman Walter Jones, Congressman Rob 
Wittman, Congressman John Runyan, and Congressman Bill Keating 
is to be here, and he will be seated when he comes in later.
    So, at this time, I recognize--by the way, you all know the 
rules here. When the green light is on you have four minutes, 
the yellow light means you have one minute, and the red light 
means that your five minutes have expired. Your full statement 
will appear in its entirety in the record, so I ask you to 
summarize. And with that, I will recognize the gentleman from 
Massachusetts, Mr. Frank.

 STATEMENT OF HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Frank. Thank you, Mr. Chairman. I appreciate your 
reference. I got here and noticed I didn't have any table. I 
guess things move quickly around here when you say what you are 
doing.
    The Chairman. You are experiencing it already. I am glad we 
are the first to show that.
    Mr. Frank. I hope when I get to my office that my desk is 
still inside, but we will see.
    But I appreciate the hearing. I appreciate my colleague 
from Massachusetts playing the role that he is doing and his 
cosponsorship of our bill. I have one piece of legislation of 
which I am a prime sponsor, but it is a very bipartisan bill, 
and if you look at it, it has sponsorship from Maine down 
through North Carolina we have had, I am very pleased to say, 
with regard to the East Coast.
    I noted, Mr. Chairman--let me acknowledge--there are some 
differences between West and East Coast in this, and we have 
had different experiences, and I want to be very careful so 
that we legislate taking full advantage of those differences. I 
can say that in the areas that we have been talking we have had 
pretty good agreement, bipartisan, from Maine down to Florida. 
There has been in general a lot of East Coast agreement on 
this.
    The first bill embodies a very important principle. It is 
H.R. 2610. Essentially we do not want law enforcement agencies 
to have an incentive as they enforce the law that comes from 
the fact that they benefit from the money that they collect in 
the process of law enforcement. I would note, for example, that 
I am a great advocate for more money for the Securities and 
Exchange Commission and for tougher enforcement, but I do not 
want the Securities and Exchange Commission to be the 
beneficiary of fines that it imposes. That is just a mistake.
    One of the things that I worked on that I was very proud of 
with our former colleagues, and some of us served with him, 
Henry Hyde. When Henry and I were on the Judiciary Committee 
together we cosponsored legislation dealing with asset 
forfeiture because we thought it was a mistake to give law 
enforcement authority the ability to seize people's property, 
frankly, promiscuously. You lend somebody your car and that 
person had drugs and you could lose your car without any 
knowledge of it. But the law enforcement agency engaging in the 
confiscation got to spend the money, and I thought that was a 
mistake. I was glad to work with Henry Hyde to try to change 
that.
    With regard to fishing, that is what we say here, that in 
this legislation that is before you the Asset Forfeiture Fund 
money would not any longer go to the agency that did the asset 
forfeitures. For the existing pool, we would do an 80/20 split. 
Eighty percent could be used for research. That money is 
already in the pot, so there is no fear of incentivizing future 
activity.
    But for the future this in itself does not in any way 
hinder the ability of the law enforcement agency, in this case 
NOAA or the Coast Guard, to do what it needs to do in terms of 
asset forfeiture, but it sends the money to the states and it 
basically sends it to the state that is most closely involved 
in the transaction.
    I would think that was a principle we would all very much 
want, namely, that we want to fund law enforcement by 
independent judgments about what we can afford, but we do not 
want any incentives to the law enforcement agency. That doesn't 
mean that they are corrupt or they are anything. It means they 
are human. Just as we do this with ourselves with ethical 
rules, you don't want to have temptation in people's way.
    Having said that, there was also language in here about the 
rotation of ALJs [administrative law judges], but NOAA, and I 
am pleased, and the National Marine Fisheries Service, has 
complied with the request of many of us. They are no longer 
using their own ALJs, the Coast Guard ALJs, so that the 
enforcement agency is not the one that is then adjudicating it. 
They are using other ALJs, and I appreciate they are doing 
that.
    The last point I want to mention though, Mr. Chairman, and 
my colleague from Massachusetts, who has been very supportive 
in all this, did mention the question of flexibility. There is 
in the law a requirement in general that there be a 10-year 
rebuilding period. I have asked Dr. Lubchenco. I have asked all 
number of fishing experts. No one says that there is any 
validity to that other than the fact that it is in the law. 
Yes, we need a standard, but I do not think any harm comes from 
saying that in exigent circumstances if you are moving toward 
an appropriate level of punishment that there should not be an 
ability to waive for a couple of years.
    And let me say this Committee was very helpful. Last year I 
cosponsored bipartisan legislation with Senator Snowe a bill 
that amended the law regarding the Canadian boundary area 
because the Canadians were not bound by a strict 10-year 
requirement. We were. We now are on a par with the Canadians in 
that area that involves the New England states. I have asked, 
and there have been no problems. In other words, they have the 
ability to not abide by the 10 years.
    Yes, they should be under that mandate to get there and 
there ought to be a good reason, but again I support in Mr. 
Pallone's language the legislation saying 10 years is not an 
absolute hard and fast rule. It is the goal. But if you are 
making progress, if there are some other circumstances, you 
will be allowed to go two or three years, especially since one 
of the things in the Magnuson Act that was done by this 
Committee that doesn't get enough attention is the economic 
standard. There is a standard in there that says take economics 
into account. A rigid 10-year, no exception rule undermines our 
ability to give full attention to that economic standard. I 
thank you.
    The Chairman. I thank the gentleman for----
    Mr. Frank. By the way, I would say one other thing I guess 
if I could have a unanimous 10 seconds.
    My colleague mentioned that it should have been called the 
Studds-Young bill. Actually I think we missed a chance to 
enhance the appeal of this Congress by calling it the Young-
Studds bill.
    [Laughter.]
    Mr. Frank. That I think would have made Congress look 
better.
    The Chairman. Without objection, that will be stricken from 
the record. Going out in style.
    Mr. Frank. Don Young told me to say that.
    The Chairman. Going out in style. Do you want to follow 
that, Mr. Pallone? You are going to have to. You are recognized 
for five minutes.
    Mr. Pallone. I don't want to follow him. I just want to 
make sure I don't push him further away from the table here. 
That is all.
    The Chairman. You are recognized for five minutes.

 STATEMENT OF HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you. I am glad that I have the 
opportunity, Mr. Chairman and Mr. Markey, to discuss my two 
bills, H.R. 594, the Coastal Jobs Creation Act, and H.R. 3061, 
the Flexibility and Access in Rebuilding American Fisheries 
Act. Both will help fishermen get back on the water and spur 
job creation and economic activity in our coastal communities.
    When Magnuson-Stevens was reauthorized in 2006 and became 
law, fishermen were told that rebuilding stocks on a 10-year 
timeline, although painful in the short term, would provide 
them with higher quotas and more fish to catch.
    By the way, in response to Congressman Frank, as far as I 
know the 10 years was just something that, not being critical 
of it, but was just made up essentially. It sounded good, and 
there wasn't any real scientific basis for it. But at the time 
I made the argument that we could rebuild fisheries without 
adhering to a completely arbitrary deadline that would hurt a 
fisherman's ability to put bread on the table.
    In the 110th Congress and 111th, I introduced the 
Flexibility Act, which would have given the Secretary of 
Commerce the authority to extend these rebuilding timelines 
beyond the 10 years when science and biology of a fish stock 
told us we can rebuild fisheries without bankrupting businesses 
like tackle shops, party boats, commercial fishermen.
    Yet new problems with fisheries management had become 
unfortunately clear, and as a result, I reintroduced my 
flexibility bill to create flexibility in the rebuilding 
timelines, but I also added a number of critical additions to 
address new problems, and that is what I want to talk about 
today, Mr. Chairman, what are the new problems that I am trying 
to address in this new bill.
    First is the issue of transparency in the scientific 
process. Fishermen were promised access to rebuilt and healthy 
stocks and are instead seeing reduced catch levels and in-
season closures of economically vital fisheries, so my bill 
increases transparency in the management process by requiring a 
published report for all the public to see and analyze that 
explains exactly what info is being used and if the 
unavailability of information is being used to lower fishing 
quotas.
    The bill would further allow the Secretary to step in and 
override overly burdensome restrictions in a fishery that has 
been rebuilt not subject to overfishing or approaching 
overfishing and when the science simply can't support such 
restrictions in light of the social and economic impacts. So 
that is the transparency provision.
    The second is better information for managing recreational 
fisheries. New restrictions established in the 2006 Magnuson 
reauthorization that were intended to put in place with 
improved science and data programs are being implemented, but 
the new data collection programs designed to get the better 
science and data are still just getting off the ground.
    So my bill requires fisheries managers to get going on 
using the improved data collection method. It also requires the 
National Research Council to issue a report on improvements 
that need to be made with fishing data collection and surveying 
so we can understand what exactly is happening.
    And then the third thing relates to economic and social 
impacts. Requirements in current law to consider the social and 
economic impacts are given nothing more than lip service in my 
opinion, and so my bill requires that a social and economic 
impact statement be prepared on an annual basis and in 
conjunction with the Fishing Industry Advisory Committee so we 
are sure that the councils are using real-world experience and 
advice.
    The Secretary would then be required to take action to 
mitigate any adverse impacts identified and submit to Congress 
a report describing the efforts taken and provide 
recommendations on how to improve Federal fisheries to promote 
economic vitality in fishing communities. So those are the 
three additions to the flexibility bill that some of you have 
seen now for a couple years.
    And then the last thing I wanted to mention, you also have 
under consideration today the Coastal Jobs Creation Act, which 
I appreciate you bringing up. It creates a coastal jobs grant 
program that ensures that funds go to programs and projects 
that help fishermen, the fishing industry and coastal community 
businesses. It makes certain that the Federal Government works 
with fishermen to ensure they are part of the process and 
receive the support they need I think in hard economic times.
    So the bill invests in revitalizing our waterfronts, 
improving the science, removing and cleaning up marine debris, 
funding restoration projects and developing new technologies. 
And I think some might say this is a stimulus bill for coastal 
communities. You can call it that if you like, but I think that 
we need to do more to make sure that we are actually helping 
rebuild and grow these coastal communities, and we can assist 
them in a number of ways through grants under this program.
    So, Mr. Chairman, I just want to thank you for holding this 
hearing today on my bills and the other ones that are being 
considered. In some ways, each of the bills is variations on 
some of the things that I propose, but I would also ask that we 
schedule a vote so that we can move my two bills and the others 
forward because I really think that we are running out of time 
if we are really going to address some of these problems. They 
need to be addressed now.
    And so I appreciate your having the hearing, and as a 
member of the Committee I hope that we can move forward and 
actually mark up these bills. Thank you.
    [The prepared statement of Mr. Pallone follows:]

  Statement of The Honorable Frank Pallone, Jr., a Representative in 
 Congress from the State of New Jersey, on H.R. 594, The Coastal Jobs 
 Creation Act, and H.R. 3061, the Flexibility and Access in Rebuilding 
                         American Fisheries Act

    I want to thank Chairman Hastings and Ranking Member Markey for 
holding today's hearing. As the committee is aware recreational and 
commercial fishing represent the economic and cultural foundations of 
communities all across the United States. While the markets on Wall 
Street have gone up and down and manufacturing has drastically changed, 
recreational and commercial fishing have remained a truly American 
industry that we can depend on.
    Whether it is the local charter boat captain, the commercial 
fishing cooperative, the dedicated angler or the local business owner, 
they know the importance that fishing has for our economy. That is why 
it is important to have today's discussion and hear from real 
stakeholders about how they are affected by overly burdensome fisheries 
management.
    I am glad to have the opportunity for the committee to discuss my 
bills: H.R. 594, the Coastal Jobs Creation Act and H.R. 3061, the 
Flexibility and Access in Rebuilding American Fisheries Act. Both of 
these bills will help fishermen get back on the water and spur job 
creation and economic activity in our communities.
    When the Magnuson Stevens Reauthorization Act of 2006 became law 
fishermen were told that rebuilding stocks on a 10-year timeline, 
although painful in the short-term, would provide them with higher 
quotas and more fish to catch. At the time, I made the argument that we 
could rebuild fisheries without adhering to a completely arbitrary 
deadline that would hurt a fisherman's ability to put bread on the 
table. In the 110th Congress and 111th Congress, I introduced the 
Flexibility in Rebuilding American Fisheries Act which would have given 
the Secretary of Commerce the authority to extend these rebuilding 
timelines beyond 10 years when the science and biology of a fish stock 
told us we can rebuild fisheries without bankrupting businesses like 
tackle shops, party boats, and commercial fishermen.
    Yet, new problems with fisheries management have become 
unfortunately clear. As a result, I have reintroduced my legislation to 
create flexibility in the rebuilding timelines and added a number of 
critical additions to address these new problems.

Transparency in the scientific process
    Fishermen were promised access to rebuilt and healthy stocks and 
are instead seeing reduced catch levels and in season closures of 
economically vital fisheries. My bill, the Flexibility and Access in 
Rebuilding American Fisheries Act of 2011, increases transparency in 
the management process by requiring a published report, for all the 
public to see and analyze, that explains exactly what information is 
being used and if the unavailability of information is being used to 
lower fishing quotas. My bill will further allow the Secretary of 
Commerce to step in and override overly burdensome restrictions in a 
fishery that has been rebuilt, not subject to overfishing or 
approaching overfishing and when the science simply cannot support such 
restrictions in light of the social and economic impacts.

Better information for managing recreational fishing
    New restrictions established in the 2006 Reauthorization of the 
Magnuson Act that were intended to be put in place with improved 
science and data programs are being implemented while the new data 
collection programs designed to get the better science and data are 
still just getting off the ground.
    My bill requires fisheries managers to get going on using the 
improved data collection method. It also requires the National Research 
Council to issue a report on improvements that need to be made with 
recreational fishing data collection and surveying so we can understand 
what is actually happening with fishing in any given year and ensure 
that we aren't needlessly closing healthy fisheries.

Economic and Social Impacts
    Requirements in current law to consider the social and economic 
impacts on coastal communities are given nothing more than lip service 
while individuals and families feel the real impacts of burdensome 
restrictions that are just not necessary for maintaining healthy 
fisheries.
    My bill requires that a social and economic impact statement be 
prepared on an annual basis and in conjunction with a fishing industry 
advisory committee so we are sure that the councils are using real 
world experience and advice. The Secretary would then be required to 
take action to mitigate any adverse impacts identified and then submit 
to Congress a report describing the efforts taken and provide 
recommendations on how to improve Federal fisheries programs to promote 
sustainable fisheries and economic vitality in fishing communities.

Coastal Jobs Creation Act
    I am also glad to have the opportunity to discuss my bill, the 
Coastal Jobs Creation Act. It creates a coastal jobs grant program that 
will ensure funds go to the programs and projects that help fishermen, 
the fishing industry and coastal community businesses. The bill will 
also make certain that the federal government works with fishermen to 
ensure they are a part of the process and receive the support they 
deserve during these hard economic times. The bill invests in 
revitalizing our working waterfronts, improving the science we use to 
manage fisheries, removing and cleaning up marine debris, funding 
restoration projects that protect marine resources and developing new 
technologies. We can do all this while using the work of fishermen, 
whether by deploying them as observers for monitoring, assisting in 
cooperative research or providing their idle fishing vessels for 
rebuilding working waterfronts or coral reefs.

Conclusion
    I would just like to point out again that recreational and 
commercial fishing is something the United States can depend on. The 
fishermen I know are some of the most dedicated conservationists you 
find out there. Their livelihoods depend on it. In 2009, the commercial 
fishing industry supported approximately 1,029,542 jobs and $116 
billion in sales. In the same year, recreational fishing activities 
supported over 327,000 jobs and recreational fishing trips and 
equipment sales totaled $50 billion. These numbers should not be taken 
lightly and I ask that after the committee considers the testimony from 
today that H.R. 594 and H.R. 3061 be scheduled for a vote so we can 
support these jobs.
                                 ______
                                 
    The Chairman. I thank the gentleman for his statement, and 
it is certainly the Chair's intention to address the Magnuson-
Stevens Act and this is all part of that.
    I am now very pleased to recognize a classmate of mine, a 
former member of this Committee, the gentleman from North 
Carolina, Mr. Jones.

 STATEMENT OF HON. WALTER JONES, A REPRESENTATIVE IN CONGRESS 
                      FROM NORTH CAROLINA

    Mr. Jones. Mr. Chairman, thank you, and I thank the Ranking 
Member and the Committee members for giving us this chance to 
talk about very important issues.
    Mr. Chairman, the district that I represent is the 3rd 
District of North Carolina, and many of my fishermen are very 
concerned about the problems that seem to exist because of the 
way the fisheries are managed. Many of these problems are 
caused by the law which governs Federal fisheries management 
known as the Magnuson-Stevens Act. I introduced one of these 
bills under consideration today and cosponsored several others 
that are designed to correct many of these flaws.
    Congress talks a whole lot about jobs, and we do need jobs 
in this country. That is exactly what I think these bills are 
all about. Fishermen in this country are hurting badly. They 
cannot afford to wait years for relief. They need help now. I 
strongly urge the Committee to move these bills as soon as 
possible, and I was pleased to hear you, Mr. Chairman, say that 
that will happen.
    My bill, H.R. 2753, the Fisheries Management Transparency 
and Accountability Act, would bring sunlight to the proceedings 
of Federal fisheries managers. The bill would require the 
Federal Regional Fishery Management Councils and the Science 
and Statistical Committees to broadcast their meetings live 
over the Internet. It would also require the councils to make 
transcripts and video/audio recordings of these meetings freely 
available to the public through their websites for three years 
after the meetings.
    I was alerted to this need for this legislation after 
hearing from eastern North Carolina fishermen who wanted to 
follow the council's proceedings but could not due to time and 
expense involved with attending in person. Neither could these 
fishermen go back and review past council meetings because the 
council did not make recordings of council meetings available 
over the Internet.
    Under the Magnuson Act, the regional councils and the SSCs 
have the power to determine the economic livelihood of 
fishermen and their communities. Given the importance of 
council and SSC decisions, fishermen ought to be able to easily 
monitor their proceedings, but times are tough and the 
fishermen don't have the money or the time to travel to council 
meetings for days at a time several times a year. This bill 
would fix that problem.
    Mr. Chairman, I hope that this Committee will look at all 
of these bills and see the value to our fishermen because, as 
each one has said before me--Mr. Frank, Mr. Pallone--and I am 
sure those after me today, our fishermen need help from 
Washington, D.C., and I think each one of us brings a little 
something good to help our fishermen.
    So, with that, Mr. Chairman, I want to thank you for 
allowing me to speak, and I want to say to Mr. Frank that it 
has been a privilege and a pleasure to serve with you, sir. You 
are going to be missed, and I can tell you truthfully there 
will never be anyone to replace you that has the wit that you 
have. God bless you, sir.
    I yield back my time.
    [The prepared statement of Mr. Jones follows:]

     Statement of The Honorable Walter B. Jones, a Representative 
              in Congress from the State of North Carolina

    Mr. Chairman, thank you for holding this important hearing. Every 
fisherman I talk to believes there are major problems with the way our 
fisheries are managed. Many of those problems are caused by the law 
which governs federal fisheries management: the Magnuson-Stevens Act. I 
introduced one of the bills under consideration today, and cosponsored 
several others, that are designed to correct many of these flaws. We 
talk a lot about jobs; well that's exactly what these bills are all 
about. Fishermen in this country are hurting badly. They can't afford 
to wait years for relief; they need it now. I strongly urge the 
Committee to move these bills as soon as possible.
    My bill--H.R. 2753, The Fishery Management Transparency and 
Accountability Act, would bring sunlight to the proceedings of federal 
fisheries managers. The bill would require the federal Regional Fishery 
Management Councils and the Science and Statistical Committees (SSC) to 
broadcast their meetings live over the Internet. It would also require 
the Councils to make transcripts and video/audio recordings of these 
meetings freely available to the public through their websites for 
three years after the meetings.
    I was alerted to the need for this legislation after hearing from 
fishermen in my district who wanted to follow the Council's proceedings 
but could not do so due to the time and expense involved with attending 
in person. Nor could these fishermen go back and review past Council 
meetings, because the Council did not make recordings of Council 
meetings available over the internet.
    Under the Magnuson Act, the Regional Councils and SSCs have the 
power to determine the economic livelihoods of fishermen and their 
communities. Given the importance of Council and SSC decisions, 
fishermen ought to be able to easily monitor their proceedings. But 
times are tough and fishermen don't have the money or the time to 
travel to council meetings for days at a time several times a year. 
This bill would fix that problem.
    Mr. Chairman, this bill is a common sense measure to add sunlight 
to the fisheries management process, and I urge the Committee to 
support it.
                                 ______
                                 
    The Chairman. I thank the gentleman for his testimony, and 
now I am pleased to recognize a member of the Committee, the 
gentleman from Virginia, Mr. Wittman.

  STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Wittman. Thank you, Chairman Hastings, Ranking Member 
Markey. I appreciate you taking the opportunity to schedule 
this important hearing on amendments to the Magnuson-Stevens 
Fishery Conservation and Management Act. As we all know, 
conserving our natural resources for generations to come is a 
top priority not only for myself but I know for members of this 
Committee and others.
    I grew up around the Chesapeake Bay, which we all know is a 
national treasure and one that depends on the health of our 
ecosystem and the resources that are within it. The Bay is also 
an economic engine which is critical to local jobs and 
communities similar to those in other coastal regions around 
this great country. Preserving these resources requires 
attention to detail, to science, resource allocation and 
management.
    Today I am here to address the need for the House to pass 
H.R. 2304, the Fishery Science Improvement Act, and I am proud 
to author this legislation which seeks to ensure that the 
management of saltwater fisheries is based on sound science. 
H.R. 2304 addresses a timely issue that must be addressed 
before the end of this year to prevent uninformed fishery 
management decisions that would impose undue catch limits to 
the detriment of recreational and commercial fishermen.
    I want to thank the 34 bipartisan cosponsors of H.R. 2304, 
many of whom are members of the Natural Resources Committee. 
This legislation is supported by the Congressional Sportsmen 
Caucus, along with a broad coalition of industry and 
conservation organizations. Additionally, this week Senators 
Bill Nelson and Marco Rubio introduced companion legislation in 
the Senate.
    When the Magnuson-Stevens Act was reauthorized in 2006, 
Congress assumed that ending overfishing and requiring strict 
annual catch limits, known as ACLs, would result in better 
long-term health and vitality for our nation's marine 
resources. Congress assumed that improvements in data 
collection and scientific assessments would result in healthier 
resources and even more recreational fishing to help fuel this 
nation's economy.
    However, since 2006, the collection of fisheries data has 
not kept up with the pace of requirements of Magnuson. The lack 
of adequate data has caused problems with several major 
fisheries around the country, including black sea bass, 
amberjack and South Atlantic red snapper fisheries. For the 
past five years or so, it appears that the National Oceanic and 
Atmospheric Administration has not collected adequate data to 
implement the requirements in Magnuson. Because of the lack of 
data and a rapidly approaching deadline, they are being forced 
to move ahead without the necessary science.
    The agency faces a December 31, 2011, deadline to put 
annual catch limits in place for all 521 fish stocks and stock 
complexes under Federal management, most of which have never 
been scientifically assessed. Despite the significant lack of 
scientific data, NOAA is likely to impose strict limits on fish 
about which they have little or no information. These limits 
will also be applied to fish that are very clearly highly 
abundant. Because of the lack of data, NOAA Fisheries is forced 
to guess and to make assumptions about the status of many fish 
stocks. That was certainly not the intent of Magnuson-Stevens.
    The Fishery Science Improvement Act has three key 
provisions. First, if the agency hasn't done a stock assessment 
in the past five years and there is no indication that 
overfishing is occurring, there is no requirement to set an 
annual catch limit.
    Second, to avoid removing the fish species from management 
and leave them in the jurisdiction of the agency, our bill 
allows the agency to put certain fish into an ecosystem 
category. This classification is already informally in use by 
the agency but without specific parameters. This bill 
statutorily authorizes the category and broadens the 
eligibility for stocks of fish that can be placed in the 
category.
    Finally, the Fishery Science Improvement Act gives NOAA 
Fisheries three years to go back and work with regional 
councils to figure out how to implement science-based 
overfishing measures that are appropriate for each region and 
each species of fish.
    This bill is very concise, simple and targeted. We have a 
very significant and specific problem with how NOAA is 
implementing Magnuson-Stevens. Congress must act accordingly. 
Without congressional action, arbitrary decisions affecting 
millions of anglers and thousands of businesses will continue 
to be made. I urge my colleagues to support sound science and 
resource management by supporting H.R. 2304, the Fishery 
Science Improvement Act. Mr. Chairman, with that, I yield back.
    [The prepared statement of Mr. Wittman follows:]

    Statement of The Honorable Robert J. Wittman, a Representative 
                 in Congress from the State of Virginia

    Mr. Chairman,
    Thank you for scheduling this important hearing on amendments to 
the Magnuson-Stevens Fishery Conservation and Management Act.
    Conserving our natural resources for generations to come is a 
priority for me and many of the folks here with us today. I grew up 
around the Chesapeake Bay, a national treasure, and one that depends 
upon the health of our ecosystem and the resources in it. Critical to 
local jobs and communities, the Bay is also an economic engine, as so 
many of our natural resources are.
    Preserving these resources requires attention to detail--to 
science, resource allocation, and management.
    Today I am here to address the need for the House to pass H.R. 
2304, the Fishery Science Improvement Act. I am proud to author this 
legislation which seeks to ensure that the management of saltwater 
fisheries is based on sound science.
    H.R. 2304 addresses a timely issue that must be addressed before 
the end of this year, to prevent uninformed fishery management 
decisions that would impose undue catch limits to the detriment of 
recreational and commercial fishermen.
    My thanks to the 34 bipartisan cosponsors of H.R. 2304, many of 
whom are members of the Natural Resources Committee. This legislation 
is supported by the Congressional Sportsmen's Caucus, along with a 
broad coalition of industry and conservation organizations. 
Additionally, this week Senator Bill Nelson and Senator Marco Rubio 
introduced companion legislation.
    When the Magnuson-Stevens Act was reauthorized in 2006, Congress 
assumed that ending overfishing and requiring strict Annual Catch 
Limits--known as ACLs--would result in better long-term health and 
vitality for the nation's marine resources.
    Congress assumed that improvements in data collection and 
scientific assessments would result in healthier resources and even 
more recreational fishing to help fuel the nation's economy. However, 
since 2006 the collection of fisheries data has not kept pace with the 
requirements of Magnuson. The lack of adequate data has caused problems 
with several major fisheries around the country including black sea 
bass, amberjack and south Atlantic red snapper fisheries.
    For the past five years or so, it appears the National Oceanic and 
Atmospheric Administration (NOAA) has not collected adequate data to 
implement the requirements in Magnuson. Because of the lack of data and 
a rapidly approaching deadline they are being forced to move ahead 
without the necessary science.
    The agency faces a December 31, 2011 deadline to put annual catch 
limits in place for all 528 fish stocks and stock complexes under 
federal management--most of which have never been scientifically 
assessed.
    Despite the significant lack of scientific data, NOAA is likely to 
impose strict limits on fish about which they have little to no 
information. These limits will also be applied to fish that are, very 
clearly, highly abundant.
    Because of the lack of data NOAA Fisheries is forced to guess and 
make assumptions about the status of many fish stocks. This is not the 
intent of Magnuson-Stevens.
    The Fishery Science Improvement Act has three key provisions:
    1.  First, if the agency hasn't done a stock assessment in the last 
five years and there is no indication that overfishing is occurring, 
there is no requirement to set an Annual Catch Limit.
    2.  Second, to avoid removing the fish species from management and 
leave them in the jurisdiction of the agency, our bill allows the 
agency to put certain fish into an ``ecosystem'' category. This 
classification is already informally in use by the agency but without 
specific parameters. This bill statutorily authorizes the category and 
broadens the eligibility for stocks of fish that can be placed in the 
category.
    3.  Finally, the Fishery Science Improvement Act gives NOAA 
Fisheries three years to go back and work with the regional councils to 
figure out how to implement science-based overfishing measures that are 
appropriate for each region and its fish.
    This bill is very concise, simple and targeted.
    We have a very significant and specific problem with how NOAA is 
implementing the Magnuson Stevens Act. Congress must act accordingly.
    Without Congressional action, arbitrary decisions affecting 
millions of anglers and thousands of businesses will continue to be 
made.
    I urge my colleagues to support sound science and resource 
management, by supporting H.R. 2304, the Fishery Science Improvement 
Act.
                                 ______
                                 
    The Chairman. I thank the gentleman, and he yielded back 
one second. That is very good.
    I am now pleased to recognize another member of the 
Committee and a new Member of Congress, the gentleman from New 
Jersey, Mr. Runyan.

STATEMENT OF HON. JON RUNYAN, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Runyan. Thank you, Chairman Hastings and Ranking Member 
Markey, for holding this legislative hearing today.
    Federal fisheries management reform is an issue that is 
very important to those coastal communities throughout the 
country, including those in my home state of New Jersey. The 
commercial and recreational fishing industries are vitally 
important to our nation's struggling economy. In 2009, the 
recreational commercial fishing industry employed 46,400 people 
and represented a total added value to the economy of over $2.8 
trillion. The goal of my two bills is to keep these 46,400 men 
and women working, and both of these bills are jobs bills.
    Poor, outdated science, overly cautious decisionmaking and 
top down flawed fishery management plans have all conspired to 
drive many of our struggling fishermen out of business and have 
damaged our coastal economies. Since the last reauthorization 
of Magnuson-Stevens in 2006, we have lost the delicate balance 
between a sustainable, healthy fishery industry and 
conservation. These goals can and must be achieved without one 
goal overriding the other.
    H.R. 1464, the American Angler Preservation Act, has a 
number of provisions that seek to restore this balance, and 
these provisions include the outside peer reviews of certain 
recommendations that increase or decrease the annual catch 
limit quotas by 20 percent or more. This will ensure that 
drastic reductions in catch share are significantly accurate, 
requiring all these recommendations to be risk neutral. Too 
often in the past recommendations have included built-in 
caution that reduced the total allowable catch.
    Requiring the Secretary of Commerce to rule on fishery 
disasters within 60 days, this will help to provide disaster 
relief to a fishing community in a timely fashion and prevent 
the Secretary from ignoring those struggling due to government 
regulation.
    Requiring Science and Statistical Committee five-year 
research priorities to be presented to Congress, which will 
provide greater transparency and allow Congress to more 
thoroughly perform its oversight role and also, like many other 
of my colleagues, adding flexibility to our 10-year rebuilding 
plans, preventing the Secretary of Commerce from closing a 
fishery without accurate science and extending the Gulf of New 
England catch share referendums to the rest of the eastern 
seaboard.
    H.R. 2772, the Saving Fishing Jobs Act of 2011, seeks to 
tackle the issue of catch shares on the Atlantic and in the 
Gulf Coast. These programs have been a favorite of NOAA 
Administrator Jane Lubchenco as she has chosen to force them 
upon the Atlantic and Gulf fishermen, even going as far as 
calling catch share programs by a different name to avoid a 
referendum vote as required by law in New England.
    Ms. Lubchenco has previously stated a goal of seeking, and 
I quote, ``a stable fraction of the fishing fleet eliminated.'' 
Catch shares programs are the means to her end goal of putting 
fishermen out of business. Catch share programs have become 
increasingly popular due to the fact that they have been proven 
to consolidate the fishing fleet and put small fishermen out of 
business.
    The nonpartisan consumer watchdog, Food and Water Watch, 
has noted that if more catch share programs are implemented, 
and I quote, ``many traditional fishermen will be forced out of 
work, economies of their communities will crumble, there will 
be an increased risk of harm to our oceans, and consumers will 
probably end up with lower quality seafood.'' The Food and 
Water Watch also found in 2010 that after the New England catch 
share program was implemented the number of boats in the water 
went from 500 to 253, costing thousands of fishermen their 
jobs.
    Mr. Chairman, I would like to submit for the record a 
letter of support from the Food and Water Watch for H.R. 2772 
and a letter of support from the Garden Seafood Association on 
both of these bills.
    The Chairman. Without objection, both will be included in 
the record.
    Mr. Runyan. Thank you.
    Mr. Runyan. H.R. 2772 is simple. It extends the referendum 
vote on catch share programs throughout the entire Atlantic 
Coast and Gulf and closes down a new catch share program if it 
puts 15 percent or more of the fishermen out of business.
    It does not eliminate the option to implement a new catch 
share program and applies only to preexisting programs. It is 
meant to encourage those designing the programs to consider 
jobs. This is a common sense bill, and it will save jobs that 
government regulators at NOAA are on a mission to destroy.
    At a time of 9 percent unemployment, we need to consider 
every jobs bill we can. My two bills will save jobs, and I urge 
the Committee to fully consider each of them. I thank you for 
allowing me to testify today, and I yield back the balance of 
my time.
    [The prepared statement of Mr. Runyan follows:]

  Statement of The Honorable Jon Runyan, a Representative in Congress 
        from the State of New Jersey, on H.R. 1646 and H.R. 2772

    Chairman Hastings and Ranking Member Markey thank you for holding 
this legislative hearing today. Federal fisheries management reform is 
an issue that is very important to those in coastal communities 
throughout the country, including those in my home state of New Jersey.
    The commercial and recreational fishing industries are vitally 
important to our nation's struggling economy. In 2009 New Jersey's 
recreational and commercial fishing industries employed 46,400 people 
and represented a total added value to the economy of over $2.8 
trillion dollars. The goal of my two bills is to keep these 46,400 men 
and women working. These are both jobs bills.
    Poor outdated science, overly cautious decision making, and top 
down flawed fishery management plans have all conspired to drive many 
of our struggling fishermen out of business and have damaged our 
coastal economies. Since the last re-authorization of Magnuson-Stevens 
in 2006 we have lost the delicate balance between a sustainable healthy 
fishing industry and conservation. These goals can and must be achieved 
without one goal overriding the other.
    H.R. 1646, The American Angler Preservation Act, has a number of 
provisions that seek to restore this balance. These provisions include:
        <bullet>  Outside peer reviews of certain recommendations that 
        increase or decrease annual catch limit quotas by 20% or more. 
        This will ensure that drastic reductions in catch are 
        scientifically accurate.
        <bullet>  Requiring all of these recommendations to be risk 
        neutral. Too often in the past recommendations have included 
        built in caution that has reduced the total allowable catch.
        <bullet>  Requiring the Secretary of Commerce to rule on 
        fisheries disasters within 60 days. This will help to provide 
        disaster relief to a fishing community in a timely fashion and 
        prevent the Secretary from ignoring those struggling due to 
        government regulation.
        <bullet>  Requiring Science and Statistical Committee 5 year 
        research priorities to be presented to Congress. This will 
        provide greater transparency and allow Congress to more 
        thoroughly perform its oversight role.
        <bullet>  Adding flexibility to 10 year rebuilding plans
        <bullet>  Preventing the Secretary of Commerce from closing a 
        fishery without accurate science
        <bullet>  Extending the Gulf and New England catch share 
        referendums to the rest of the Eastern Seaboard
    H.R. 2772, The Saving Fishing Jobs Act of 2011seeks to tackle the 
issue of catch shares on the Atlantic coast and in the Gulf. These 
programs have been a favorite of NOAA Administrator Jane Lubchenco and 
she has chosen to force them upon Atlantic and Gulf fishermen, even 
going as far as calling catch share programs by a different name to 
avoid a referendum vote, as required by law, in New England. Ms. 
Lubchenco has a previously stated goal of seeing, ``a sizable fraction 
of the (fishing) fleet eliminated.'' Catch share programs are the means 
to her end goal of putting fishermen out of business.
    Catch share programs have become increasingly unpopular due to the 
fact that they have been proven to consolidate the fishing fleet and 
put small fishermen out of business. The non-partisan consumer 
watchdog, Food & Water Watch has noted that if more catch share 
programs are implemented, ``. . .many traditional fishermen will be 
forced out of work, economies of their communities will crumble, there 
will be increased risk of harm to our oceans, and consumers will 
probably end up with lower-quality seafood (http://
www.foodandwaterwatch.org/fish/fair-fish).'' Food and Water Watch also 
found in 2010 after a New England catch share program was implemented, 
the number of boats in water went from 500 to 253 costing thousands of 
fishermen their jobs. Mr. Chairman, I would like to submit for the 
record a letter of support from Food and Water Watch for H.R. 2772, and 
a letter of support from the Garden State Seafood Association for both 
bills.
    H.R. 2772 is simple. It extends the referendum vote on catch share 
programs throughout the entire Atlantic Coast and Gulf and closes down 
a new catch share program if it puts 15% or more of fishermen out of 
business. It does not eliminate the option to implement a new catch 
share program and applies only to pre-existing programs. It is meant to 
encourage those designing the programs to consider jobs. This is a 
common sense jobs bill; it will save the jobs that government 
regulators at NOAA are on a mission to destroy.
    At a time of 9% unemployment we need to consider every jobs bill we 
can. My two bills will save jobs and I urge the Committee to fully 
consider each of them. Thank you for allowing me to testify today and I 
yield back the remainder of my time.
                                 ______
                                 
    The Chairman. I thank the gentleman for his testimony.
    And last but certainly not least, the junior member of the 
Massachusetts delegation, Mr. Keating.

STATEMENT OF HON. WILLIAM KEATING, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Keating. Thank you, Chairman Hastings and 
Representative Markey, Ranking Member. As a frustrated 
tailback, I always wanted this opportunity, an opportunity that 
NFL runningbacks have had for a number of years, and that is to 
follow my colleague, Mr. Runyan. I get my wish.
    Not exactly the way I planned it, but hopefully there is a 
little hole I want to hit that I think we can all agree on and 
maybe get some yardage on, and that is one of the issues that 
is plaguing the fishing industry, which is so often complex 
issues and so often unfortunately divisive issues.
    But we sit here this morning I think in full agreement of a 
common crisis facing fishermen from Massachusetts to North 
Carolina, and it is the urgent need for increased research, 
hard scientific data, in order to implement fair and effective 
fisheries management policies.
    I am not here to debate the effectiveness of these 
policies. On the contrary, I will speak on the first bill that 
I introduced as a Member of Congress, and that is a bill to--I 
always love these things--Strengthen Fisheries Management in 
New England Act of 2011. But the bill is simple, and I think it 
really accomplishes a couple of important purposes. It reroutes 
funds collected through penalties imposed by NOAA, the National 
Oceanic and Atmospheric Administration for the improvement of 
national New England fisheries.
    What is currently the law now is that the fines that are 
collected by the fishermen who have violated or allegedly 
violated marine resource laws be invested in NOAA's Asset 
Forfeiture Fund. As we have already heard in previous 
testimonies, NOAA and the Asset Forfeiture Fund have been 
subjects of a wide range of accusations and investigations into 
the abuse and misuse of these funds.
    Just last year the Department of Commerce Inspector General 
found that these abuses included the use of monies in the Asset 
Forfeiture Fund to buy cars for Federal agents, to cover trips 
and conferences to exotic and distant locations and even to 
purchase a $300,000 luxury vessel used by government employees. 
It was subsequently determined that NOAA did not regularly 
audit these funds and couldn't disclose precisely how much of 
these asset forfeiture funds were spent.
    I introduce this bill in order to really right these 
wrongs, and that is one of the benefits of the bill, and 
restore trust in our government with the proper oversight. But 
the bill directs the Secretary of Commerce to provide the New 
England Fisheries Management Council with the funds collected 
by NOAA as fines and penalties from New England's fishermen to 
be used directly toward improving the research and management 
of our region's most valuable resource.
    The New England Fisheries and Management Council is charged 
under the Magnuson-Stevens Act to manage fisheries in the 
Federal waters of New England. Each year it identifies research 
and monitoring priorities, most of which lack adequate funding. 
In order to make sound management decisions, the council has to 
increase the capacity to address these gaps in knowledge, and 
the Strengthening Fisheries and Management in New England Act I 
believe will do this and it will allow them to make better and 
more informed decisions that balance the continued protection 
of the marine ecosystem with the need for strong, profitable 
fishing businesses in coastal communities.
    One of the most critical parts of this is it doesn't 
increase Federal spending. Rather, the bill redirects existing 
funds. In this way, the monies will be there to support many 
fishing related jobs crucial for the economic health of our 
region, all of which depend on sound resource management.
    There have been a few measures this session that have 
received such broad bipartisan support, and this is one of them 
I think that stands out. This is an area where we deal with the 
issue of asset forfeiture and we deal with the issue of the 
lack of adequate funding for science. We can do two things at 
the same time and protect our fishing industry in this respect.
    We had a hearing in Boston just recently where it was 
actually the U.S. Senate Commerce Subcommittee, and we were 
invited in, Representative Frank, myself, Representative 
Tierney from Massachusetts and Senator Brown with Senator 
Begich and Senator Kerry, and we talked about the troubles with 
NOAA, and really almost all of that focused on the lack of 
research and science.
    Here is an opportunity with no extra expenditures of money 
to take the inherent conflicts that are there and proven to be 
there with the investigations on the asset forfeiture accounts 
and to alleviate that conflict and then take the funds and use 
it somewhere where we can help our fishing industry. I really 
think there is no real reason not to move in that direction. It 
is just good common sense, and it accomplishes two important 
gains I think on the fishing industry.
    So, with that, I would like to ask you to consider this. I 
think it is something that we could move ahead on in an area 
where there is often division, and I would like to take my last 
20 seconds also to indicate my support for a bill I cosponsored 
with my colleague, Mr. Frank from Massachusetts, H.R. 2610.
    I think these issues can be dealt with. In many respects it 
is unfortunate that they rest on the doorstep of Congress 
because they are not dealt with in other areas, but we are 
fortunate to have a Congress that will bear into their mindset 
these important issues and look at it more objectively.
    So thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Keating follows:]

  Statement of The Honorable William R. Keating, a Representative in 
Congress from the State of Massachusetts, on H.R. 1013, The Strengthen 
               New England Fishery Management Act of 2011

    Chairman Hastings, Ranking Member Markey, and members of the 
Committee, thank you for the opportunity to testify before your 
committee on an issue of great importance--not only to the residents of 
the Bay State, whom, as my colleagues from Massachusetts know all too 
well, rely on the fishing industry as a source of livelihood, but to 
all states with access to fishing stocks.
    The issues currently plaguing the fishing industry are complex and 
divisive. Yet, here we sit this morning in full agreement that the 
common crisis facing fishermen from Massachusetts to North Carolina is 
the urgent need for increased research and hard, scientific data in 
order to implement fair and effective fisheries management policies.
    I am not here to debate the effectiveness of these policies; on the 
contrary, I will speak on the first bill that I introduced as a Member 
of Congress: the Strengthen Fisheries Management in New England Act of 
2011.
    My bill, H.R. 1013, reroutes funds collected through penalties 
imposed by the National Oceanic and Atmospheric Administration (NOAA) 
to the improvement of New England fisheries.
    Current law requires that the fines collected from fishermen who 
have violated marine resource laws be invested in NOAA's Asset 
Forfeiture Fund. As we have already heard in previous testimony, NOAA 
and the Asset Forfeiture Fund have been the subjects of a wide range of 
accusations and investigations into the abuse and misuse of these 
funds.
    Just last year the Department of Commerce's Inspector General found 
that these abuses included the use of monies from the Asset Forfeiture 
Fund to:
        <bullet>  buy cars for federal agents;
        <bullet>  to cover trip expenses to conferences in exotic and 
        distant locations;
        <bullet>  and to even purchase a $300,000 luxury vessel used by 
        government employees
    It was subsequently determined that NOAA did not regularly audit 
the use of those funds and could not disclose precisely how the AFF 
monies were spent.
    I introduced the Strengthen Fisheries Management in New England Act 
in order to right these wrongs and restore trust in our government 
through proper oversight.
    My bill directs the Secretary of Commerce to provide the New 
England Fishery Management Council with the funds collected by NOAA as 
fines and penalties from New England's fishermen to be used directly 
toward improving the research and management of our region's most 
valuable resource.
    The New England Fishery Management Council is charged under the 
Magnuson-Stevens Act to manage fisheries in the federal waters of New 
England, and each year it identifies research and monitoring 
priorities, most of which lack adequate funding. In order to make sound 
management decisions, the Council must have the increased capacity to 
address these knowledge gaps.
    The Strengthen Fisheries Management in New England Act will 
undoubtedly enable the Council to make better, more informed decisions 
that balance the continued protection of the marine ecosystem with the 
need for strong, profitable fishing businesses and coastal communities.
    Perhaps most critical in today's political climate: this 
legislation does not increase federal spending. Rather, the bill re-
directs existing funds. In this way, monies will support and protect 
the many fishing-related jobs crucial to the economic health of our 
region--all of which depend on sound resource management.
    As I said before, there have been few measures this session of 
Congress that have received such broad bipartisan support as the need 
to increase scientific research of stock assessments. Here you have a 
panel of Members from both sides of the aisle who fully support this 
initiative.
    In addition, I am proud to be a cosponsor of the bill, H.R. 2610, 
introduced by my colleague and dear friend from Massachusetts, Mr. 
Frank, which I believe will also go a far way in protecting our fishing 
industry from excessive fines.
    The fishing industry is a central part of Massachusetts' and New 
England's history, and remains a vital economic lifeline of our local 
communities. In recent years, our fishermen's businesses have suffered 
due to inadequate data collection that dictates catch quantities. We 
can--and we must--implement fair and effective fisheries management 
policies while targeting government abuse and inefficient waste.
    Chairman Hastings and Ranking Member Markey, I thank you for 
allowing me to testify before this committee and I hope to serve as a 
resource to you as Congress continues to work on this important matter.
                                 ______
                                 
    The Chairman. I thank the gentleman very much. Normally we 
don't ask questions of our colleagues, but I know there is a 
burning desire on the part of my Ranking Member to ask 
questions, so I will allow others if they would like to. I 
recognize the gentleman from Massachusetts.
    Mr. Markey. I thank you, Mr. Chairman. And that is just to 
give the two gentleman from Massachusetts an opportunity just 
to briefly expand on what additional funding for stock 
assessments means in a Massachusetts context in terms of our 
fishing industry. What would that mean in terms of our fishing 
industry? Mr. Frank?
    Mr. Frank. Well, I thank my colleague for that. It really 
ties into a point that the Chairman made, which is we have now 
the agency acting expressly on the precautionary principle, 
that is, if they are going to err, they are going to err on the 
side of less catch because of the need to conserve.
    What that means is that error is not neutral or not error, 
but imprecision is not neutral. The less precise we are, the 
more uncertain they are, the more they are going to go to the 
precautionary principle the Chairman correctly pointed out. So 
this is a case where the more accurate it is the better off we 
are. Look, if it is more accurate and it says there are less, 
OK.
    It is also the case that one of the things I think has been 
proven is that fishermen aren't dummies. They have a very real 
knowledge of what is going on. I can think of cases, in the 
case of New Bedford, the City of New Bedford brings in more 
dollar value for catch than any other port in America. A large 
part of that is because of the scallop fishery.
    Fifteen years ago there was a debate about the scallop 
fishery, and there was a bureau in NOAA, the previous 
Administration obviously, that said, ``No, No, we have got to 
shut back,'' and the scallopers said, ``No, we are telling you 
they are out there.'' The Secretary of Commerce at the time, 
Mr. Daley, now the Chief of Staff for the White House, listened 
and decided to allow the increase, and it turned out the 
scallopers were right. Again, these are people who are out 
there who have some real knowledge, though that doesn't mean 
they have some self-interest. They can't be given the unlimited 
view there. But there have been cases before where their 
knowledge gets taken into account.
    So, yes. Just to summarize, given the fact the more 
imprecision there is, the less certainty NOAA has, the more 
they are going to be inclined to be restrictive. So better 
science is a good thing because it is better science, and it 
also will lessen the possibility of an undue restrictive 
regime.
    Mr. Markey. Mr. Keating?
    Mr. Keating. Yes. Thank you, Ranking Member Markey, and 
thanks for giving us this time. At that same meeting they were 
very clear. They said that they did not have reliance and a 
real sense of security in their science, and yet when I asked 
them why they do the most conservative estimates they say that 
well, they are not only imprecise, but they are going to be 
conservative on top of it.
    We have to remember this, and you ask what it means for our 
state. It is often forgotten that the fishing industry is a 
group of small businesspeople, and they are small 
businesspeople. They don't know how to plan for the next year. 
They are not getting information in a consistent way that is 
dependable.
    Can you imagine for a second any other small business in 
your communities that are working under this environment where 
they don't know what next year means, they don't know what is 
going to happen and there are regulations imposed on them that 
have no security or no basis in fact, and on top of that to 
take the most conservative estimates and say we are going to 
lowball those?
    It would mean that small businesses that otherwise would 
perish have a chance to succeed again. That is what it means in 
our district and I think the whole coast, so that is what it 
means in the last analysis. It means not only jobs, but it 
means family businesses that have been there for generations 
not being wiped out because of imprecise estimates and poor 
science. My bill goes through the point of saying, you know 
what? It is a hard thing to appropriate new monies now in this 
Congress. There are monies available. Let us use those monies 
to help the science.
    Mr. Markey. I thank the gentleman.
    Mr. Holt. Would the gentleman yield?
    Mr. Markey. I would be glad to yield to the gentleman.
    Mr. Holt. On that point, there are several million dollars 
I guess is the balance. How far will that go in the science? 
How expensive is this science?
    Mr. Keating. Well, I am not going to sit here and say this 
is going to solve the problem of adequately funding all the 
science. It is certainly going to enhance it, and it will also 
do away with the conflict issue at the same time. So we would 
like to be able to fund everything as fully as possible, but 
there are lag times in these scientific reports too, again 
getting back to the point I just made, that from year to year 
they don't know what they are facing.
    But this will go I think a significant way in providing 
some more additional funding at a time that this Congress is 
having a hard time getting any additional funding and do it in 
a way that will accomplish another benefit.
    Mr. Frank. Could I just add one point, and I think this is 
already in the authority of the councils. We want to make clear 
on the way the precautionary principle works in a nonneutral 
fashion. Under the way NOAA has been working and the council 
has been working, if there is an underestimate, if it turns out 
too many fish were caught, in the next year all of that excess 
is deducted from the catch, but if there is an underestimate, 
only 10 percent is allowed. I mean, it is a one-way street.
    If too many fish are caught, all the excess is deducted, 
but if it turns out the amount of the catch was under what was 
allowed, in some places they only get 10 percent of that. It 
ought to be even. That is an example. Again, the better 
information we have the less we are going to see that kind of 
unfairness.
    The Chairman. I will recognize myself just briefly. I will 
say that the idea that has been expressed here in the response 
especially from the two gentlemen from Massachusetts has been 
more flexibility and I will put in more local control. I think 
you will find that that will be well accepted on our side of 
the aisle on how we approach this. In fact, I alluded to that 
in my opening statement, so I am very pleased to hear that.
    And to the notion of certainty that Mr. Keating talked 
about, I just can't pass up saying that to expand the argument 
to a larger level like our national Tax Code, there certainly 
needs to be some certainty in the Tax Code for the small 
businesses that create the jobs in our country to have some 
certainty in the long run for that.
    So, to the extent that we can agree on that, I hope that in 
the longer run, even though this Committee doesn't have 
jurisdiction on tax policy, that we could possibly agree on 
that because I think that would be a big, big step to get 
America back to work too.
    So, with that, are there any other questions? Mr. 
Southerland? Mr. Southerland from Florida first.
    Mr. Southerland. Thank you, Mr. Chairman. Mr. Frank, I know 
that in your opening comments you talked about removing the 
possibility of fines being laid and then that department being 
able to receive the benefit of that. It kind of puts the fox 
over the henhouse.
    Mr. Keating, I just want to make sure I have clarification 
because it sounds like, and if I am wrong please correct me, it 
sounds like what you are alluding to in your proposal is 
exactly what Mr. Frank was trying to prevent, so I want to make 
sure for just clarification purposes that you are not in 
opposition, because it sounds like in your explanation that you 
were.
    Mr. Keating. Well, if I could, I think the common ground 
between the two would be that the enforcement of those fines 
has not been level, and the oversight that is necessary and the 
reason perhaps why it has been so criticized is it just hasn't 
been even, and that is the message we are getting back from so 
many people in the fishing industry.
    You know, I guess one area to even it out is not to fine at 
all. I think the more probable outcome will be there will be 
some deterrence because of that, but it should be done evenly 
and not excessively and not done--we heard stories where people 
just gave up because the legal expense of defending against 
those fines was more burdensome than the fines themselves. So I 
guess the common ground between the two parts of the testimony 
is the system needs greater change in oversight as well, and I 
guess for my part I wouldn't say eliminate every fine, but 
certainly eliminate the way you are doing it now.
    Mr. Southerland. Well, I don't think any of us are saying 
we need to eliminate fines when there are violations. I think 
that what Mr. Frank----
    Mr. Frank. Can I just say I appreciate that. It is a very 
important point. I agree, and you correctly stated what I 
think. You don't want the incentive, but it is also true that 
it can be a valuable resource. That is why the legislation that 
I put forward that is cosponsored by a number of people here, 
and bipartisan, makes the money available for research but at 
the state level. Every state that is a fishing state has its 
own entity that does research.
    So I think that is a way to get the best of both worlds. 
You don't allow the agency that is allowed to make the decision 
that results in the money get any way to spend the money, but 
you do say that it goes to research and it goes to the states, 
and that is what that legislation does.
    Mr. Southerland. OK. All right. Thank you. I yield back.
    The Chairman. The gentleman yields back. Mr. Kildee?
    Mr. Kildee. I just want to especially welcome Jon Runyan to 
the table. Jon's roots are in my district. He went to high 
school there, went to church there, and I am glad you live in 
New Jersey now rather than my district right now.
    [Laughter.]
    Mr. Kildee. You are a very effective congressman.
    Mr. Frank. And he had the benefit of you being in Congress 
when he went to high school I think.
    [Laughter.]
    Mr. Kildee. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. If there are no 
further questions of the panel, I want to thank all of you for 
your testimony. If there is any followup from any of our 
Members, certainly we would like a quick response if that 
should happen. With that, I will dismiss the panel.
    While they are being dismissed, if the next panel can 
prepare to come forward? We have Mr. Rick Marks, who is a 
principal in Hoffman Silver Gilman & Blasco; Mr. Bob Zales, 
President of the National Association of Charterboat Operators; 
Mr. Chris Oliver, Executive Director of the North Pacific 
Fishery Management Council; Mr. Mike Colby, Double Hook Charter 
Boat from Clearwater, Florida; Mr. Peter Shelley, Senior 
Counsel, Conservation Law Foundation; and Mr. Robert G. Hayes, 
a recreational fishing representative.
    I want to thank all of you for being here. Your full 
statement that you have submitted to the Committee will be part 
of the record, and I would like you to summarize your statement 
within the five-minute timeframe. The timing lights in front of 
you start with a green light, meaning you have a full five 
minutes. When the yellow light comes on it means you have one 
minute, and when the red light comes on that means that your 
time has expired, and I would certainly ask you to try to keep 
your comments within the constraint of time.
    So, with that, I am very pleased to welcome our first 
witness, Mr. Rick Marks, who is a principal of Hoffman Silver 
Gilman & Blasco. Mr. Marks, you are recognized for five 
minutes.

                   STATEMENT OF RICK MARKS, 
           PRINCIPAL, HOFFMAN SILVER GILMAN & BLASCO

    Mr. Marks. Thank you, Chairman Hastings, Ranking Member 
Markey and members of the Committee. It is an honor.
    The 2006 amendments fundamentally altered our fish policy. 
We essentially applied the Alaska model to the rest of the 
country, a good idea provided the high quality science in the 
Alaska region also applied. Well, we all know that it doesn't. 
Instead, we ended up with a rigid implementation model 
resulting in precautionary buffers and lower yields at the 
expense of our industry and our nation.
    Mr. Chairman, we should not be allowed to fish with no 
regulation, but we can't fish with too much either, and I 
believe we need to develop a comprehensive package to rebalance 
our policy and have that ready to move at the earliest 
appropriate time. There are eight bills before this body, and 
they provide fertile ground for moving forward.
    Mr. Frank and Mr. Keating are to be commended for their 
efforts to achieve AFF reform and to provide science for 
fisheries research. I recommend combining 1013 with the more 
comprehensive 2610, noting that even a small amount of 
additional fishery science can literally save a fishery. Just 
ask any monkfish fisherman from Wiscasset, Maine, to Wanchese, 
North Carolina.
    In this era of transparency and scientific integrity, it is 
a shame that we even need 2753, but Congressman Walter Jones is 
right to offer it and I support his legislation. Mr. Runyan's 
1646 contains elements of SSC oversight, rebuilding 
flexibility, disaster reform and clarification of what 
information is necessary before closing fisheries, all useful 
considerations.
    1646 and 2772 have the catch share issue well surrounded. 
These programs are not conservation plans. They are a type of 
social engineering, and the Federal Government should not be 
determining who can and cannot work in this country, nor should 
we permit the system to be tainted by elitist NGO's suckling at 
the trust fund teats. If we require an industry petition and a 
referendum as prerequisites to catch share plans, we will 
produce an organic bottom up process, which is exactly as it 
should be.
    Mr. Wittman's 2304 is a valuable asset in that it targets a 
fundamental flaw in the current system, the disconnect between 
scientific capability and rigid control rules. In my opinion, 
this bill takes us to a critical point, and that is a 
recognition that we have very different stocks--core stocks, 
minor stocks, mixed stocks, ecosystem stocks, choke stocks--and 
that we should consider managing them differently and 
commensurate with the data quality and our capabilities, in 
other words, managing within our limitations.
    I understand 2304 is popular with the Sportsmen's Caucus, 
but the legislation still does not address the other pressing 
issues that other members of this Committee have with their 
charter and commercial constituencies. As an advocate for the 
commercial seafood industry, Mr. Chairman, I pledge to you and 
to Mr. Wittman to work with you to make that bill inclusive and 
part of a comprehensive reform package.
    There are useful provisions in 3061 as well, including 
stock rebuilding, SSC oversight and, similar to 2304, the 
concept of limiting ACL requirements in data poor situations. I 
thank Congressmen Pallone and Jones for the provision that 
requires the Secretary to identify when his FMPs are having 
substantial economic impacts and to help try and mitigate 
those. Anytime that we can remind the Secretary and NOAA that 
this is Department of Commerce and not EPA, we need to do so.
    In closing, Mr. Chairman, and in the spirit of the holiday 
shopping season, I brought a list of items that aren't included 
in these bills but perhaps you could consider in your 
Committee: a clear mixed stock exemption that allows a single 
ACL to be set for groups of stocks that are commonly found in 
association with each other; statutory exemptions for 
transboundary stocks and for stocks whose biological 
characteristics prevent us from being able to implement the 
control rules in a reasonable manner. I am talking about 
Atlantic mackerel, butterfish, and Gulf of Mexico spiny 
lobster.
    Provide effective streamlining of NEPA and Magnuson review 
requirements; implement a transparent national framework to 
objectively prioritize fisheries research, stock assessments 
and cooperative research in each region annually for five-year 
periods; allow the option for catch shares to be inclusive of 
shore-based processors in high-volume fisheries such as Alaska 
groundfish, Atlantic mackerel and pelagic squids where there is 
a heavy reliance on processing investment.
    And finally, include a clarifying provision that the 
regional management councils have authority for managing 
fishery resources in national marine sanctuaries and national 
marine monuments. I thank all of you for having me as your 
guest today.
    [The prepared statement of Mr. Marks follows:]

     Statement of Rick E. Marks, Hoffman, Silver, Gilman & Blasco, 
                          Arlington, Virginia

    Chairman Hastings, Ranking Member Markey and distinguished Members 
of the Committee, I appreciate the opportunity to speak with you about 
reforming the Magnuson-Stevens Fishery Conservation and Management Act 
of 2006 (MSA). I am Rick Marks, a principal at Hoffman, Silver, Gilman 
& Blasco P.C. (``HSGB'') of Arlington, VA. Our fisheries clients 
operate in many regions around the nation. Prior to joining HSGB, I was 
appointed by the Secretary of Commerce to serve on the Mid-Atlantic 
Fishery Management Council and worked as a marine fish biologist for 
the State of North Carolina. I worked for NOAA as a Fishery Reporting 
Specialist and a Benthic Field Technician. I hold a Masters Degree in 
Marine Environmental Science with emphasis in Coastal Fish Ecology and 
a Bachelor of Science Degree in Biology. I have authored scientific 
papers in peer-reviewed journals regarding various aspects of finfish 
ecology. I am currently working on professional certification in 
Environmental Conflict Resolution with the Morris K. Udall Foundation 
in Arizona.
    Mr. Chairman, for the record my comments here today are solely my 
own as an advocate for the commercial seafood industry. Please note my 
testimony reflects issues critical to many of my clients whom operate 
in Alaska, Washington, Oregon, California, Florida (both coasts, and 
the FL Keys), New Jersey, New York and Rhode Island.

(1) Need for MSA Reform
    The 2006 MSA Amendments fundamentally altered the way domestic 
fishery resources are managed. The new provisions focused on ending 
overfishing, rebuilding stocks, reducing fishing capacity, and 
developing limited access programs--all in the context of a more 
intensive reliance on fisheries science in the decision-making process. 
The changes created higher demands on science and management. 
Requirements to end overfishing added a whole new layer of requirements 
and tighter deadlines have created premiums for resources and increased 
dependence on short-term monitoring of annual catch limits and quotas. 
In sum, the new MSA demands are high and the federal government is 
struggling to meet those demands within a restrictive budgetary 
situation.
    The fact that the Committee is considering eight bills targeting 
MSA reform is a clear indication serious problems precipitated from the 
2006 authorization. Historically, MSA reauthorizations occur about 
every 10 years so the sheer number of bills introduced thus far further 
supports the need for comprehensive reform, sooner rather than later.
    In 2009 NOAA revised the National Standard One Guidelines (NSG1) 
requiring the Regional Fishery Management Councils (RFMCs) to consider 
both scientific and management uncertainty when setting quotas. The 
revisions were designed to prevent overfishing, rebuild overfished 
stocks, and achieve optimum yield (OY). For the 2006 reauthorization to 
work it requires a heavy reliance on high quality scientific 
information. Unfortunately, this is information that in most regions we 
simply do not have. Juxtaposition of insufficient data with 
consideration of uncertainty in the quota setting process results in 
larger precautionary buffers and lower yields at the expense of the 
industry and our nation. In addition, proliferation of unpopular catch 
share programs has fanned the flames of reform.
    NOAA currently manages 528 stocks of fish. Of this total, roughly 
114 are considered adequately assessed by the agency. Most of the 114 
assessments (approx. 80) occur regularly on economically important 
stocks in Alaska and New England. In other regions, the assessment 
periodicity is reportedly far less, accounting for approximately 15 per 
year in the Gulf of Mexico, South Atlantic and Caribbean combined 
(Angers 2011). Thus, a large majority of fish stocks are data poor or 
not adequately assessed at all with the result being uncertainty 
trumping opportunity for additional fishery yields.
    Congress clearly intended for science-based decision-making to be 
the order of the day. In theory, I agree with this premise but in 
reality, our fishing industry is paying dearly for the lack of adequate 
science. We built an implementation model that exceeds our scientific 
capabilities. We need this Committee to consider comprehensive MSA 
reform at the earliest possible time to effectively rebalance our 
management system.

(2) Comments on Current MSA Legislative Reform Efforts
    H.R. 594: ``The Coastal Jobs Creation Act of 2011'' (Rep. Pallone-
NJ): This legislation would create a national grant program with a 
specified list of qualified activities and funding criteria. On a 
positive note, if funded, the legislation could provide grant 
opportunities to improve science-based decision-making. However, this 
depends on how the specific guidelines are crafted--the Secretary of 
Commerce is given sole responsibility to develop them within 30 days. 
Based on industry's recent experiences with implementation of the MSA, 
National Ocean Policy, Coastal and Marine Spatial Planning, National 
Catch Share Policy, and the most recent 2011 National Fish & Wildlife 
Foundation (NFWF) Bycatch Engineering Grant Program (which was 
disbursed solely to catch share program proponents), it is unclear 
which of the 13 qualified activities would be consistent with NOAA 
philosophy and is therefore problematic absent more detail.
    H.R. 1013: ``The Strengthen Fisheries Management in New England Act 
of 2011'' (Rep. Keating-MA): The U.S. Department of Commerce Office of 
the Inspector General issued report No. OIG-19887 on January 12, 2010. 
The report detailed OIG concerns regarding, among other things, NOAA's 
retention of civil penalties and its Asset Forfeiture Fund (AFF). 
Clearly, NOAA has the statutory authority to retain such relevant 
proceeds. However, the OIG noted concerns about internal controls and 
questions about how such resources were being expended. Congressman 
Keating's responsiveness to the OIG report is to be commended. I agree 
with the basic idea of H.R. 1013; to provide a transparent separation 
between fines/penalties/seizures and program operations, to remove the 
direct incentive for excessive fines, and to use AFF monies for 
improving fisheries management.
    I note two concerns here. First, if all the funds are shifted from 
the AFF then NOAA will have to fund the program from somewhere else in 
its continually shrinking budget. I am concerned that scientific 
funding may suffer in this transaction and we may end up no better in 
the bargain. Second, the bill is New England-centric in that it 
specifies improving fisheries research in the waters off New England 
for fisheries under the jurisdiction of the New England Fishery 
Management Council (NEFMC). However, it is important to note here the 
NEFMC has sole jurisdiction for some fisheries that extend deep into 
the Mid-Atlantic region (e.g. Atlantic scallops, New England 
groundfish, Atlantic herring) and joint jurisdiction with the Mid-
Atlantic Fishery Management Council (MAFMC) for species such as 
Atlantic monkfish. H.R. 1013 should be combined with H.R. 2610 to 
develop a more comprehensive approach.
    H.R. 1646: ``The American Angler Preservation Act'' (Rep. Runyan-
NJ): H.R. 1646 is the most comprehensive MSA reform legislation before 
the Committee. There are a number of provisions contained in this 
legislation that have merit and should be considered (specifically or 
conceptually) for inclusion in a comprehensive MSA reform package. 
First, the bill endeavors to add oversight to the SSC process through a 
peer review trigger, risk-neutral decision making, and requiring the 
SSC to file research recommendations with Congress. At the October 27, 
2009 hearing on the ``Implementation of the Magnuson-Stevens Fishery 
and Conservation Management Reauthorization Act of 2006'' 
Representative Rob Whitman (R-VA-1) questioned then NOAA/NMFS Chief 
Science Advisor Dr. Steve Murawski about the need for SSC oversight. 
Dr. Murawski replied that ``None was planned but that it is a good 
idea'' (Murawski, 2009). I too support the concept of adding SSC 
oversight.
    H.R. 1646 contains similar provisions regarding stock rebuilding 
flexibility included in H.R. 3061, further indicating there are ongoing 
problems with this component of the MSA, at least in the Mid-Atlantic 
region.
    Mr. Runyan's bill also reforms the Fisheries Disaster Relief 
provision contained in Section 312 by requiring the Secretary to make a 
determination within 60 days after the Secretary receives a request. I 
agree with this provision since Section 312 currently applies no time 
constraint for the Secretary to render a declaration, leaving 
constituents in dire economic situations with little recourse.
    The Secretary closed the entire Gulf of Mexico snapper-grouper 
fishery to protect sea turtles for 5 consecutive months starting in 
May, 2009. The Governor of Florida issued a formal request to the 
Secretary for a fisheries disaster declaration along with 350 members 
of the Florida fishing industry who also submitted a letter of support. 
The Secretary did not respond to this situation until early 2011, 
nearly 18 months later, having determined that despite the hardship the 
industry survived the closure so no disaster declaration was necessary.
    Furthermore, the Secretary is placed in the difficult position of 
being both the author of the regulations (that created the problem) and 
the decision authority on the remedy. There is also the complicating 
factor that disaster aid will come from the Department of Commerce 
budget. I believe this puts the Secretary in direct conflict and 
encourages delay in decision-making. To address this conflict it may be 
useful for the Committee to consider, in instances where the disaster 
is the direct result of fisheries regulations implemented by the 
Secretary, that the Small Business Administration (SBA) or some other 
relevant entity have input into the disaster determination.
    H.R. 1646 contains some excellent catch share reform ideas (See 
also H.R. 2772 discussion below). The critical elements of Rep. 
Runyan's approach on catch shares that are absolutely necessary are to 
provide eligible fishermen with a petition and a final referendum on 
how they want to develop their fishery. Only in this way will the 
process be truly organic and industry-driven.
    It is important to note here that catch share programs are not 
conservation tools, they are business plans and a type of social 
engineering. NOAA clearly recognizes this, stating in the National 
Catch Share Policy that ``Taken together, ACLs and LAPs [limited access 
privilege programs] combine the positive benefits of a firm cap on 
fishery removals with the additional benefits of achieving important 
economic and social objectives. . ..'' (NOAA 2010). It is the social 
and economic relevance of a LAP that is all the more reason for the 
fishing industry to have an honest vote in the process.
    H.R. 1646 contains a provision that requires additional 
discussion--the 5-year program termination unless the ongoing program 
is approved by a 2/3rds vote of the participants. There has been much 
discussion in the history of catch shares regarding the ability for the 
fishing industry to effectively finance the purchase (or lease) of 
catch share allocation. I am concerned that a firm sunset trigger might 
hamper financing opportunity and this issue must be thoroughly vetted 
before including such a provision in law.
    That said, once a catch share program is implemented the law does 
not contemplate a clear process for removing it. Thus, a 2/3rds vote of 
the current participants to keep the existing program, concurrent with 
the plan review requirements of Section 303A(c)(G), may be the less 
intrusive but still effective approach to pursue with H.R. 1646.
    Finally, H.R. 1646 provides a certification process for a fishery 
to be closed (including application to fisheries already closed under 
current law). In effect, the Secretary may not close a fishery that 
would have a direct or indirect affect on a specified number of 
businesses at a specified economic impact if certain scientific 
standards are not met. While I am not certain the certification process 
specified in H.R. 1646 provides the most perfect answer, there is great 
value in considering what information is necessary before the Secretary 
can completely close a fishery.
H.R. 2304: ``The Fisheries Science and Improvement Act of 2011'' (Rep. 
        Wittman-VA):
    I believe the basic premise of H.R. 2304 is on point but that we 
need to expand and refine some provisions before moving forward if we 
are to make this bill helpful to the entire regulated community. The 
basic idea of ensuring that NOAA bases management decisions on sound 
science is critical. The lack of credible science and subsequent use of 
the precautionary approach are major issues driving the need for MSA 
reform.
    First, extending the ACL deadline to 2014 is moot since the species 
application requirements set forth in MSA Section 303 (as added by P.L. 
109-479) specified deadlines in 2010 (for species subject to 
overfishing) and 2011 (for all others). The RFMCs (or the Secretary in 
the case of New England groundfish) have already developed ACL 
consistency amendments.
    Regarding scientific improvements, there is great value in Rep. 
Whitman's concept of up-to-date stock assessments and surveys as 
prerequisites for ACLs. Many in the commercial, charter and sport 
fishing sectors believe the ACL/AM requirements are contrary to 
achieving OY and that quotas will be continually reduced due to 
scientific uncertainties to compensate for avoiding overfishing at any 
cost and achieving rebuilding in as short a time as possible.
    The Atlantic monkfish fishery along the U.S. East Coast is an 
excellent example of how poor science (assessments and surveys) can 
negatively impact the fishing industry, especially when layered with 
precautionary decision-making. It also illustrates the benefits of 
improved science. In 1999, the NEFMC developed the initial fishery 
management plan for monkfish and proposed to permanently close the 
directed monkfish fishery, citing concerns that the stock was so small 
it could not sustain a directed fishery. The primary problem was that 
the NMFS survey vessels did not catch monkfish. Poor survey results 
(a.k.a. ``best available science'') forced managers to conclude that 
the stock was in trouble.
    A NOAA-industry cooperative monkfish bottom trawl survey was 
completed in 2001. The results of this survey proved that monkfish 
biomass was substantially larger than the estimate generated by the 
federal trawl surveys. Thankfully, the monkfish fishery continues but 
unfortunately, the data-poor condition persists. Annual quotas were set 
for the first 7 years of management using unreliable survey data. Thus, 
available fishing days for fishermen from New Jersey to North Carolina 
went from 40 days a year in 2000 to a low of 12 days in 2006. The quota 
was reduced from a high of 21,325,318 pounds in 2005 to a low of 
8,084,353 pounds in 2006--a precipitous near 40% decrease in one year 
due solely to a lack of reliable science and subsequent precautionary 
decision-making.
    The approach embodied in H.R. 2304, if inclusive of ``data poor'' 
species, could provide relief from rigid ACL control rules in the 
absence of sufficient data. If not, fishermen will be continually 
subjected to precautionary decisions with no clear plan to address the 
lack of reliable scientific information.
    H.R. 2304 also provides an exemption from the ACL requirements for 
``Ecosystem Stocks'' (ES). Here again, I agree with the basic concept 
of exempting certain data poor and minor stocks from the ACL 
requirement but recommend some improvements to the bill before moving 
forward. My recommendation would be to develop broader application that 
closely links scientific capabilities with the ACL/AM requirements. 
Rather than ES we should designate stocks into ``core'' and ``minor'' 
components based on clear metrics including value and scientific need. 
ACL/AM requirements could be applied to core stocks but for minor stock 
components, or for stocks where status is unknown or those in a data 
poor condition, the ACL/AM requirement need not apply or could be made 
less rigorous.
    H.R. 2610: ``The Asset Forfeiture Fund Reform and Distribution Act 
of 2011'' (Rep. Frank-MA): In some ways similar to H.R. 1013, 
Representative Frank's legislation is more comprehensive, addressing 
elements of reform in the wake of the OIG report on the AFF oversight, 
especially in the New England region but not solely in that region. 
Representative Frank recognizes and preserves the role of the 
individual States as well as the joint nature of the RFMC relationship.
    Overall, I support the key provisions of H.R. 2610--reimburse any 
person who was treated unfairly by the federal government, provide a 
transparent separation between fines/penalties/seizures and program 
operations to remove the incentive for excessive fines, and use AFF 
monies for activities in direct support of sound fisheries management 
research where violations occurred. I note here NOAA subsequently 
revised the AFF Policy (See 76 FR 16386) but provided no funds in 
support of scientific activities. Also, I am concerned that with no 
other source of funding specified by Congress for OLE activities that 
funding for scientific work may be tapped which is unacceptable.
    H.R. 2753: ``The Fishery Management Transparency and Accountability 
Act'' (Rep. Jones-NC): I support H.R. 2753. In this era of transparency 
there should be no need for such basic legislation. However, the 2006 
MSA amendments and the idea to ``separate politics from science'', 
ceded an unprecedented amount of authority to the RFMC SSCs. While each 
council operates differently, and the range of comfort in the regulated 
community varies from region to region, there is no reason why we 
should not require RFMC, SSC and Council Coordinating Committee 
meetings be widely available and archived.
    H.R. 2772: ``The Saving Fishing Jobs Act of 2011'' (Rep. Runyan-
NJ): Similar to H.R. 1646, Representative Runyan's H.R. 2772 is in 
response to the groundswell of animosity against implementation of 
NOAA's National Catch Share policy. It is important to note here this 
widespread opposition is not against the policy but rather, how it is 
being implemented. Many in the fishing industry consider the catch 
share process to be a rushed, top-down process. Indeed, NOAA indicated 
as early as December 2009 that ``32 additional programs will begin 
development in FY 2012'' (NOAA 2009). Many fishermen also perceive the 
process to be tainted by Walton Foundation trust grants to NGO 
interests who may not have the best interests of the U.S. commercial 
fishing industry in mind. I agree with many of these perceptions and 
they exist as an industry reality.
    Besides inadequate science undermining on our management system, 
the proliferation of catch share programs is presently one of the most 
problematic industry issues. Recently, 41 Members of Congress from 12 
states filed letters with the House Commerce, Justice, and Science 
Appropriations Committee expressing concern over the expansion of new 
programs in New England, the Mid-Atlantic, Southeast and Gulf of 
Mexico. This level of concern is a strong indication there are serious 
problems with some of the existing programs and that the majority of 
fishermen in many regions do not wish to see these programs expanded 
into new fisheries absent a firewall in the form of a clear referendum 
process.
    H.R. 2772 contains provisions identical to those in H.R. 1646 with 
two noted additions: (1) any new catch share program that results in a 
15% reduction in the number of eligible fishermen is subject to 
termination; and (2) the 3% fee cap provision in Section 304 is 
replaced with a requirement for the program to cover all costs, 
including observer costs.
    Regarding the 15% termination provision for newly created programs, 
I completely support Representative Runyan's efforts to protect jobs. 
Catch share programs are widely reported to consolidate fleet size and 
reduce employment. However, in the event that a catch share program is 
supported by eligible fishermen via a transparent and fair petition and 
referendum, the 15% provision should not apply.
    Regarding the requirement for fiscal responsibility, this could 
also be a valuable consideration in a perfect world where catch share 
programs are completely open, market-based systems where the 
responsibilities of management are balanced by the privileges of 
economically efficient harvest. However, that is not the case as 
programs are constrained by such things as ownership caps, ultra-
conservative control rules, strict bycatch limitations, and excessive 
observer coverage requirements. As long as there is heavy government 
constraint on these programs the 3% cap limitation should apply. In 
situations where the system is based on a free market economy and 
eligible fishermen are fully aware of the programmatic costs prior to a 
final referendum vote the fiscal responsibility requirement should 
apply.
    H.R. 3061: ``The Flexibility and Access in Rebuilding American 
Fisheries Act of 2011'' (Rep. Pallone-NJ): While the RFMCs are given 
some flexibility to tailor their approaches to management plans the one 
area that remains rigid is in regard to stock rebuilding. The law still 
retains the requirement that rebuilding be completed in 10 years or 
sooner, if possible, rather than what is practicable. The RFMC chairmen 
supported adding an element of stock rebuilding flexibility during the 
2006 reauthorization but their efforts were unsuccessful.
    The 10-year deadline is completely arbitrary, has no basis in 
science, and its impacts may be worsened in data poor situations. We 
all agree that stocks must be rebuilt--we simply disagree on the time 
frame. It makes no practical sense to visit extreme hardship on coastal 
communities if a stock can rebuilt to the exact same level in 12, 15 or 
18 years rather than in 10 years under more onerous restrictions. I 
believe by not including a clear flexibility provision in the MSA we 
missed an opportunity to inject some common sense into the management 
process.
    H.R. 3601 requires each SSC submit an annual report detailing their 
scientific advice, condition of the assessment data, and 
recommendations for improvements. This reporting requirement will 
precipitate a more transparent scientific process.
    Regarding suspension of the ACL requirements, H.R. 3601 allows the 
Secretary the option to suspend ACLs if the stock is not overfished, 
not approaching the overfished condition, is fully rebuilt, or if the 
scientific advice from the SSC is based on such a high level of 
uncertainty that is insufficient to ensure the fishery management plan 
is consistent with the components of National Standard 8 (See MSA 
Section 301(a)(8)). I agree conceptually with one core aspect of the 
ACL suspension issue--ACL control rules should not be set on data poor 
or minor stocks for which we do not have adequate information to make 
the necessary and timely determinations.
    I also agree with the provisions in H.R. 3601 that require the 
Secretary to identify whether fishery management plans are having 
adverse economic impacts, for the Secretary to take actions as 
necessary to attempt to mitigate those adverse impacts, and for the 
Secretary to report to Congress on those actions. In the end these 
provisions may not ease all the socioeconomic pain stemming from 
necessary regulations but they may minimize the impact and encourage 
the Secretary to think creatively outside the regulatory box.

(3) Other Relevant Reform Issues That Should Be Considered By the 
        Committee
    Mixed Stock Exemption: A clear provision should be added to the MSA 
to allow the RFMCs to set a single ACL for a group of fish stocks that 
are commonly found in association with each other, often referred to as 
a mixed stock assemblage. Although this provision was a clearly defined 
component of the NSG for years the agency never implemented the tool. 
Often times, the availability of individual species within a mixed 
stock grouping will fluctuate and may be inconsistent with the ACL 
provisions. This is aggravated as stocks rebuild or in data poor 
situations or where monitoring is not timely. This situation prevents 
fishermen from accessing more abundant stocks and impedes our ability 
to achieve OY.
    Statutory Exceptions for Trans-boundary and Short-lived Species 
(MSA Section 303 note): The MSA currently provides an exemption from 
the ACL/AM control rules for stocks managed under an international 
agreement in which the U.S. participates and also to a fishery for a 
species that has a life cycle of approximately one year that is not 
subject to overfishing. In my opinion this provision is too narrow in 
scope and does not address species that are truly trans-boundary in 
nature but lack a formal agreement, or are species whose life history 
characteristics prevent NOAA from being able to apply the ACL control 
rules in an efficient manner.
    I provide here three examples where a clear case can be made for 
MSA control rule exemptions--Atlantic mackerel and Gulf of Mexico Spiny 
Lobster and Atlantic butterfish. In the case of Atlantic mackerel, 
scientific evidence indicates the stock distribution is shifting into 
Canadian waters (Overholtz, 2011). Unfortunately, the U.S. has no 
formal trans-boundary sharing agreement and Canada takes what they can 
harvest. Unilateral U.S. management actions pursuant to MSA will not 
affect rebuilding or end overfishing but will disadvantage our 
fishermen and weaken the U.S. negotiating position.
    While the U.S. opportunity to harvest mackerel was reduced by more 
than 80,000 metric tons (mt) since 2007 (from 115,000 mt to 34,907 mt) 
the Canadian government allows their fishermen to harvest most of the 
available quota since their fishermen are under no obligation to fish 
under MSA control rules. Due to the lack of a trans-boundary exemption, 
rigid interpretation of MSA requirements, confusion among fishery 
managers about whether or not the law requires the production of 
sustainable fishery yields or the application of layers of scientific 
uncertainty, the U.S. mackerel fishery (which is not overfished) has 
been severely restricted. Thus, Congressional action is necessary to 
require the U.S. government to implement an Atlantic mackerel resource 
sharing agreement with Canada and provide the Atlantic mackerel fishery 
with an ACL exemption.
    Regarding the State of Florida's valuable Spiny Lobster (Panulirus 
agrus) fishery in the Gulf of Mexico, domestic fishermen account for a 
mere 6% of the total harvest. In fact, genetic evidence indicates that 
stock recruitment occurs entirely outside U.S. jurisdiction within the 
Caribbean Basin and waters of Southern Cuba, Brazil, Belize, Honduras 
and Columbia. In 2011, NOAA's Southeast Data Assessment Review (SEDAR) 
determined it was not possible to establish population benchmarks based 
only on the U.S. segment of the population (FKCFA 2011). There is no 
formal Pan-Caribbean agreement to manage this international stock. 
Despite the trans-boundary characteristics of this stock coupled with 
insufficient data available to make a stock status determination, MSA 
requirements force the RFMC's to set ACL/AM control rules for this 
species. Though the current ACL is sufficient there is real concern 
that scientific and management uncertainty will, over time, 
artificially reduce the allowable catch level. Spiny lobster should be 
exempt from the ACL rule.
    I also agree with the statutory exemption provided for species with 
a short life cycle or unusual life history characteristics such as the 
Atlantic squids (Loligo and Ilex spp.), and warm-water species of 
shrimp. Allowing management flexibility for such species is appropriate 
and Atlantic butterfish is a perfect example. In 2004, NOAA determined 
that the butterfish stock was overfished and must be rebuilt in as 
short a time as possible but not to exceed 10 years. In 2010 NOAA 
determined the stock was not undergoing overfishing but could not 
determine if the stock was overfished. NOAA also concluded that the 
results of in 2004 were inaccurate and not suitable for management 
decisions.
    Six years later, a rebuilding program is in place based on data 
that are insufficient to determine the condition of the stock. Given 
the fact that butterfish has a short lifespan (1-3 years), extremely 
high natural mortality rate, uncertain and variable survey indices, and 
an exceedingly variable catch level it is not possible to accurately 
determine the condition of the stock on a timely basis. These 
uncertainties force precautionary decision-making when setting ACLs 
which negatively impacts fishing activities directed at other species, 
in particular the Loligo squid fishery.
    Conforming the National Environmental Policy Act and MSA: In spite 
of clear direction given by Congress in 2006 (Section 304(i), as added 
by P.L. 109-479), NMFS and the Council on Environmental Quality have 
yet to adequately streamline the procedures for review under the two 
statutes. The results are unconscionable delays in conserving and 
managing our fish stocks. For example, 2012 measures for Pacific 
groundfish are based on data from 2008 to inform a regulatory process 
that began in 2009 in order to comply with environmental review 
timelines. At its November 2011 meeting the Pacific Fishery Management 
Council voted to maintain status quo on almost all ACLs through 2014 in 
spite of data showing markedly increased abundance on key stocks, 
simply because the environmental review time requirements would prevent 
the fishery from starting on time.
    Stock Assessment Prioritization and Cooperative Research: The 
issues related to fishery science and stock assessment needs can be 
addressed using a transparent approach designed to provide a framework 
in which Commerce, NOAA/NMFS and the RFMCs can objectively prioritize 
research and assessment needs as well as cooperative research (CR) 
requirements on an annual basis for 5-year periods. These prioritized 
needs can inform budgetary allocations from Congress to NOAA and the 
Regional Science Centers.
    I recommend that each NOAA/NMFS Regional Office, in conjunction 
with the Regional Science Centers, be required to complete a 
prioritization schedule of scientific research and stock assessment 
needs using a hierarchical score of pre-determined scientific and 
fishery attributes (i.e. economic value, stock status, survey needs, 
core/minor stock, level of uncertainty, protected species concerns, 
etc.) for each upcoming 5-year period. A similar process should be used 
for cooperative research recommendations recognizing that CR projects 
are Science Center directed and should be tailored to meet the unique 
needs of each region. Each RFMC, in conjunction with its SSC and 
consistent with requirements of MSA Section 302(h)(7), should review 
and adjust the recommendations of the NOAA/NMFS Regional Offices based 
on the Council's data needs. NOAA/NMFS Headquarters staff could then 
finalize the recommendations and cost estimates for each region and 
forward on a timely basis to Congress and the Office of Management & 
Budget (OMB) for consideration in the budgetary allocation process.
    Consideration of Shore Side Investment in Catch Share Programs: In 
certain high volume fisheries around the country (i.e. Atlantic 
mackerel & pelagic squids, Alaska and Pacific groundfish) there is a 
heavy reliance shore side processing capacity, investment and marketing 
capability. In these distinct situations catch share programs must be 
made inclusive to protect these elements of the infrastructure. The 
consolidation of fishing vessels under typical catch share program is 
not the only source of job loss for fishery-dependent communities. 
Consolidation can also occur in the processing sector. For example, 
there are seven groundfish processing facilities in the Gulf of Alaska 
(five in Kodiak, one in Sand Point, and one in King Cove). These seven 
facilities compete with each other for a market share in pollock, cod, 
rockfish, and flatfish. The companies also buy salmon, halibut, 
sablefish, crab, and herring from local fishermen.
    The companies owning these facilities invested heavily to compete 
under an open access system to handle large volumes of pollock and cod. 
However, under a typical catch share system, consolidation in the 
fishing sector will likely be followed by consolidation in the 
processing sector. A program that does not factor in processing 
infrastructure may well result in shrinkage from seven facilities to 
two or three. This will adversely impact markets for all AK fishermen, 
including those engaged in salmon, halibut, sablefish, crab, and 
herring. Consolidation of processing capacity could hurt the local 
labor force in communities such as Kodiak where shore based processing 
workforce stands at roughly 1500 workers. Two-thirds of those jobs 
could be lost if a new catch share program triggers consolidation 
within the processing community.
    Fisheries Management Responsibility in National Marine Sanctuaries: 
I continue to believe there are competing management jurisdictions 
between the National Marine Sanctuary Act (See NMSA 16 U.S.C. 1434) and 
the MSA (See MSA 16 U.S.C. 1852) when it comes to fishing regulations 
in sanctuaries. The specific problem appears in Section 304(a)(5) of 
NMSA (16 U.S.C. 1434) whereby the Councils are afforded the opportunity 
to prepare draft regulations using the MSA as guidance only ``to the 
extent that the standards are consistent and compatible with the goals 
and objectives'' of the Sanctuary designation. This is the crux of the 
jurisdictional and philosophical inconsistency.
    RFMC Chairmen adopted a unanimous position in 2006 to amend both 
the NMSA and the MSA to exclude fishery resources as sanctuary 
resources and to achieve jurisdictional clarity by vesting federal 
fisheries management under the MSA. The House Natural Resources 
Committee attempted to address this issue during the 2006 
reauthorization but Members deferred to the NMSA reauthorization. I 
agree with the position of the RFMCs and recommend the Committee 
consider including a jurisdictional clarification in the MSA. This 
approach will ensure that fishery resources are managed consistently 
throughout the range and subject to the National Standards.
    Create Separate Definitions for the Terms ``Overfished'' and 
``Overfishing'': MSA Section 3 (See (34)) combines both terms into one 
definition. This is an inaccuracy that should be corrected. Simply 
stated, overfishing is an ongoing rate of removal from a fish stock 
that is too high and may lead to a stock becoming overfished. A stock 
that is determined to be overfished has already been exposed to a level 
of fishing mortality that jeopardizes the capacity to produce maximum 
sustainable yield and must be rebuilt.
    Once clearly defined, a separate consideration could be developed 
for specific instances in which a robust, non-overfished stock is being 
subjected to too high an ongoing rate of removal. Rather than an 
immediate fishing closure, the fishing effort could be phased down over 
short period of time (i.e. 1-3 years) to reduce severe economic impacts 
but still provide adequate protection to the resource.

(4) Recommendations
    Simply put--implementation of the 2006 MSA amendments exceeded our 
scientific capabilities with little improvement expected in the future, 
and the result being losses in fishery yields due to chronic 
application of ever-increasing uncertainty buffers. The NSG1 evolved to 
include precautionary decision-making leading to safety buffers that 
effectively prevent the U.S. fishing industry from achieving OY. 
Furthermore, for stocks that are not overfished or where overfishing is 
not occurring, or when stock assessments yield inconclusive results, we 
may never reach the OY benchmark. These are the core weaknesses of U.S. 
fisheries policy yet achieving OY is a primary objective of MSA. My 
recommendation is for Congress to begin substantive reauthorization 
discussions now with a plan to offer a comprehensive reform package at 
the first appropriate opportunity. The eight pieces of legislation 
discussed today offer an excellent start with numerous elements that 
can be incorporated into such a package.
    Mr. Chairman, thank you and the Ranking Member and the Members of 
this Committee for beginning this process in earnest. I look forward to 
working with you and your staff to secure positive changes to our 
Nation's fisheries policy.

References
Angers, J. 2011. In Testimony to the House Natural Resources Fisheries 
        Subcommittee Hearing on NOAA Science Costing Jobs, July 26, 
        2011.
FKCFA, 2011. Report titled ``Florida's Spiny Lobster (Panulirus argus) 
        Issues for Consideration by the National Marine Fisheries 
        Service and the 112th Congress'', 2 pages.
Murawski, Steve, 2009. In NOAA Testimony to the House Subcommittee on 
        Insular Affairs, Ocean and Wildlife Oversight Hearing on MSA 
        Implementation, during Q&A Session, October 27, 2009.
NOAA 2009. Powerpoint slide from NOAA presentation to RFMCs on Draft 
        National Catch Share Policy titled ``Catch Share Programs by 
        Region'', December 2009.
NOAA, 2010. National Catch Share Policy, 21 pages.
Overholtz, W.J., J.A. Hare & M.Keith. 2011. Impacts of Interannual 
        Environmental Forcing and Climate Change on the Distribution of 
        Atlantic Mackerel on the U.S. Northeast Continental Shelf, 
        Marine and Coastal Fisheries, 3:1, 219-232.
                                 ______
                                 
    The Chairman. I thank you very much, Mr. Marks, for your 
testimony and now recognize Mr. Bob Zales, President of the 
National Association of Charterboat Operators, recognized for 
five minutes.

    STATEMENT OF CAPTAIN ROBERT ZALES, PRESIDENT, NATIONAL 
              ASSOCIATION OF CHARTERBOAT OPERATORS

    Mr. Zales. Thank you, Chairman Hastings and members of the 
Committee. My name is Robert F. Zales, II. I am appearing today 
on behalf of the National Association of Charterboat Operators. 
I wish to thank you, Ranking Member Markey, my representative, 
Steve Southerland, and the other members of the Committee for 
your kind invitation to present testimony on the various 
amendments that will add flexibility to the Magnuson-Stevens 
Conservation and Management Act.
    NACO is a nonprofit 501(c)(6) association representing 
charterboat owners and operators across the United States. I am 
also a national board member of the Recreational Fishing 
Alliance and serve as an officer and director of other fishing 
organizations. We are acutely aware of the devastating impacts 
of the last reauthorization of MSA to fishermen, their 
families, supporting businesses and fishing communities by 
increasing loss of jobs.
    The requirements of the MSA are overly restrictive and 
require arbitrary rebuilding timelines based on no science. 
Congress mandated a new recreational data system be provided by 
January 2009. Your mandate was ignored by the NOAA NMFS as we 
still do not have the new data system today. Your mandate also 
required a report to be provided to you no later than January 
of this year by the NMFS on the progress made in achieving 
those goals. Have you received such a report?
    All fishing is extremely important to the United States. 
According to the NOAA publication, Fishery Economics of the 
United States, for 2009 recreational saltwater fishing, 
commercial fishing and seafood retailers combined to produce 
over $231 billion in economic impacts and providing over 
1,811,000 jobs.
    In my small coastal community of Panama City, Florida, 15 
percent of tourism dollars comes from saltwater recreational 
fishing. All these depend on healthy, resilient stocks and must 
have flexibility in management in order to survive. The bills 
today discussed contain language that will provide needed 
changes in the MSA that will help provide and produce jobs 
necessary to maintain our fishery heritage.
    I and others have constantly stressed to Members of 
Congress how provisions contained in the reauthorized MSA would 
lead to devastating impacts to fishermen in our communities. 
The provisions of the MSA that continue to create harm are the 
arbitrary requirements to rebuild overfished species within a 
short period of time, establish arbitrary and nonscientific 
mandates to set ACLs and AMs based on fatally flawed 
recreational catch data, the continued use of a fatally flawed 
recreational data system and the unyielding power provided to 
the Science and Statistical Committee.
    The overly restrictive requirements to rebuild overfished 
fisheries within a specified, short period of time based on no 
or flawed science has caused fishing seasons to be shorter, bag 
limits and quotas to be reduced, causing a loss of fishing jobs 
and harming communities. In the quest by NMFS and extremist 
environmental organizations to consider only the resource and 
exclude the impacts to humans, families and communities suffer.
    We can fish at levels that maintain and create jobs while 
ensuring sustainability of our fishery resources. The Gulf of 
Mexico king mackerel and red snapper fisheries are clear 
examples of how resources can rebound and grow while fishing 
jobs are maintained and communities prosper.
    Imposing arbitrary ACLs and AMs based on flawed data is 
causing further destruction of fishing fleets and reducing 
recreational fishing opportunities. Congress clearly understood 
that fishery data is a critical component to providing proper 
fishery management as a timeline was set in the MSA to achieve 
various goals.
    Congress intended to have a new recreational data system in 
place before measures were established to prevent overfishing 
and setting ACLs and AMs. It is clear that the managers of NOAA 
ignored the mandate to establish a new recreational data system 
but moved forward using fatally flawed recreational data and 
creating regulations to prevent overfishing and establishing 
ACLs and AMs.
    Our nation is in dire straits, and jobs are desperately 
needed. Why is the NOAA NMFS free to ignore the will of 
Congress and do as they please with no accountability to anyone 
while their efforts continue to eliminate fishery jobs? The 
proposed bills discussed today will help fishermen survive 
while ensuring the sustainability of our fishery resources. 
H.R. 2304, introduced by Representative Wittman, is a good 
start, but it fails to help all fishermen.
    The proposed legislation contained in H.R. 3061, introduced 
by Representative Pallone, combined with H.R. 2304, will 
provide the tools necessary to ensure all fishermen are able to 
continue to work and provide for their families. Section 2 of 
H.R. 3061 meets the real need we have to be able to fish while 
rebuilding stocks, whether they are overfished or undergoing 
overfishing. In simple terms, this proposed legislation allows 
us to take a set of stairs to reach the top rather than being 
forced into an elevator. As long as the fishery is improving 
every year, why should we be more restricted in our ability to 
harvest and continue providing for our families and 
communities?
    H.R. 1646 and 2772 provide the legislation necessary to 
confront the excessive push by NOAA and extremist environmental 
groups to implement catch shares on fishing communities. 
Proposed language within both provide for fishermen to decide 
if they want a catch share program and, if so, to control the 
development of such rather than have NMFS impose programs. 
Current catch share programs eliminate jobs, reduce access to 
fisheries to a lucky few, harm supporting businesses and 
negatively impact communities. By creating flexibility in MSA, 
the need for catch share programs will cease to exist.
    By combining the most effective language from each bill 
into one, we can support moving the legislation forward. Doing 
so will ensure that all fishermen benefit, which will result in 
a unified effort of support. The United Fish Rally we held in 
February 2010 brought thousands of fishermen from all sectors 
from across the Nation together as one voice, demanding 
flexibility in how our fisheries are managed.
    Unless all fishermen are able to benefit from any proposed 
legislation, any efforts to amend the MSA will fail. Thank you 
very much.
    [The prepared statement of Mr. Zales follows:]

          Statement of Capt. Robert F. Zales, Ii, President, 
             National Association of Charterboat Operators

    Chairman Hastings and Members of the Committee, my name is Robert 
F. Zales, II and I am appearing today on behalf of the National 
Association of Charterboat Operators (NACO). I wish to thank you; my 
Representative Steve Southerland and the other Members of the Committee 
for your kind invitation to present testimony on the various amendments 
that will add flexibility and dramatically improve the Magnuson Stevens 
Conservation and Management Act (MSA).
    NACO is a non-profit 501 (c) (6) association representing charter 
boat owners and operators across the United States including the Great 
Lakes. I am also a National Board Member of the Recreational Fishing 
Alliance and serve as an Officer and Director of several other fishing 
organizations. Sadly, we are acutely aware of the devastating impacts 
of the last reauthorization of the MSA as amended through January 12, 
2007 to fishermen, their families, supporting businesses, and fishing 
communities by the increasing loss of JOBS. The current requirements of 
the MSA are overly restrictive and require arbitrary rebuilding 
timelines based on no science. Congress mandated a new recreational 
data system be provided by January 2009. Your mandate was completely 
ignored by the leaders of the NOAA/NMFS as we still do not have the new 
data system as of today. Your mandate also required a report be 
provided to you no later than January 2011 by the NMFS on the progress 
made in achieving those goals. Have you received such a report? The 
rigid requirements of the MSA prevent the management Councils from 
having any flexibility in recommending management measures that will 
rebuild our resources while allowing fishermen to fish. Both can and 
should be allowed.
    Charter, commercial, and saltwater recreational fishing is 
extremely important to the United States, both economically and 
socially. According to the NOAA publication Fisheries Economics of the 
United States for 2009 Recreational Saltwater Fishing produced sales 
impacts from angling and durable expenditures totaling $50 BILLION and 
value added impacts of $23 BILLION while providing over 327,000 JOBS in 
2009. In addition the Commercial Fishing industry provided over 1 
MILLION JOBS, $116 BILLION in sales and $32 BILLION in income impacts. 
Seafood Retailers added another 484,000 JOBS and contributed another 
$10 BILLION to the nations' economy. Just in my small coastal community 
of Panama City, Florida, according to the local Tourist Development 
Council, 15% of Tourism Dollars comes from saltwater recreational 
fishing. All of these industries depend on our healthy and resilient 
stocks and must have flexibility in management in order to survive.
    All 8 proposed bills contain language that will require needed 
changes in the MSA that will help maintain and produce the JOBS 
necessary to maintain our fishery heritage. Congress must have clearly 
understood that fishery data is a most critical component to providing 
proper fishery management as in the reauthorized MSA a timeline to 
achieve various goals was set. Recreational Fishing data was to have a 
new program by January 2009. Measures to prevent overfishing of all 
fisheries overfished or undergoing overfishing were to be established 
as of 2010, and all other fisheries by 2011. The NOAA/NMFS is required 
to establish Annual Catch Limits (ACL) and Accountability Measures (AM) 
for all federally managed fisheries by the end of 2011. It is clear to 
me that Congress clearly intended to have a new recreational data 
system in place before measures were established to prevent overfishing 
and setting ACLs and AMs by the stated timelines. It is also abundantly 
clear that the managers of the NOAA/NMFS completely ignored the mandate 
to establish a new recreational data system but moved forward with 
using the fatally flawed recreational data in creating regulations to 
prevent overfishing and establishing ACLs and AMs. Our Nation is in 
dire straits and JOBS are desperately needed. Why is the NOAA/NMFS free 
to ignore the will of Congress and do as they please with no 
accountability to anyone while their efforts continue to eliminate 
fishery JOBS?
    Here is a clear example of the overly restrictive requirements of 
the MSA. When working to establish ACLs and AMs for some fish species, 
the NOAA/NMFS has recommended and in some cases the Councils have 
followed simply removing the species from the current fishery 
management plans. This had to be done in order for the NOAA/NMFS to 
comply with the MSA. We will now have some species without any 
management leaving them vulnerable to unrestricted harvest.
    The NOAA/NMFS has used the provisions of the MSA that pertain to 
catch shares as rationale to create and establish new catch share 
programs along the East Coast and Gulf of Mexico. They have created a 
catch share policy they use to push catch share programs on fishermen. 
Managers of the NOAA/NMFS will tell you they do not push such programs 
but it is clear from the head of NOAA/NMFS on down that catch share 
programs will be implemented in order to reduce fleet capacity which 
eliminates more fishing JOBS.
    The Science and Statistical Committee (SSC) was granted new and 
indisputable power by the reauthorized MSA for the first time. The SSC 
is required to recommend Over Fishing Limits (OFL) and Acceptable 
Biological Catch (ABC) limits for species to each Council. The OFL 
recommendation cannot be exceeded by the Council. The SSC ABC 
recommendation is typically set between 50% and 75% of the OFL and due 
to the MSA the Councils cannot recommend an ACL in excess of ABC. The 
original MSA allowed the Councils to consider an SSC recommendation 
while also considering other relevant factors. While the SSC 
recommended OFL and ABC cannot be exceeded in establishing an ACL, an 
ACL can be set far below the recommended ABC. In my longtime fishery 
management participation in the Gulf of Mexico the Gulf Council SSC has 
always had concern about the uncertainty of the data presented to them. 
This concern for the uncertainty is also felt by the Council. The 
current MSA has caused this whole process to work against fishermen by 
excessively constraining harvest limits based on uncertain data and the 
overly restrictive requirements. Here are two examples of recent SSC 
and Council actions from the Gulf.
        (A)  Gulf Red Snapper are considered overfished, current 
        recreational data used is from the fatally flawed MRFSS, and 
        there is much scientific uncertainty because the last full 
        stock assessment was done in 2004. The SSC recently recommended 
        an OFL of just over 9.3 Million Pounds and set an ABC of just 
        over 7 Million Pounds. In their discussions, the members of the 
        SSC had serious concerns about the uncertainty of the data and 
        some stated they felt the ABC could be set closer to the OFL. 
        Most of the members had serious concern about the data on which 
        their recommendation was based. Many Council members also 
        questioned the data and many of them felt the ABC could be set 
        closer to the OFL but because of the requirements of the MSA 
        they could not make that recommendation.
        (B)  Gulf Vermillion Snapper were recently assessed to be not 
        overfished or undergoing overfishing and the SSC recommended an 
        OFL of 6.6 million pounds and an ABC of 6.5 Million Pounds. The 
        same uncertainty of the data exists and the same concerns were 
        expressed by some members of the SSC and Council. The Council 
        is currently considering setting the ACL for Vermillion Snapper 
        substantially less than the SSC ABC recommendation because they 
        have little confidence in the data.
    The point to these examples is because of the requirements and 
power granted to the SSC by the MSA, the Councils cannot exceed a SSC 
recommendation but can set ABC at any level below. Lack of confidence 
in both examples can be enhanced with real world information presented 
by fishermen and others who have the knowledge and experience of 
working with their resource. Although a Council may be presented with 
other relevant information that may increase their confidence that an 
ACL may be set higher than the SSC recommendation the requirements of 
the MSA prevents them from doing so.
    In addition, the membership of some SSCs includes NOAA/NMFS science 
center staff which creates a conflict of interest. The SSC is supposed 
to be an independent body of experts with no individual agenda other 
than to consider the science and data and formulate an unbiased 
recommendation of stock status and fishing levels. While it is 
difficult to have members appointed to the SSCs who are totally 
independent and unbiased, it is impossible to have a NOAA/NMFS staff 
scientist sit on the SSC and be unbiased while being directed and paid 
by the very agency regulating fisheries. I have had private discussions 
with several current and former SSC members who agree with this. Some 
have also said they feel pressured by the NOAA/NMFS to make ultra 
conservative recommendations or risk reprisals in the form of lost 
grants for research and other issues. During the last Gulf Council 
meeting the Chairman of the Gulf SSC was chastised by the NMFS SERO 
Regional Administrator (RA) for making a statement in a local news 
paper about his opinion of the status of the red snapper stock that 
differed with that of the NMFS.
    Council appointments are one more issue. The Councils are supposed 
to be an independent body of balanced experts that are to consider the 
best available science and other relevant factors in making 
recommendations for management of fisheries. The MSA provides for the 
Governors of the coastal states to recommend persons to serve on their 
respective Councils. The NMFS RAs currently make their recommendation 
to the Secretary of Commerce which generally is accepted and then 
appointed. In many cases, if an appointed Council member does not 
follow the NMFS RA agenda, that member is not recommended for 
reappointment. In some cases a person recommended by a Governor who is 
known to not follow the NMFS RA agenda, that person is not recommended 
by the RA and thus is not appointed. The NMFS RAs should not be able to 
determine who should or should not sit as a Council member.
RECOMMENDATIONS
    I have attempted to provide some of the key issues of the MSA that 
are negatively impacting fishermen, their families, supporting 
businesses, and communities. Here are my recommendations of the 
proposed bills that will do the most to allow us to fish and provide 
the JOBS necessary to support our Nation while continuing to enhance 
our fishery resources.
    H.R. 2304, H.R. 1646, H.R. 2772, and H.R. 3061 should all be 
combined and approved as one amendment. While H.R. 2304 introduced by 
Representative Wittman is a very good start it does not go far enough 
to ease the overly restrictive and regulatory requirements of the 
current MSA. Mr. Wittman's proposed bill eases requirements that will 
provide more access to fisheries by recreational fishermen but does 
little to allow commercial fishermen similar access to their fisheries. 
H.R. 1646, 2772, and especially 3061 provide the real flexibility all 
fishermen must have in order to survive. Section 2 of H.R. 3061 
introduced by Representative Pallone meets the real need we have to be 
able to fish on rebuilding stocks whether they are overfished or 
undergoing overfishing. In simple terms his proposed legislation allows 
us to take a set of stairs to reach the top rather than being forced 
into an elevator. As long as a fishery is improving every year and 
moving toward being rebuilt why should we be more restricted in our 
ability to harvest and continue providing for our families and 
communities. Should a fishery begin to falter, current management 
measures allow for quick response.
    In addition to the language suggested for rebuilding and easing 
requirements for ACLs and AMs, combining the language affecting catch 
share programs will allow fishermen, not the NOAA/NMFS and extremist 
environmental groups such as the Environmental Defense Fund, to control 
if a catch share program is desired or not. All available information 
suggest that the vast majority of fishermen, supporting businesses, and 
communities do not support implementing any new catch share programs 
under the current efforts of the NOAA/NMFS. The language contained in 
H.R. 1646 and 2772 provide clear requirements, objectives, and 
definitions to establish catch share programs and remove the ability of 
the NOAA/NMFS from creating their own rules. Combining the language of 
these 4 proposed bills will provide the necessary changes to the MSA 
that will enhance our ability to fish, to work, to create JOBS, provide 
for our families and communities while ensuring the continued 
sustainability of our fishery resources.
    H.R. 594 should be approved to be used in addition to the other 
recommended changes and not as a replacement. Cooperative research is 
currently being done utilizing fishermen and their expertise and this 
should be expanded. Utilizing fishermen to help with debris removal and 
other water born activities should also be increased. This bill should 
not be used as mechanism to pacify fishermen who have lost their JOBS 
due to the overly restrictive requirements of the MSA but should be 
included as a means to continue to improve our fishery science and 
reduce uncertainty.
    H.R. 1013 and H.R. 2610 should be combined and approved for the 
same reasons stated for H.R. 594 and the utilization of the funds 
received from that area should be used for that area. Together these 
two bills should help bring some accountability to the NOAA/NMFS and 
their law enforcement efforts. Fishermen should be respected for their 
concern of the resource and providing seafood for the American consumer 
rather than be treated as criminals.
    H.R. 2753 should be approved as openness of our governmental 
processes should always be available. I am from Florida and our 
government operates in the sunshine. Everyone should have access to 
open government and the process that governs us.
    Mr. Chairman, this concludes my testimony. Again, I truly 
appreciate the invitation and opportunity to provide you and the 
committee with this information. I will be pleased to respond to any 
questions.
                                 ______
                                 
    The Chairman. Thank you very much, Mr. Zales.
    Next I recognize Chris Oliver, who is Executive Director of 
the North Pacific Fishery Management Council. Mr. Oliver is 
recognized for five minutes.

 STATEMENT OF CHRIS OLIVER, EXECUTIVE DIRECTOR, NORTH PACIFIC 
                   FISHERY MANAGEMENT COUNCIL

    Mr. Oliver. Thank you, Mr. Chairman, and good morning to 
you and members of the Committee. Thank you for the opportunity 
to speak today.
    The 2006 amendments to the Magnuson-Stevens Act 2006 
reauthorization comprised a very ambitious, comprehensive and 
powerful set of requirements for fisheries management. Those 
are primarily aimed at rebuilding and conserving fisheries 
through the use of annual catch limits. Those amendments 
clearly were not without pain and cost to the fishing industry, 
as is evidenced by the introduction of various bills aimed at 
modifying those provisions.
    Those 2006 amendments also put in place numerous 
requirements for the development of limited access privilege 
programs or LAPPs, and while not appropriate for all fisheries 
we believe they represent a critically important tool for 
fisheries management, and we have used them extensively in the 
North Pacific fisheries. We don't want catch shares rammed down 
our throat either, and we respect that some regions we would 
like to see additional requirements or constraints put on the 
development of those programs. We respect that, but we don't 
want to lose catch shares as a management option in our 
toolbox.
    As a general comment, I believe that whatever bills pass 
they need to be as specific in their direction as possible. 
Recall that the 2006 editions, which implemented ACLs, were but 
a few sentences of statutory text but that the implementation 
of those requirements resulted in 98 pages of guidelines or 
regulatory text from the agency. We are still in the process of 
addressing those provisions and had to undergo significant 
amendments to our fishery management plans even though we have 
been successfully managing fisheries with strict annual catch 
limits for 30 years.
    There are instances in the North Pacific where these 
requirements have complicated or negatively impacted our 
fisheries. While most have good stock assessments, as has been 
noted, we have some that don't. Octopus is an example. We have 
an ACL requirement for octopus even though it is a poorly 
surveyed species. There are very few survey instruments that 
measure it. We have had to implement closures to cod fisheries 
this year due to ACL requirements for octopus even though it is 
recognized as an abundant species.
    In terms of rebuilding, we have a Pribilof Island blue king 
crab stock that is considered overfished even though no 
directed fishery has occurred on that stock for two decades. We 
face the prospect of curtailing certain groundfish fisheries, 
which take some incidental catch of the species, even though 
our models and analyses predict that such restrictions will not 
positively effect or affect the rebuilding success.
    I cite these examples of recognition that the ACL and 
rebuilding requirements are not perfect and some adjustments 
will be in order. Overall, we have good stock assessments in 
the North Pacific, and we have been operating under an ACL 
paradigm for decades. Therefore, we have not experienced the 
type of negative impacts overall that other regions have.
    So we do understand the need for flexibility and we support 
that. We believe it will be imperative to consider those 
changes cautiously and not dilute the basic intent and benefit 
of ACLs and not to lose ground in our success at rebuilding 
overfished stocks where rebuilding is feasible. To that point, 
we believe that any reauthorization should include a primary 
focus on developing adequate stock assessments for all of our 
species and maintaining robust stock assessments where they 
already exist so that ACLs are set at the appropriate level in 
the first place.
    Mr. Chairman, I cannot specifically cover each of the eight 
bills in the time allowed, so I would like to make a few key 
points that I believe cut across several of the provisions. A 
primary goal appears to be jobs creation, and that is obviously 
a laudable goal. We need to address the question of how to 
create or maintain jobs by sustaining our fisheries but do so 
without dismantling otherwise successful programs.
    I think that the 2006 amendments recognize their SSCs as 
appropriate gatekeepers relative to the science of ABCs or 
ACLs, and we want to be cautious about encumbering the process 
with additional extensive outside peer review requirements. I 
want to also caution against arbitrary constraints on setting 
ACLs. The example is not allowing an ACL to go up or down by 
more than 20 percent. I think there is the potential there to 
result in an overharvest in some cases or an underharvest in 
some cases, depriving fishermen of income, because we do have 
some stocks that fluctuate that much on an annual basis.
    I want to urge you to be very wary of adopting well-
intended but perhaps impractical requirements for economic and 
community impact analysis which could preclude timely 
implementation of fisheries closures. There are some provisions 
in some of these bills that I recognize are very well-intended, 
but I think to a certain extent some of them are impractical in 
a timely manner.
    With that, Mr. Chairman, I see my time is up, and I will 
close. I urge you to read my detailed written comments on 
these.
    [The prepared statement of Mr. Oliver follows:]

          Statement of Mr. Chris Oliver, Executive Director, 
                North Pacific Fishery Management Council

    Good morning Chairman Hastings and members of the Committee, and 
thank you once again for the opportunity to testify regarding potential 
amendments to the Magnuson-Stevens Fishery Conservation and Management 
Act (MSA). I offer a perspective from the North Pacific region, as a 
representative of the North Pacific Fishery Management Council. Neither 
the Council nor those with a stake in the North Pacific fisheries have 
reviewed these comments; therefore, they represent my best attempt to 
speak for those interests, based on my previous testimony before this 
Committee and on my 22 years of experience with the Council process in 
Alaska.
    The 2006 amendments to the MSA comprised a very ambitious, 
comprehensive, and powerful set of new requirements for fisheries 
management, primarily aimed at rebuilding and conserving fisheries 
through the mandate of Annual Catch Limits (ACLs) and the reliance on 
best scientific information in that pursuit. The 2006 amendments were 
not without pain and costs to the fishing industry, as is evidenced by 
the introduction of various Bills aimed at modifying some of those 
provisions. The 2006 amendments to the MSA also put in place numerous 
requirements for the development of Limited Access Privilege Programs 
(LAPPs), requirements which also apply to many of the `catch share' 
programs being considered, or being developed, by Regional Fishery 
Management Councils around the U.S. Catch share type programs, 
including sector allocations, license limitation programs, and 
individual transferrable quotas (ITQs), while not appropriate for all 
fisheries, do represent a critically important tool for fisheries 
management, and have been used extensively in North Pacific fisheries. 
Catch shares in the North Pacific have been developed through an 
extensive, and inclusive, public process. We do not want to lose catch 
shares as a management option in our tool box.
    As a general comment, I believe that whatever Bills do pass, they 
need to be as specific in their direction and intent as possible. An 
example of general provisions resulting in substantial revisions to 
North Pacific fishery management (and nationwide), is in fact the 
implementation of ACLs required under the 2006 MSA reauthorization. 
Recall that the 2006 additions to the MSA which implemented the ACL 
requirements were but a few sentences of statutory text (largely 
patterned after long-standing North Pacific practices), but that the 
implementation of the ACL requirements resulted in 98 pages of 
`guidelines', or regulatory text, from the National Marine Fisheries 
Service. We are still in the process of addressing the provisions of 
the 2006 MSA reauthorization. In the case of the North Pacific, we had 
to undergo significant amendments to our Fishery Management Plans 
(FMPs) to comply with the letter of the ACL regulations, even though we 
have been successfully managing fisheries with strict annual catch 
limits for 30 years. The guidelines as written also require us to 
develop additional amendments to our FMPs to more explicitly address 
uncertainty in stock status, even though we have robust stock 
assessments for most species, and uncertainty levels are incorporated 
in our stock assessments and setting of ACLs. Finally, despite the 
lengthy and detailed guidelines which were developed, there is still 
debate over how to account for fish taken in research, stock 
assessment, and cooperative research under exempted fishing permits 
(EFPs).
    There are certainly instances where the implementation of the ACL 
amendments has complicated, or even negatively impacted, some fisheries 
in the North Pacific. We have relatively poor information on overall 
Pacific octopus biomass, due to the difficulty in assessing this 
species, but we have enough information to establish a `stock 
assessment' and are compelled to establish an ACL. This ACL is based 
largely on historical, incidental harvest information, life history 
characteristics, and stomach content analysis of Pacific cod, rather 
than a robust stock assessment, and has recently resulted in closures 
of fisheries which take octopus incidentally. This example underscores 
the need for robust stock surveys and assessments, which we recognize 
as a major component of several of the Bills under consideration. 
Another example worth citing, relative to rebuilding requirements, is 
that of Pribilof Island Blue King Crab. While we have no overfished 
groundfish stocks in the North Pacific, this crab stock is considered 
overfished and in need of a rebuilding plan, even though no directed 
fisheries have occurred for nearly two decades, and the species is only 
occasionally taken as bycatch in other fisheries. We are facing the 
prospect of curtailing certain groundfish fisheries, because this is 
the only source of mortality we can affect, even though our analyses 
and models indicate that the expected bycatch savings will not 
positively effect, or affect, rebuilding success.
    I cite these examples as recognition that the ACL and rebuilding 
requirements are not perfect and some adjustments to these requirements 
may well be in order. Overall however, because we have long been 
operating under this general paradigm in the North Pacific, and because 
we have the benefit of robust stock surveys and stock assessments for 
most species, we have not experienced the types of negative impacts 
that other regions appear to be having in complying with ACLs. In that 
vein, while we understand the need for some flexibility in the 
application of ACLs and rebuilding requirements, we believe it will be 
imperative to consider such changes cautiously, to not dilute the basic 
intent and benefit of ACLs, and to not lose ground in our success at 
rebuilding overfished stocks where rebuilding is feasible. To that 
point, any reauthorization of the MSA should include a primary focus on 
developing adequate stock assessments for all of our fisheries, and 
maintaining robust stock assessments where they already exist, so that 
ACLs are set at the appropriate level in the first place.

H.R. 594 Coastal Jobs Creation Act of 2011
    Generally, this Bill represents a potentially positive approach to 
cooperative research opportunities. While the laudable goal appears to 
be job creation in the shorter term, it also provides funding and 
processes which could ensure fisheries jobs in the longer term, notably 
by providing opportunities to enhance stock assessment information 
across all of our fisheries. I believe that the focus of many of the 
Bills under consideration at this hearing is to alleviate job losses 
experienced in many of our fisheries--the key question is how to create 
or maintain jobs by building and sustaining our fisheries, rather than 
creating or saving short-term jobs by dismantling otherwise successful 
management programs. Another aspect of this Bill that we in the North 
Pacific note with interest is the ability to use provisions of this 
Bill to fund observer deployment. The North Pacific Groundfish Observer 
Program is a fundamental underpinning of our management program, and is 
primarily funded by the fishing industry at a cost of over $15 million 
per year.
    There are a couple notes of caution I would like to raise in the 
context of this Bill. First, it will be expensive, at the proposed $80 
million per year, and we caution against this funding coming at the 
expense to existing, on-going, mission critical activities such as 
NOAA's existing stock assessment activities, in the North Pacific or in 
other regions. Secondly, the Bill calls for the Secretary (NMFS 
presumably in this case) to develop guidelines (regulations presumably) 
within 30 days to implement this program. In my experience with 
development of guidelines and/or regulations, 30 days represents an 
impossible timeline to develop the kind of guidelines which would be 
required for this program. Finally, because the devil is indeed in the 
details, the provisions of this Bill should be made as specific as 
possible in order to facilitate development of the guidelines, and to 
minimize the potential for the guidelines to be more complex than 
necessary.

H.R. 1013 Strengthen Fisheries Management in New England Act of 2011
    I have no comment on this Bill specifically, as it pertains 
explicitly to the New England region. However, if provisions of this 
Bill were extended beyond the New England region we would have serious 
concerns, due to the potentially negative impacts on NOAA's enforcement 
mission. Please refer to my comments on H.R. 2610 in this regard.

H.R. 1646 American Angler Preservation Act
    A number of significant concerns are raised by this Bill, and I 
will address them section by section.
Section 2--Improving Scientific Review:
    This section proposes the introduction of the term ``risk neutral'' 
with regard to scientific advice. Risk and uncertainty are implicit in 
any stock assessment and attendant ACL determination, and the insertion 
of this term could lead to further confusion, or subjectivity, in 
attempting to define this term.
    This section constrains a Scientific and Statistical Committee 
(SSC) from making an ACL recommendation which is 20% smaller or larger 
than the previous ACL, unless that recommendation has been approved in 
a peer-review process conducted exclusively be non-governmental 
entities. This is problematic from a number of angles. First and 
foremost, the 2006 MSA reauthorization went to great lengths to 
recognize the SSC as the appropriate forum for establishing annual 
acceptable biological catch (ABC, or effectively, ACLs for purposes of 
this discussion), in fact going even further to explicitly recognize an 
SSC as the appropriate body for satisfying the peer review requirements 
of the Data Quality Act. During the 2006 reauthorization we argued 
vigorously against additional peer review requirements because of the 
scientific credibility of our Plan Team and SSC review processes in the 
establishment of ACLs. This provision would seem to discount the role 
of our SSCs, as was imbued upon them in the 2006 reauthorization.
    To preclude an ACL from deviating by more than 20% is an arbitrary 
constraint which has the potential to either (1) result in excessive 
harvest rates if the science indicates that a reduction of 20% or more 
is warranted, or (2) result in great financial loss to fishermen and 
communities, and be contrary to National Standard 1 (using the best 
scientific information available and attaining optimum yield from the 
fishery), if conditions warrant an increase of greater than 20%. Some 
fisheries in the North Pacific are among the most well understood, best 
assessed stocks anywhere in the world (Pollock for example) and it is 
not uncommon to have changes in stock biomass and attendant ACLs which 
approach, or even exceed, 20%. We believe that our SSC is the 
appropriate `gatekeeper' for ABC determinations and do not believe that 
an additional peer review process is warranted or advisable.
    Further, it is not clear how the members of such a peer review 
would be chosen, whereas the Council process provides an effective 
means to vet scientific experts and ensure adequate representation of 
scientific perspectives on our SSCs. This proposed Bill does not define 
the specific qualifications for `non-governmental entities', who would 
select the reviewers, and when such selection process would occur 
(relative to the timing of setting ACLs each year). Practically, there 
are a limited number of available experts who are not already engaged 
in the Council process, either as SSC members, industry, or 
environmental representatives.

Section 3 Extension of the time period for rebuilding certain 
        overfished fisheries
    I earlier cited the example of Pribilof Island Blue King Crab, a 
fishery which has not been subject to any fishing for nearly two 
decades, and for which restrictions of any fishing activities (even 
closing fisheries which might take this species as bycatch) are not 
predicted to effect, or affect rebuilding. Certain provisions of this 
section would provide relief for these situations, and by the example 
listed above, we recognize the need and desire for some flexibility in 
the current rebuilding strictures. However, the various provisions 
regarding alternative time frames to rebuild collectively generate some 
concern, in that they appear to relax many of the existing constraints 
on both the minimum and maximum time frames for rebuilding overfished 
stocks, which may jeopardize the ability to successfully rebuild some 
stocks. Relaxing the constraint on the minimum time frame to rebuild 
could add confusion to the calculation of the relative available range 
of rebuilding times, as currently the calculation of the minimum time 
frame to rebuild (Tmin) is based on an assumption of no fishing (i.e., 
the substitution of the term `practicable' for the term `possible'). On 
the other hand, relaxing some of the constraints on the maximum time 
frame to rebuild seems reasonable for some fishery situations. We only 
note that it may be difficult (and somewhat subjective in some cases) 
for the Secretary to make the determinations listed in the proposed 
Bill, and that such provisions be considered cautiously.

Section 5--Approval of Limited Access Privilege Programs
    This section appears to be targeted to specific regions, which do 
not include the North Pacific, and we support the clarity that these 
provisions would not apply to the North Pacific. It is unclear whether 
certain `catch share' programs, such as sector allocations, would fall 
under the provisions of this section, but in any case we would strongly 
oppose any such provisions for fisheries in the North Pacific. The 2006 
amendments to the MSA provided numerous constraints on the development 
of LAPPs, and compelled the Councils to vigorously analyze and consider 
the impacts of any LAPP program before adoption. Maximum flexibility 
for program design, tailored to the specific aspects of each fishery, 
is key to successful development of LAPP or other catch share programs. 
Termination of LAPP programs after some arbitrary time period, 
particularly where transferability is allowed, will likely result in 
significant disruption to the fishery, its fishermen, and related 
communities.

Section 6--Certification Required for Fishery Closure
    The overall purpose of this section is challenging to ascertain, 
but there are several aspects of this section that are problematic and 
cause great concern: 1) the definition, or lack of definition, of the 
term `closure'; 2) the required determination of direct and indirect 
impacts on entities; 3) the aspects that would need to be certified by 
the Secretary to enact a fishery closure; and, 4) Secretarial review of 
existing closures.
        1)  Definition of closure. Closures may be defined in many 
        ways, and in the North Pacific, there are literally hundreds of 
        closures that NMFS effects in-season, on an annual basis. 
        Examples include closure of a fishery due to reaching its catch 
        limit in-season; closure of a fishery for catch of any species 
        which has exceeded its OFL; area closures for conservation 
        reasons; closure for reaching a catch limit of a prohibited 
        species. Another interpretation of the term `closure' in this 
        section may mean not allowing a fishery to open at all in the 
        beginning of the year, presumably due to ACL and/or rebuilding 
        requirements. If this certification requirement is intended to 
        pertain to anything other than the latter (not opening an 
        annual fishery), there are significant concerns with the 
        ability of NMFS to manage multiple fisheries, gear types, 
        seasons, and areas simultaneously, on a timely basis, so as to 
        avoid exceeding the allowable catch limits. Currently in the 
        North Pacific, NMFS annually manages `closures' for a variety 
        of reasons including species-specific catch limits, prohibited 
        species bycatch catch limits on target fisheries, area-closures 
        to protect habitat, bycatch and target stocks, and in-season 
        actions when the OFL of a single target species is reached thus 
        requiring any fishery which catches that as bycatch to be 
        closed. Requiring this type of certification for each of these 
        closures would make sustainable management of the fisheries in 
        the North Pacific entirely impossible. Regardless of the 
        intended breadth of the term `closure', we have significant 
        concerns with the practical ability to determine direct and 
        indirect affects as called for in the proposed Bill.
        2)  Determination of indirect or direct effects of at least 
        $50k on more than 25 small businesses. The wording of this 
        section appears to require an extremely impractical, if not 
        impossible, mission. First it would require someone, somehow to 
        identify each and every small business in the U.S., or region 
        of the U.S., that might be related to a particular fishery, a 
        monumental task in itself. Secondly, someone would next have to 
        conduct a full financial audit of each and every one of those 
        businesses in order to determine whether a $50,000 affect would 
        occur to at least 25 of them (setting aside for the moment the 
        subjective determination and quantification of `indirect' 
        impacts). Such a determination by nature would be speculative 
        (projecting whether a closure would directly or indirectly 
        affect more than 25 businesses), would likely not provide 
        valuable information as to the impact of the proposed closure, 
        and could not likely be done in any timeframe that would be 
        relevant to any proposed closure. The monetary costs of even 
        attempting to conduct such a determination can only be 
        speculated, but would likely be extreme.
        3)  The three certification requirements for a closure. While 
        there is clear merit to the intent of certifying the three 
        aspects included here, there is an inherent complication in 
        requiring both B and C (i.e., both an updated peer review 
        within the preceding three years AND was developed with at 
        least models subjected to outside peer review). In the North 
        Pacific, we have annually peer-reviewed stock assessments for 
        all stocks; however, not every assessment has gone through an 
        external peer-review process, nor do all stock assessments 
        employ age-structured models (e.g., for some assessments, based 
        on the information available, catch limits are based on 
        estimates of mortality multiplied by survey biomass, or catch 
        limits are recommended based upon average catch levels over a 
        specified time frame). Only age-structured assessment models 
        are typically the focus for external peer review due to the 
        more complicated nature of these assessments, in contrast to 
        more simplistic assessments (based upon either survey biomass 
        only or average catch calculations). Changing the wording of B 
        and C to indicate an `or' in lieu of an `and' would allow for 
        the intent of the certification without unnecessary disruption 
        for assessments that are annually peer reviewed within our 
        current process but are not priorities for external peer 
        review. An example of an assessment that would meet B but not C 
        in the North Pacific is that for the Gulf of Alaska Atka 
        Mackerel--that assessment is annually peer reviewed but, due to 
        a lack of a reliable biomass estimates for the stock, 
        specifications are established based upon average catch and not 
        any form of age-structured model. Under regulations to protect 
        the endangered Steller Sea Lion population, this directed 
        fishery is annually closed. Because no external review (of 
        alternative models) has been conducted on this assessment (per 
        requirement `C') this assessment would not qualify for the 
        Secretarial certification, which would in turn result in the 
        fishery being opened to directed fishing, in violation of the 
        Endangered Species Act. Further, and to reiterate earlier 
        comments, we do not support requirements for outside peer 
        review in any case given the robust nature of our current 
        scientific review process (i.e., our SSC, with optional outside 
        peer review in specific cases, at the discretion of the Council 
        or the Secretary).
        4)  Secretarial review of existing closures. Again recognizing 
        the extreme hardships implied by many fishery closures, and the 
        merit in carefully examining such closures, it is difficult to 
        ascertain the practical effect of this section, as a 
        retrospective exercise. Once again the definition of the term 
        `closure' is critical, and the intent of this section needs to 
        be clarified. Does this mean any closure at all, or any closure 
        for which a fishery has not subsequently been re-opened? As 
        described in comments above, the ability to definitively 
        measure every direct and indirect impact on small businesses 
        and communities overall, and identify specific and potential 
        job losses, is extremely limited and subjective. Estimations 
        may be possible, but the specific provisions (and criteria) in 
        this section would not appear to allow for subjective, non-
        definitive estimation. Crafting regulations to implement these 
        provisions would likely be an extremely daunting task.

H.R. 2304 Fisheries Science Improvement Act of 2011
    This proposed Bill appears to promote the development of better 
stock assessment information, and allow certain flexibility in 
rebuilding for stocks that are overfished. As it is written, it would 
not appear to affect stocks in the North Pacific; however, it may be 
important to clearly differentiate and define the terms `stock survey' 
and `stock assessment'. In the North Pacific, there are several 
species, including octopus, sharks, and squid, for which there is no 
specific stock survey (nor any specific, reliable survey instrument), 
but there is a stock assessment performed annually, based on historical 
catch numbers, life history parameters, stomach content analysis of 
predator species, and limited biomass information. Based on this stock 
assessment, octopus for example has a relatively low ACL and has 
recently constrained fisheries which take octopus incidentally. 
Depending on how these terms are defined it may be possible that 
provisions of this proposed Bill would affect management of these 
species, and perhaps a few others in the North Pacific. The definition 
of `ecosystem stock' is more narrow than that contained in the ACL 
guidelines, and it is unclear what the intent and affect of this 
definition would be. Finally, the provision requiring the Secretary to 
conduct a stock assessment for an overfished fishery appears well 
intended; i.e., we need better stock assessments to determine 
appropriate ACL levels and rebuilding schedules.

H.R. 2610 Asset Forfeiture Fund Reform and Distribution Act of 2011
    As written, it appears that this Bill would change the distribution 
of funds collected from fines, penalties and forfeitures for violations 
of the MSA and any other marine resource law from Federal and State 
agencies to States only. Specifically, the amendment would remove the 
asset forfeiture fund as a source of revenue from the NOAA Office of 
Law Enforcement (OLE) and instead would distribute these funds solely 
to States for such activities as fishery research, stock assessments, 
data collection, at-sea and shoreside monitoring of fishing, and 
compensation for the costs of analyzing the economic impacts of fishery 
management decisions to name just a few.
    Based on my understanding of how NOAA OLE functions in the North 
Pacific, the impacts of this proposed Bill are potentially significant. 
The amendment could severely hamper the investigation process of 
federal fishery violations and ultimately reduce the effectiveness of 
enforcement of MSA regulations in the North Pacific. Currently, OLE in 
the North Pacific region relies significantly on the asset forfeiture 
fund to pay for travel associated with investigating fishery 
violations. Unfortunately, these travel costs contribute a significant 
portion of the costs associated with fishery violation investigations 
because of the remoteness of the North Pacific communities and ports. 
Absent the asset forfeiture fund, travel associated with investigating 
fishery violations will be reduced significantly or in some cases 
eliminated altogether. Current procedures would be to send an OLE 
officer to the community or port to investigate the fishery violations. 
This would allow OLE officers assigned enforcement duties to focus on 
enforcement only. Instead, already stretched OLE officers normally 
assigned enforcement duties will now be tasked with conducting 
investigations in addition to their enforcement duties, thereby 
reducing the effectiveness of fishery enforcement in the North Pacific.
    Case in point, the investigative actions by NOAA OLE against the 
140' fishing vessel Bangun Perkasa, recently seized by the U.S. Coast 
Guard for use of high seas drift nets, were funded entirely from the 
asset forfeiture fund, so without this source of the revenue OLE could 
not afford to investigate these violations which could jeopardize 
enforcement of illegal high seas fishing in the North Pacific region.
    Using some portion of the funds for stock assessment augmentation 
is a positive aspect of this Bill. Perhaps sponsors of this Bill would 
consider some portion of the Asset Forfeiture Fund being retained for 
use by NOAA OLE for investigative activities.

H.R. 2753 Fishery Management Transparency and Accountability Act
    This Bill would require live video and audio broadcast of Council, 
SSC, and CCC meetings on each Council's website, and written 
transcripts posted within 30 days of the meeting. We endorse the point 
of this legislation, and making the Council process more accessible, 
and in fact already do most of what is being proposed (live broadcast 
of Council meetings, complete audio files, posting for public access). 
However, we oppose the specific provisions for the following reasons:
    In the North Pacific, we currently live stream audio of Council 
meetings when possible. In more remote locations of Alaska, internet 
access may not be available, or broadband too limited for live 
broadcast based on our experience (including our most recent meeting 
experience!).
    Thirty days may be too short of a time to get written transcripts 
prepared, and transcribing is a very expensive and time consuming task. 
The North Pacific Council and its SSC meets 5 times per year. Council 
meetings last for 7 days, and SSC meetings for 3 days. Full audio files 
of Council meetings are available to the public, in an easily 
searchable time/date stamped format. Transcripts would be redundant and 
unnecessarily expensive.
    The SSC provides scientific advice, not policy advice, and written 
transcripts would tend to suppress the full expression of scientific 
opinions. As noted at the first national SSC workshop, ``Most SSCs 
provide scientific advice based on a summary of their deliberation. The 
general consensus was against the practice of using verbatim 
transcripts. SSC deliberations are a dynamic process and statements 
made by SSC members could be quoted out of context under the transcript 
format. The transcript approach is likely to discourage open discussion 
especially in the current litigation environment.''
    Council Coordination Committee (CCC) meetings are already being 
broadcast, and in most cases a full audio and written transcript is 
developed.

H.R. 2772 Saving Fishing Jobs Act of 2011
    While this Bill appears to be directed at regions other than the 
North Pacific, I can assert that we would adamantly oppose these kind 
of provisions being applied to the North Pacific region. Consistent 
with previous testimony before this Committee, and consistent with my 
earlier comments, we believe that the LAPP provisions of the 2006 MSA 
reauthorization provide the necessary flexibility for Councils to 
initiate LAPP programs, as well as the necessary constraints on that 
development. We do not believe the Councils' discretion in this regard 
should be constrained by additional petition requirements. Further, 
requirements to terminate such a program, particularly where 
transferability is allowed, will likely be very disruptive. A reduction 
in eligible vessels and/or fishermen is inherent in most LAPP programs, 
and setting an arbitrary termination criteria (for example 15% decrease 
in eligible fishermen) may negate the otherwise positive benefits of 
the program for which it was originally established. One example of the 
tradeoffs inherent in any LAPP program is the exchange of numerous, 
part-time jobs for fewer, full-time, higher paying jobs.

H.R. 3061 Flexibility and Access in Rebuilding American Fisheries Act 
        of 2011

Section 2--Extension of Time Period for Rebuilding
    This section contains provisions very similar to H.R. 1646, 
therefore please refer to my specific comments on that proposed Bill, 
with regard to rebuilding flexibility.

Section 3--Committee reports
    This section would require SSCs to submit a comprehensive annual 
report to the Council regarding the quality of the science, aspects of 
uncertainty, and how the SSC used the science in its determinations. 
These requirements (with one notable exception) are inherent in our 
current SSC process and are largely already contained in the detailed 
minutes of our SSC meetings. The notable exception, and the one 
provision which should not be part of the SSCs consideration in setting 
ACLs is section (a)(VI), which would require the SSC to provide ``a 
description of the social and economic impacts of the committee's 
recommended management measures and whether such measures are 
consistent with the national standards set forth in section 
301(a)(8)''. The 2006 MSA reauthorization explicitly empowered the SSCs 
with recommending acceptable biological catch levels, and left to the 
Council the myriad policy decisions of balancing other factors to 
recommend appropriate management measures. These factors are included 
in the biological, economic, and social impact analyses prepared for 
every Council recommendation, and which are required by the MSA and 
various other statutes. The SSC does not, and should not, make policy 
recommendations beyond the setting of ABC, which should be done 
independent of other considerations, based on the best scientific 
information on a particular fish stock.


Section 4--Annual catch limits
    The provisions to allow Secretarial suspension of ACLs may provide 
beneficial flexibility in some instances, though it will likely be very 
difficult (and potentially subjective) to determine ``a level of 
uncertainty that is insufficient to ensure that the FMP is inconsistent 
with 301(a)(8)''. The ability of this section to achieve its intended 
results will likely be very dependent upon the specific guidelines, or 
regulations, to implement these provisions.

Section 6--Fishery/Annual Impact Statements
    This section appears to comprise a well-intended attempt to assess, 
in a programmatic fashion, the overall impact of an FMP on fishermen 
and communities. However, most FMPs (certainly those in the North 
Pacific) are a culmination of numerous plan and regulatory amendments, 
developed cumulatively over the 35 year history of the Councils. 
Fishery impact statements, inclusive of economic and social impacts are 
developed for each of these incremental management actions, some with 
estimated dollar impacts and some more qualitatively, but each also 
attempting to estimate cumulative impacts. Making a programmatic 
assessment will be more challenging than simply summing the results of 
these various plan and regulatory amendment analyses. Periodically we 
compile a programmatic Supplemental Environmental Impact Statement (an 
SEIS, under NEPA requirements) which assesses the cumulative impact of 
our groundfish FMPs, but this would be a daunting, resource-intensive 
undertaking on an annual basis, and does not necessarily generate a 
full understanding of every adverse impact of every aspect of an FMP, 
nor a specific dollar amount of that impact. Substantial fiscal and 
human resources, above and beyond those currently available to the 
Councils, would be required to address these provisions of H.R. 3061. 
Our most recent SEIS was 7,000 pages long and took over two years to 
compile (please see additional comments below regarding streamlining of 
statutes).
    Subsection (k) of this section mandates the Secretary to ``take 
such actions as may be necessary to mitigate any adverse impacts 
identified in the annual impact statement. . .''. This appears to be a 
very open-ended mandate and would appear to grant the Secretary vast 
authorities which may be in conflict with other Council authorities 
under the MSA. This open-ended authority should be clarified in some 
manner to avoid confusion or conflict at some point in the future, and 
not be left to the total discretion of the Secretary through 
`guidelines' or regulations.

Other Issues
    As Congress considers these and other potential amendments to the 
MSA, we would like to reserve the ability to offer additional comments 
and input to that process. There are two issues I would like to 
highlight at this time

Reconciling MSA and NEPA
    The 2006 reauthorization contained a provision intended to 
streamline the NEPA process as it pertains to fishery management 
actions promulgated under the MSA. This Congressional mandate has yet 
to be achieved, and any new reauthorization should attempt, once again, 
to reconcile the redundancy between these two Acts, and minimize the 
procedural inefficiencies which currently encumber the process. As I 
have stated in previous testimony to this Committee, we are not 
interested in `exempting' the Council process from the environmental 
protection and conservation intent of the National Environmental Policy 
Act (NEPA), but believe that the process can be much better served by 
incorporating key provisions of NEPA within the MSA, and making the MSA 
the guiding Act for fisheries management in the U.S. If Congress wishes 
to pursue this issue further in any reauthorization process, I will of 
course stand ready to offer additional, detailed suggestions on this 
issue.
    Date change to allow for State management
    In the absence of an FMP, the State of Alaska's inability to act 
against unregistered vessels in EEZ waters could be addressed by a 
change to the MSA. MSA Sec. 306(a)(3)(C) allows the State to regulate a 
fishing vessel that is not registered with the State and that is 
operating in a fishery in the EEZ off Alaska, if no FMP was in place on 
August 1, 1996, for the fishery in which the vessel is operating. In 
addition, the Secretary and the Council must find that Alaska has a 
legitimate interest in the conservation and management of the fishery. 
Modification to Sec. 306(a)(3)(C) by removing the phrase ``on August 1, 
1996'' could provide the State with the authority to regulate non-State 
registered vessels commercially fishing for salmon, or any other 
specified species, in the EEZ. While it is clear that the intent of 
Congress is to provide Alaska with the authority to regulate non-State 
registered vessels in the absence of an FMP and that the Secretary and 
Council recognize the State's legitimate interest in the fishery, the 
relevance of the August 1, 1996, date to this authority is not clear. 
We are in the process of amending our Salmon FMP in the North Pacific, 
which largely defers management to the State of Alaska, and this date 
change would allow the State of Alaska to fully regulate these 
fisheries, within the 3-mile line and in the EEZ, while retaining 
appropriate levels of Secretarial oversight.
    In closing, I appreciate once again the opportunity to provide my 
perspectives on these important fishery management issues, look forward 
to answering any questions you may have, and look forward to working 
with you to develop amendments which appropriately address the issues 
before us.
                                 ______
                                 
    The Chairman. Your full statement will be a part of the 
record, and I thank you very much, Mr. Oliver.
    Next I recognize Mr. Mike Colby, Double Hook Charter Boat, 
from Clearwater, Florida. Mr. Colby?

                   STATEMENT OF MIKE COLBY, 
                    DOUBLE HOOK CHARTER BOAT

    Mr. Colby. Thank you, Committee members, and thank you, Mr. 
Chairman and the co-chair, for the kind invitation. It is 
certainly an honor for me to be here and an overwhelming 
process I might add. I live in Clearwater, Florida. I am a 30-
plus year head boat and charter operator in the Gulf of Mexico. 
I also have an educational and extended work experience 
background in the biological sciences. I am representing our 22 
permit holders in the Clearwater, Florida, Commercial Marine 
Association.
    And if I can thump my chest for just a moment, they are 
very happy that I am here today, and I am very proud to say 
that those permit holders in our association provide up to 
60,000 angler trips every year in our marina. It is a great 
access platform for recreational anglers who don't own boats 
who want to fish in Federal waters. We are very proud of that 
number, and I am proud of our market.
    As I read these bills, it became rather clear to me that it 
is kind of hard to say no to the Fishery Science Improvement 
Act. I mean, who can say no to that? I mean, everyone agrees 
for better science, but as I continued to read through the 
bills, I realized that in life things usually have the devil in 
the details, and certainly that always takes a seat next to 
many of the unintended consequences of some of the actions that 
we do.
    But what I tried to do was I tried to formulate three 
commonalities or maybe overarching ideas, as I have said in my 
testimony, about what these bills try to do. The first one I 
noticed was that it argues the need for better science. 
Literally it pounds the table for better science, as we all 
have, but rather intends to circumvent and ignore the existing 
science that we have already.
    I agree with the testimony of Julie Morris, who testified 
before this Committee last summer, I think, that the science we 
have now with the wave assessment data that comes in 
periodically is certainly adequate to post ACL and ABCs for 
these fish stocks. As a biologist myself, I have never met a 
perfect data set, and I probably never will, but data of any 
kind gives us direction. It gives us trends, and it gives us 
certainly, as a biologist, the need for more. As a fisherman, I 
want more data because that will help conserve the sustainable 
resource that we fish in.
    I agree again completely with her assessment that we do 
have adequate science to set these. If we are looking for 
common-sense approaches to managing these fisheries, then one 
of the ways to do it would be to simply bypass some of maybe 
the unnecessary parts of the legislation, set these ACLs, set 
the ABCs, and then when funding is appropriate go back and set 
stock assessments for them, but give our biologists a starting 
point. Give them a starting point to work from.
    The second maybe commonality that I have gathered from the 
bill is a disdain, certainly if not a mistrust, of share 
allocated fisheries, of catch share fisheries, and I can 
guarantee each and every one of these Committee members. I have 
talked with commercial operators in the Gulf from Port Aransas, 
Texas, to Cortez, Florida. None of them were forced into a 
catch share program from the top down. This was a stakeholder-
driven process. It involved years of working at the council 
level. It involved two separate referendums that were voted on, 
and the industry agreed to head in that direction.
    So I understand there is great consternation about some of 
these programs, what they may or may not do, but I can tell you 
in the Gulf of Mexico I have key fishermen right now who are 
providing support for the Magnuson mandates, the 10 standards. 
They are reducing bycatch, and they are producing good, 
accountable fishery data that helps our fishery managers.
    On the third point, obviously the overall commonality of 
these bills is a rush to amend Magnuson. I have discussed this 
with our permit holders. They understand that Magnuson is 
cumbersome, time-consuming and sometimes a convoluted process 
that they don't understand, but I have spent three years of the 
last part of my life at great expense to my business and to my 
family bringing fishermen to the table, taking them from the 
back of the bus to the front of the bus.
    I have brought table-pounders to the table of the Gulf 
Regional Council. These are people that didn't trust the 
Federal Government. They didn't trust NOAA. They didn't trust 
anybody. I finally told them quit pounding the table. Don't 
bring problems to the table. Bring solutions to the table. I 
brought these guys to the table and got them working at the 
regional level, at the stakeholder level, with this council. I 
don't want to damage that relationship. It is fragile at best.
    I don't want to go back to these same fishermen that I have 
spent years now saying quit being angry and look for solutions 
and tell them guys, we were going down this one road. Now I am 
going to take you down another road. We are going to let the 
individuals at 30,000 feet in Washington, D.C. override some of 
your stakeholder opportunities at the council level. I don't 
want to do that. Thank you kindly.
    [The prepared statement of Mr. Colby follows:]

               Statement of Michael H. Colby, President, 
                Clearwater Commercial Marine Association

    Chairman Hastings, Ranking Member Markey, and Members of the 
Committee, thank you for the opportunity today to speak on these bills 
and on the importance of successful fisheries management in ensuring 
sustainability in our nation's fisheries. My name is Mike Colby and I 
have been a participant in the Gulf of Mexico fishery for the better 
part of 50 years. I spent many years part-time in the for-hire fishery 
while I was a contractor for the U.S. Fish & Wildlife Service and an 
adjunct instructor in the environmental sciences. In 1986, I received 
my first Merchant Mariners License and became a full-time operator in 
1995.
    Over the past several decades, I began to see myself not just as a 
participant in the fishery, but as someone who is responsible for the 
fishery. This was a growth in perspective that I attribute to my 
background in the biological sciences and a true concern for natural 
resources. My involvement in current fishery management issues is the 
direct result of my vested interest in our fishery resources.
    The legislation being considered by the Committee today, calls 
attention to the importance of sustainable fisheries to our coastal 
communities and economies. NOAA, the National Marine Fisheries Service 
(NMFS) and regional fishery management councils have made strides over 
the past decade to rebuild stocks and to end overfishing and increase 
the number of stock assessments and status reviews. Since 2000, 21 fish 
stocks have been rebuilt and many more have been assessed. In 2010, 
NMFS reviewed more stocks than ever before, including numerous stocks 
in the Gulf of Mexico. For example, black grouper in the Gulf of Mexico 
was determined to not be undergoing overfishing nor is overfished. The 
Magnuson-Stevens Fishery Conservation and Management Act is working and 
fish populations are rebuilding. This is good for fish, fishermen and 
the coastal economies that depend on a healthy resource.
    However, the bills under consideration today would not improve 
fisheries management or fisheries science; rather they would inhibit 
the ability of NOAA and the fishery management councils to effectively 
manage our nation's fisheries. These bills contain provisions affecting 
numerous aspects of fisheries management from use of different 
management tools to disaster declarations, but there are three 
overarching ideas that appear in several of the bills being considered 
here today. These bills:
        1)  Challenge current fishery science without providing 
        solutions to the underlying problem of the need for more 
        fisheries data and management tools.
        2)  Contain provisions to override the fisheries management 
        council process; a stakeholder driven process that includes 
        representatives from all aspects of fisheries including federal 
        and state managers.
        3)  Show a rush to amend the Magnuson-Stevens Fisheries 
        Conservation and Management Act (MSA), even though the law is 
        working and fisheries are rebuilding.
    Fisheries management and science are inherently complex. As such 
they pose unique challenges for managers due to the complex nature of 
the marine environment, fishery population dynamics, the needs of 
fishing communities and the variety of management solutions. One 
example is management of near shore fisheries versus offshore fisheries 
in Florida. In the near shore environment, slot limits, a restriction 
on the minimum and maximum size a fish must be in order to retain it, 
are often used where waters are shallow and release mortality is low. 
However, in an offshore environment where fish are pulled from depths 
greater than 20 meters, the release mortality is higher and managers 
depend on other tools such as area closures and fishing season length 
to manage the fishery. This challenge is seen throughout all fisheries 
management regions, and fishery management councils must be allowed to 
use the tools that work best for that region.
    However, regardless of region or stock or water depth, there are 
tools that have shown success in all regions: establishing science 
based annual catch limits (ACLs) and corresponding accountability 
measures (AMs) that ensure the catch limits are not exceeded. ACLs can 
prevent overfishing, rebuild fisheries and allow for long-term 
sustainability of the resource. Unfortunately, several of the bills 
being considered today, take aim at this critical tool and would create 
exemptions, loopholes, and otherwise delay the implementation of ACLs. 
Weakening of the ACL requirements under current law poses a major 
threat to the effective management of federal fisheries.
    The legislation being considered today does contain a few 
provisions that would increase transparency in the fisheries management 
process. For example, currently each council in conjunction with its 
Scientific and Statistical Committee (SSC) has to submit 5 year 
research priorities for fisheries management to the Secretary of 
Commerce, Regional Science Centers and NMFS for their consideration in 
developing research priorities and budgets. H.R. 1646 would require 
this report be submitted to Congress as well. This report would provide 
Congress with additional insight into the funding needs for fishery 
management councils. Rather than amending MSA, Congress can simply 
request the report from NMFS. While this provision is commendable we do 
not need to amend the MSA to implement transparency in fisheries 
management.
    The ten national standards and provisions to end overfishing and 
restore overfished populations provide the right framework to ensure 
success. Rather than amending the MSA, Congress should support the 
fishery management councils, fishing communities and NOAA by providing 
the resources and oversight necessary to fully implement the landmark 
changes Congress made to this law in 2007 that are putting us on the 
road to sustainable fisheries and communities. Congress should 1) allow 
the law to work, 2) increase funding for fisheries management, and 3) 
promote innovation in fisheries data collection.

Legislation:
Challenges to data collection methods and use of fisheries science in 
        successfully managing US fisheries:
    As a young wildlife and fisheries student I can remember a fishery 
biologist telling me that he ``never saw a perfect data set''. He also 
reminded me that all data give us direction, trends and the need for 
more data. While I can think of no one who would argue the need for 
more reliable fishery data, H.R. 1646 and 2304 seem to argue the need 
for better data while circumventing and ignoring the existing science 
and scientific process we have now.
    The Marine Recreational Fisheries Statistics Survey (MRFSS)/Marine 
Recreational Information Program (MRIP) is relied upon to predict catch 
per unit effort for the recreational angler; not an easy task given 
there were more than 2.3 million recreational anglers in the State of 
Florida in 2009. This model is commonly referred to by some fishermen 
as ``junk science''. In August 2010 the Gulf Regional Council re-opened 
the Gulf red snapper season for a fall fishery after the BP Deepwater 
Horizon disaster based on data from MRFSS. The data indicated that the 
recreational quota had not been caught during the regular fishing 
season and that additional quota could be released to the recreational 
sector allowing for a fall fishing season. Recreational fishing 
organizations praised this decision. Yet, when MRFSS showed that a 
fishery closure was needed in the recreational greater amberjack 
fishery, it was dismissed as faulty data. Interesting, that the data 
are decried as ``junk science'' when they tell us what we don't want to 
hear, yet applauded when they give us the outcome we want.
    The bottom line is that it is what we have and rather than trying 
to circumvent the role of science we should be increasing funding and 
encouraging innovation in data collection and monitoring. The 
legislation before you today would not improve or advance fisheries 
science. It would create loopholes and exemptions and could threaten 
the sustainability of fisheries around the US.

H.R. 1646, The American Angler Preservation Act:
    This legislation seeks to ensure that best science and practices 
are used in fisheries management, but this bill would increase the cost 
of managing fisheries and cause unnecessary delays. H.R. 1646 would 
require that any SSC recommendation that results in an ACL quota 
increase or reduction of 20% or more would trigger an automatic peer 
review of the SSC recommendation. The new ACL could not be implemented 
until the outside peer review has verified and upheld the SSC's 
recommendation.
    This costly provision could slow down the quota setting process and 
could delay approved increases in quota, which would then delay 
increased fishing opportunities. In addition, many stock assessments 
already go through an extensive peer review process. Each stock 
assessment is first reviewed in-house by the relevant science center 
before it goes through the region's peer review process (STAR in the 
Pacific, SARC in the Northeast, SEDAR in the Southeast, WPSAR in the 
West Pacific, and plan teams in the North Pacific), most of which 
include reviewers from the Center of Independent Experts. The third and 
final peer review is conducted by each Council's SSC. Updates of stock 
assessments generally receive only in-house and SSC review intended to 
avoid unnecessary duplication.
    Our Southeast Data Assessment Review (SEDAR) process already 
incorporates a data workshop, assessment workshop, and review process. 
The majority of SEDAR panel members are non-governmental persons from 
sea grant colleges, independent scientists and others. Adding another 
layer of review, as far as the Gulf of Mexico is concerned, would add 
unnecessary delays to a process that is already time consuming.
    This legislation would therefore be redundant and costly, 
decreasing resources available for other aspects of fisheries 
management.

H.R. 2304, The Fisheries Science Improvement Act:
    This legislation seeks to provide the necessary scientific 
information to properly implement annual catch limits. However, the 
bill would not improve fisheries science; rather it would significantly 
weaken critical fishery management requirements under the MSA. The 
proposed legislation would create significant loopholes in the current 
requirement that ACLs be established for federally-managed fisheries. 
It creates loopholes in the ACL requirement through several means:
        1.  The bill would delay the current 2011 deadline for the 
        establishment of ACLs for all stocks not undergoing overfishing 
        to 2014;
        2.  For all fish stocks for which a formal stock assessment was 
        NOT conducted in the five years prior to the bill's enactment, 
        those stocks could be permanently exempt from the ACL 
        requirement as long as the Secretary determines that 
        overfishing is not occurring;
        3.  The bill creates a new, undefined category of fisheries 
        called ``ecosystem stocks'' that would also be exempt from the 
        ACL requirement. If the Secretary classifies any fishery stock 
        as an ``ecosystem stock'' that fishery no longer has to have 
        annual catch limits as part of its management.
    The bill delays the use of science-based catch limits for the vast 
majority of this country's fish stocks, including those with excellent, 
up-to-date science. Overfished stocks that are starting to recover (and 
thus may no longer be subject to overfishing) would also be subject to 
the delay, even though ACL implementation is a critical part of 
ensuring rebuilding momentum for many stocks. In addition, H.R. 2304 
would exempt from the ACL requirement any stock that has not had a 
stock assessment in the five years prior to the bill's enactment. 
Currently, this provision would apply to 64 stocks including Cobia in 
the South Atlantic and Red Drum in the Gulf of Mexico. Even once a 
stock assessment is done for such a stock, it could still not be 
subject to ACLs. Lastly, the bill creates a permanent loophole from the 
ACL requirement for stocks that the Secretary deems to be ``ecosystem 
stocks.'' This term is not defined in the law, regulations, or 
guidance. The bill notes that such a stock specifically could encompass 
a stock that is harvested, retained or sold.
    Numeric ACLs set at or below scientifically-recommended levels are 
a critical tool for preventing overfishing, maintaining the long-term 
health of fish stocks, and ensuring the long-term economic viability of 
fishing fleets. Prior to the legislative mandate for ACLs enacted 
through the Magnuson-Stevens Fishery Conservation and Management 
Reauthorization Act of 2006, a consistent failure to set and enforce 
hard quotas led to chronic overfishing. Delaying the 2011 deadline for 
setting ACLs will only prolong the long-overdue transition to sound 
fisheries management.
    Exempting fisheries that don't have stock assessments would likely 
doom those fisheries to chronic mismanagement, regardless of whether 
updated stock assessments and thorough scientific analyses are 
conducted in the future. And the larger threat--creating a vague and 
undefined category of fisheries that would be exempted from ACLs--would 
create an easy ``out'' for any fisheries in which setting ACLs would be 
difficult or painful, relegating those fisheries to a much lower 
management standard. Taken together, these loopholes in the ACL 
requirement, if enacted, would lead to significantly less sustainable 
long-term management of federal fisheries and be a major step backward 
for fisheries conservation.

H.R. 3601 Flexibility and Access in Rebuilding American Fisheries Act 
        of 2011:
    This legislation would allow rebuilding plans to be extended, 
possibly indefinitely, and slow down rebuilding and associated 
benefits. The MSA requires all stocks to be rebuilt in as short a time 
as possible not to exceed ten years. The addition of this requirement 
in 1996 has resulted in the rebuilding of a number of key fisheries 
around the country. While many have focused on the ten year deadline, 
the MSA includes ample flexibility in establishing appropriate 
rebuilding timeframes by allowing exceptions for the biology of the 
stock, other environmental conditions and international management 
measures. In fact more than half of all rebuilding plans exceed ten 
years, including red snapper in the Gulf of Mexico which has a thirty-
one year rebuilding plan and a rebuilding deadline of 2032. When the 
stock is fully rebuilt catch levels are estimated to be three times 
greater from when rebuilding began
    H.R. 3601 would allow managers to put short term economic gain 
above long-term economic viability and fishery sustainability, 
threatening fish populations and fishing communities. NOAA estimates 
that fully rebuilding US stocks would create 500,000 new jobs and 
generate and additional $31 billion in economic gain. Passage of this 
legislation would revert management back to pre-MSA standards, 
weakening the legal mandates responsible for the recovery of our 
nation's fisheries necessary to ensure a sustainable supply of jobs and 
seafood for future generation of fishermen.

The Role of the Fisheries Management Councils:
    The MSA allows for a regional approach to management through the 
establishment of fishery management councils. These councils are 
comprised of stakeholders from all aspects of the fishery including 
commercial fishermen, recreational fishermen, fish processors, tribal 
representatives, state and federal fisheries managers, scientists and 
more. The fishery management council process is a true stakeholder 
process. Congress should allow the councils to work as they were 
intended.

H.R. 1646 the American Angler Preservation Act:
    This bill would require that all rulings and decisions from the SSC 
be risk neutral. However, the SSCs already provide risk neutral fishing 
advice in the form of the over fishing limit. The control rule for 
acceptable biological catch (ABC) established under the current 
regulations by the councils determines the level of risk aversion in 
the SSC's ABC recommendation. MSA requires that we end overfishing and 
that ending and preventing overfishing require some risk aversion and 
accounting for uncertainty. If we use risk neutral science it would 
allow for a 50-50 chance, a flip of a coin, that overfishing is not 
occurring. Councils have the option under the current law, regulations, 
and guidelines of pursuing such a risky strategy, therefore this 
proposed amendment of the MSA is unnecessary.

H.R. 2772 The Saving Fishing Jobs Act:
    This bill establishes criteria for implementation of a limited 
access privilege programs (LAPP) in New England, the Mid-Atlantic, the 
South-Atlantic and the Gulf Mexico Regions. The bill requires:
        1)  Fifty percent of the legible fishermen to submit a petition 
        requesting development of the LAPP;
        2)  Two-thirds of eligible fishermen must approve the LAPP;
        3)  The Secretary shall terminate a LAPP if there is a 15% 
        decrease in eligible fishermen within a year of the LAPP being 
        implemented.
    LAPPS are not mandatory and councils can use this tool at their 
discretion and tailor to local needs. If councils choose to implement 
LAPPs there are a wide variety of options to choose from and they can 
tailor the LAPP to the specific needs of that fishery. Currently, Gulf 
commercial fishermen are successfully fishing under LAPPs in the red 
snapper and grouper fisheries. Congress should not take tools out of 
the fisheries management tool box. I believe our fishermen want to 
investigate and deliberate this issue so they have the necessary 
information to make an informed decision on the usefulness of this kind 
of management model. Stakeholders must be allowed to work with their 
regional councils to this end.

Recommendations:
        1.  Allow the MSA to work: Stocks are rebuilding and 
        populations are recovering. Gulf of Mexico red snapper is a 
        good example of how fisheries management can work to rebuild a 
        stock. Red snapper had been chronically overfished for years, 
        but in 2007 new management measures were implemented. In 4 
        short years we are seeing progress towards rebuilding. 
        Fishermen are seeing more snapper on the water, and science has 
        supported recent increases in quota. Since 2008 the total 
        allowable catch has increase from 5 million pounds to 7.185 
        million pounds in 2011; a 43% increase. Red grouper is another 
        example of successful fisheries management. After red grouper 
        were determined to be undergoing overfishing and overfished in 
        the late 1990s, NMFS put a rebuilding plan in place containing 
        science based catch limits and accountability measures. A 
        subsequent 2006 SEDAR stock assessment found the population had 
        recovered from its overfished conditions and that catches could 
        be increased, which the Gulf Council did in 2009. An update 
        stock assessment completed in 2009 showed that allowable 
        catches could be further increased, and as a result the SSC 
        recommended an increase in ABC effective in 2012.
        2.  Increase funding for data collection and monitoring: US 
        commercial and recreational fisheries represent a multi billion 
        dollar industry; in 2008 US fisheries contributed $163 billion 
        in sales impacts to the economy and supported 1.9 million full 
        and part-time jobs. Congress should invest in fish and 
        fishermen through increasing funding for fisheries management. 
        Increased funding would help provide additional stock 
        assessments, an important tool in setting ACLs; improve 
        recreational data collection and monitoring; and facilitate 
        cooperative research.
        3.  Promote innovation in fisheries data collection: One of the 
        key ways NMFS could improve data collection without the need 
        for Congressional legislation is to explore the use of modern, 
        electronic methods for collecting data from fishermen. 
        Electronic data collection can be more timely, accurate, and 
        cost effective compared to traditional sampling methods. 
        Recently a pilot study conducted by the Texas A&M Corpus 
        Christi demonstrated that data could be collected from for-hire 
        fishermen using a mobile device, in this case an iphone, and 
        sent directly to the NMFS. This application collected catch, 
        discard, location, fishing effort, and economic data. Congress 
        should support efforts to modernize our fisheries data 
        collection by funding efforts to expand these types of programs 
        to support region-wide implementation.

Conclusion:
    Our Nation's fishery resources are an integral part of our coastal 
economies and cultural heritage. Healthy fisheries not only promote 
strong business and coastal jobs but also our way of life. Nationwide, 
progress is being made to end overfishing. Creating loopholes and 
exemptions to the Magnuson-Stevens Act will only undermine this 
progress and jeopardize the long term sustainability of our fisheries. 
We need to let Magnuson-Stevens keep working towards healthy fish 
populations. This combined with innovation in data collection and 
management that works for our country's fishing public will ensure the 
long-term prosperity in our coastal fishing communities. Thank you for 
the opportunity to share my thoughts on this important issue.
                                 ______
                                 
    The Chairman. I thank you very much, Mr. Colby, for your 
testimony.
    Next I will recognize Mr. Peter Shelley, Senior Counsel of 
the Conservation Law Foundation. Mr. Shelley, you are 
recognized.

 STATEMENT OF PETER SHELLEY, SENIOR COUNSEL, CONSERVATION LAW 
                           FOUNDATION

    Mr. Shelley. Thank you. My name is Peter Shelley. As a 
senior attorney with New England's Conservation Law Foundation, 
the oldest regional conservation law organization in the 
country, I have worked on Federal fisheries primarily in the 
New England region since 1989, and I am also a recreational 
fisherman.
    Mr. Chair, next to my computer at work I have a post-it 
note with three numbers on it: $31 billion, which is the 
increased revenue we could have in fishing sales; 500,000, 
which is the number of new jobs we could have; and $2.2 
billion, which is the increased revenue that could be going to 
this country's fishermen, their families and their communities, 
but we have to rebuild the fish stocks to get to those numbers.
    Those are the results that rebuilt fisheries in this 
country could produce. Even if we only got to half of those 
numbers, I would submit that rebuilding fisheries would be an 
important strategic national objective. These are also the 
goals that Congress had when it overwhelmingly approved the 
Magnuson Reauthorization Act during the Bush Administration in 
2006.
    To get to those goals, I believe Congress needs to do three 
things. First, allow the current law to work and the regional 
councils and the agencies to implement it. It has only just 
begun to take effect. Second, fund the Act so it can work. I 
think that on the order of three times the current 
appropriations for the essential tasks of stock assessments, 
monitoring and data collection would be necessary to actually 
improve the science, which we all want to do. And, third, 
Congress could invest in our working waterfronts and coastal 
communities so that they will be there to benefit from a 
healthy restored ocean and fish resource.
    From my New England experience, four of the bills before 
the Committee today are aligned with those actions. The other 
four, notwithstanding the good intentions of the sponsors, are 
not. The Coastal Jobs Creation Act sponsored by Representatives 
Pallone and Pingree is a great piece of legislation with broad 
public support. It will produce immediate jobs. The 
infrastructure and capacity investments that that bill 
identifies are essential to our maritime and fishery future, 
and they will be repaid to the Nation many times over. H.R. 594 
should be supported by the Committee and moved quickly.
    Representative Frank's Asset Forfeiture Fund bill and 
Representative Keating's Strengthen Fisheries bill also have 
merits. These two bills are the only ones before the Committee 
today that make any effort to identify funding streams for the 
fisheries science and data collection that is critically needed 
in the region. Representative Jones' transparency bill also has 
merit.
    In my opinion, the other four major bills--1646, 2304, 2772 
and 3061--would move this country farther from our common 
objectives. Without exception, I believe they impose new costs 
and mandates for only marginal benefits, and without new 
funding they create more business uncertainty and volatility. 
They require substantial new regulations and guidelines, they 
will cause more procedural delay in the management process, 
they seem to mandate that the councils take higher risks even 
though the councils might deem those inadvisable, and they 
eliminate one of the only market-driven and deregulatory tools 
in the management toolbox, the Limited Access Privilege 
Programs. By providing the least protection to the weakest fish 
populations, these four bills would increase the probabilities 
of future stock failures and job losses.
    The New England groundfishing season just stopped in April 
2001. It was the first one where a management plan that fully 
reflected the Reauthorization Act was in place. The results 
from that should be known. The net profits to the small 
business fleet owners that year have been reported to be 
increased by $10.8 million. That is a net. This is a year when 
the quotas were significantly decreased, the council started an 
entirely new management program, and the diesel prices went up 
30 percent. If the New England Council had not shifted to the 
sector catch share program, the economic estimates are that 
that small business fleet would have lost $15 million.
    There is a letter that I have submitted in my testimony 
where 109 of the traditional fishing captains in our region 
have said that they want to retain the current catch share 
program and the management regime. By my count, these folks 
have seen rule changes on the average of every four months from 
March 1994 to May 2010. They think that is enough, and I agree. 
They think the Magnuson Act can work, and I agree with that 
also.
    The four bills don't address any of their concerns in the 
letter. Despite the heated rhetoric that is often there, it is 
clear to me that more New England fishermen are starting to 
have some hope based on the success of the sectors program. 
What these fishermen say they need now is regulatory stability 
so they can continue to grow their businesses.
    In 1996, Congress created a fishery management council 
system that many skeptics thought would not work, but with the 
right controls we are now beginning to see that it can work. 
The system brings regional and local values and local political 
accountability to these complex, multifaceted fishery decisions 
and management actions, and risks get adjusted for local 
conditions and fish stocks become healthier.
    I urge this Committee, in closing, to be tough on NOAA, but 
be fair, to trust the council system process and the agency 
with these tough management decisions without statutory 
micromanagement and to fund them so they can succeed. Thank 
you, and I look forward to your questions.
    [The prepared statement of Mr. Shelley follows:]

           Statement of Peter Shelley, Esq., Vice President, 
                   Conservation Law Foundation, Inc.

    Chairman Hastings, Ranking Member Markey, and members of the 
Committee on Natural Resources:
    Thank you for the invitation to participate in today's hearing 
before the Committee on Natural Resources on the various bills which 
amend the Magnuson-Stevens Fishery Conservation and Management Act, 16 
U.S.C. Sec. Sec. 1801 et seq.
    My name is Peter Shelley and I am a vice president and senior 
counsel with the Conservation Law Foundation, Inc., on whose behalf I 
am testifying today. I have worked on a range of federal marine 
conservation issues during my career and have been in charge of 
fisheries management efforts at CLF since 1989. I am also co-chair of 
the Marine Fish Conservation Network, which is based in Washington, 
D.C., an umbrella network comprised of fishermen, conservationists, 
scientists and private citizens.
    My testimony will be directed primarily at the way I believe that 
the various bills before this Committee may affect the groundfishery in 
New England. This fishery is just now emerging from more than twenty 
years of turmoil and economic instability produced by chronic 
overfishing and mismanaging and beginning to show signs of a positive 
economic future. We believe that it is important to this region that 
Congress act in ways that build on what now appears to be beginning to 
work in New England.

Summary of Testimony
    The Coastal Jobs Creation Act of 2011, H.R. 594, is a critical and 
necessary federal investment in the future of the nation's fisheries 
and fishing communities. The Committee should support this legislation. 
The other bills before the Committee have a number of problems that 
range from minor to significant. Those bills that would revise current 
law with respect to Limited Access Privilege Programs, applicability of 
annual catch limits, and rebuilding timeline requirements have major 
problems in our opinion and would undercut a carefully-designed 
Congressional scheme that is beginning to show positive results around 
the country. Accordingly, we do not believe they would be consistent 
with the best long-term interests of the country and should not be 
supported by the Committee.

The New England Groundfish Context
    I have attached a more detailed history of the New England 
groundfishery as Attachment 1. Suffice it to say here that that fishery 
has been in some form of crisis from at least 1994 to 2010. This crisis 
has weighed heavily on the nation as well: the Congressional Research 
Service has estimated that approximately $100 million in federal 
dollars have been poured into this fishery between 1994 and 2008. See 
Attachment 1, p. 3.
    In 2006, Congress passed the Magnuson-Stevens Fishery Conservation 
and Management Reauthorization Act of 2006, Pub. L. 109-479, 120 Stat. 
3575 (2007). Mindful of the situation in New England and in other 
troubled fisheries around the nation and after receiving extensive 
testimony and material, Congress used this reauthorization to make some 
significant changes to the Magnuson-Stevens Act. Specifically, the 
reauthorization prohibited overfishing during the rebuilding period of 
a fish stock and it imposed accountability measures on the managers in 
the form of requiring annual catch limits and accountability measures 
if it was predicted that a fishery would exceed or had exceeded its 
annual catch limit. 16 U.S.C.A. Sec. 1853(a)(15).
    The reauthorization also emphasized the importance of having 
science-based fishery management plans in U.S. fisheries, requiring, 
for example, that all fishery management councils have a standing 
committee of science experts to advise the council on setting fishery 
specifications and having the authority to set maximum harvest rates 
that a fishery could not exceed. 16 U.S.C.A. Sec. 1852(g) & (h).
    This reauthorization advanced an express Congressional conclusion 
with respect to the nation's fisheries: that the historic flexibility, 
discretion, and latitude associated with many--but not all--of the 
fishery management plans being developed by the regional councils was 
doing harm to the Nation's interests by delaying the achievement of 
optimum yield on a continuing bases for the Nation's fisheries. Nowhere 
were the economic, social, and ecological costs of this delay more 
apparent and more devastating than in New England with the groundfish 
fishery. These were important and necessary legislative changes.
    The changes associated with these new management requirements are 
only now beginning to be observed around the country. The New England 
Council adopted its first groundfish plan under the reauthorized 
Magnuson-Stevens Act in 2009, known as Amendment 16 to the Northeast 
Multispecies (Groundfish) Fishery Management Plan (Amendment 16). 
Amendment 16 was approved for implementation by the Department of 
Commerce in 2010 in time for the start of the 2010-22 fishing year. In 
addition to introducing the new accountability measures on annual 
catches, Amendment 16 also imposed new science-based catch limits, 
which required significant cutbacks in the first year of the new plan 
for some species. Amendment 16 also scaled up a pilot program that it 
had started four years before that allowed fishermen to voluntarily 
form cooperative organizations, called sectors. Sector management in 
Amendment 16 was specifically introduced to allow fishermen to have 
more of the regulatory flexibility they were seeking in terms of how 
and where they fished and is one form of a catch share program. In 
return, fishermen in the sectors agreed to limit their collective 
catches to a specified sector limit and to develop the capacity within 
their sectors to ensure compliance with those limits.
    Analysts indicated that the potential economic losses associated 
with Amendment 16 in the first year could be on the order of 15.2%, or 
$15 million, as a result of the scientific recommendation of cutting 
back groundfish landings by over 47,000 metric tons of fish.

Recent Results under Amendment 16
    New England's groundfishermen now have had a year and one-half 
experience under the new science-based and fully accountable groundfish 
management regime. The results, albeit preliminary, have been 
encouraging based on relatively limited data. It is clear that 
Amendment 16 provided New England groundfishermen with a new and 
valuable flexibility to organize how they fished even in the first year 
of a major new management approach with which most of them had had no 
previous experience.
    The groundfish fishermen who joined sectors for the 2010 fishing 
year represented the small businesses that had landed roughly 98% of 
the groundfish during the Council's 1996-2006 qualifying period. While 
for some of these businesses it was a Hobson's choice between sectors 
and the prior management program at the beginning of the fishing 
season, the first year's experience seems to be largely positive. The 
sector program seems to have directly translated at a fleet level into 
increased safety, increased profitability, and reportedly lower 
discarding of fish at sea (reducing the waste of the previous so-called 
regulatory discards). Sectors produced these results notwithstanding 
meeting the strict limits on overfishing that were set to allow timely 
rebuilding of all the stocks, a dramatically new system that depended 
on self-management and cooperation to a large degree, and a difficult 
economic environment with diesel fuel prices rising some 30% during the 
fishing year.
    The Northeast Fisheries Science Center of the National Oceanic and 
Atmospheric Administration (NOAA) conducted an intensive economic 
analysis of the first fishing year. The report is a rich source of data 
and identifies many areas that require additional scrutiny, including 
particularly the estimated loss of crew positions and revenues, but one 
sentence particularly captures the report's meta-conclusion of the 
economic performance of Amendment 16: ``For the fishery as a whole in 
2010, more nominal value was obtained from fewer fish landed and less 
fishing effort expended as compared to the previous three years.'' 2010 
Final Report on the Performance of the Northeast Multispecies 
(Groundfish) Fishery (May 2010--April 2011) at 31. NFSC Reference 
Document 11-19 October 2011. With the exception of New Hampshire, which 
unfortunately had a 21% decline in nominal revenues for New Hampshire-
based boats, every state with a groundfish boat in the New England 
groundfish fishery had higher, and often significantly higher, revenues 
in the 2010 fishing year than they had in the prior year, 
notwithstanding a major cutback in quota available to the fishermen and 
the new strict management requirements.
    Paradoxically, this assessment of the fishing industry is actually 
supported by the November 15, 2011 Economic Emergency Declaration 
Request from Governor Patrick of Massachusetts to Secretary Bryson of 
the Department of Commerce. Governor Patrick did a full year, intensive 
inquiry into the economic impacts of Amendment 16 on Massachusetts 
groundfishermen in an effort to support his earlier belief that there 
were an estimated $21 million in losses in Massachusetts associated 
with the implementation of Amendment 16. That report, which focused 
primarily on documenting the economic harm to the group of fishermen 
(Sector 10) who were considered to have been the most stressed by 
Amendment 16, concluded that the 27 businesses in that sector had 27% 
lower net revenues, an estimated loss from 2009 revenues of some 
$405,000. But the report also states that Sector 10 failed to catch or 
lease more than a million pounds of groundfish they were allocated 
during the 2010 fishing year. The Governor's analysts estimated the 
value of those foregone fish revenues to be a minimum $269,000, which 
would have reduced losses even in this sector to $105,000 in the 2010 
fishing year. The report did confirm the NFSC report with respect to a 
loss in crew earnings in Sector 10 (estimated by the Patrick Report to 
be in the range of $240,000).
    For the Massachusetts fleet as a whole, the Governor reported that 
while the nominal value for groundfish landings of Massachusetts boats 
dropped in fishing year 2010 by roughly $875,000, the nominal value of 
the landings of all species by these same boats rose by $6.89 million 
in that same year. The nominal value for the total landings in 
Massachusetts by all boats during the 2010 fishing year, regardless of 
homeport, rose by almost $10 million. It is acknowledged that all 
fishermen did not share equally in those benefits and some continued to 
leave the groundfish fishery but by most economic measures the 2010 
fishing year was an unexpected success. New England fishermen produced 
this success while staying within the science-based limits, with full 
accountability. Because harvest rates were kept within bounds by this 
catch share program, the New England Council was able to raise catch 
levels on a number of the rebuilding stocks for the 2011 fishing year, 
which started May 1, 2011.
    Perhaps the most remarkable outcome in New England from Amendment 
16 happened recently when 109 boat owners in New England, representing 
all New England states except for Connecticut and representing the full 
range of fishing businesses that comprise this small business fishery, 
wrote an open letter to New England's Senators and Congressmen. With 
respect to the impacts that Amendment 16 had on some businesses, they 
wrote: ``[w]hile some individual businesses have unfortunately 
experienced hardship, there was no management alternative that could 
have avoided this.'' Open Letter to New England Delegation, November 
14, 2011 (attached to testimony as ``Attachment 2''). The letter goes 
on to state that politics in the fisheries were actually putting their 
businesses ``at risk,'' concluding that ``our fishery needs New 
England's elected leaders to promote stability, profitability, and 
flexibility.. . .Our fishery continues to face many challenges and is 
still struggling to deal with some of the problems caused by the 
[former] days-at-sea system and inadequate management infrastructure. 
We ask you to please work with us. . .to address these issues and move 
forward.''
    Such a communication from most of the leaders of New England's 
groundfish industry is unprecedented but not wholly surprising. The 
regulatory environment for fishing has been unpredictably volatile for 
more than 17 years. There have been 11 rewrites of the basic groundfish 
management plan, many in response to Congressional action, and over 40 
more minor adjustments in the groundfish regulations since 1994. 
Fishing businesses in this fishery have seen changes in the rules under 
which they operated, on average, once every four months from March 1994 
until May 2010. That is not a business environment that is conducive to 
either rational economic behavior or even clear scientific, social or 
economic assessments of the likely future impacts of management 
actions. Such constant change and uncertainty creates an environment 
that is hostile to the fishing communities and managers alike.
    The current amendment they are operating under, Amendment 16, was 
approved by the New England Council with a single dissent and has been 
in place for 17 months. These experienced and successful small fishing 
businesses in New England are asking their politicians to stop making 
changes to the laws under which they have to operate. Moreover, the 
goal of federal fishery management policy should be to achieve full 
optimum yield for all the nation's fisheries as soon as possible. The 
National Marine Fisheries Service has estimated that the benefits of 
doing so could range as high as $31 billion in fish sales and 500,000 
new jobs. Any delay is costly.
    It is in this context that I turn to the various bills to amend the 
Magnuson-Stevens Act that are before the Committee on Natural 
Resources. I have attempted below to thematically address the eight 
bills before the Committee where there is substantial overlap.

1. Coastal Jobs Creation Act of 2011 (H.R. 594)
    CLF and many other marine conservation organizations and 
individuals strongly support this legislation and give great credit to 
the sponsors, Representatives Pallone and Pingree, for their dogged 
efforts to move this legislation during such a difficult economic 
period. It is perhaps the greatest political challenge of all to make 
investments in the face of negative economic signals but there could 
hardly be a better target for such leadership and vision. A federal 
dollar spent on any of the purposes outlined by H.R. 594 would be 
repaid in multiples in the near future and would immediately create new 
employment opportunities.
    All the purposes and objectives of the bill, including in 
particular the emphasis on the importance of maintaining working 
waterfronts throughout coastal America, are critical and desperately in 
need of funding and support. One suggestion we would offer to both 
improve ultimate funding levels and secure the necessary state-level 
partnership in these coastal activities and purposes would be to 
include a state or local matching requirement. In-kind support and 
services should be eligible as state or local match.

2. New Limited Access Privilege Program Restrictions (Saving Fishing 
        Jobs Act of 2011, H.R. 2722; American Angler Preservation Act, 
        H.R. 1646)
    Section 5 of H.R. 1646 and sections 2 and 3 of H.R. 2772 propose to 
amend the Magnuson-Stevens Act in ways that essentially preclude the 
development of any limited access privilege program (LAPP) in the 
future in New England, the Mid-Atlantic, the South Atlantic, and the 
Gulf of Mexico fisheries. Currently, the general rule for initiation of 
a LAPP is that a fishery management council or a duly certified 
petition by 50% of the permit holders or permit holders representing 
more than 50% of the allocation in a fishery can initiate an LAPP. 16 
U.S.C. Sec. 1853a(c)(6) A special limitation applies to an individual 
quota system, a type of LAPP, in the Gulf of Mexico and in New England 
except for the Gulf of Mexico commercial red snapper fishery. Id. There 
is also a requirement in the Gulf of Mexico that the vote in 
multispecies fisheries has to be limited to people who have 
substantially participated in the fishery. Id. Section 1853a outlines 
exhaustive procedural requirements that must be followed for all LAPPs 
to ensure that proper consideration is taken of all relevant social and 
economic issues.
    Under the provisions of H.R. 1646 and H.R. 2772, the barriers to 
implementing a LAPP are expanded geographically and substantively. No 
LAPP can take effect in any fishery from the Gulf of Mexico to the Gulf 
of Maine unless 2/3rds of the eligible fishermen in the fishery approve 
the plan. The language also requires the automatic termination of a 
LAPP unless there is a subsequent 2/3rds affirmative vote in favor of 
the program after 5 years (H.R. 1646, Sec. 5) and the assessment of the 
full costs associated with the fishery program to all LAPPs, a 
requirement that does not exist in any other fishery. (H.R. 2772, Sec. 
4) Additionally, H.R. 2772 would automatically terminate a LAPP if 
there is more than a 15% drop in groundfish permits in the preceding 
year.
    Those requirements are the legislative equivalent of a ``poison 
pill'' for any new LAPP program by giving veto power over any LAPP to 
the people least invested in the fishery. For example, there were 1413 
permits issued in the New England groundfishery in 2007. Fifty-three 
percent of those permits (755) recorded no groundfish landings in 2007 
and 331 of those permits had no fish landings at all in 2007. In 2010, 
there were 1347 groundfish permits and 67% of those permits had no 
groundfish landings in 2010 and fully one-third of those permits 
recorded no landings of fish at all in 2010. Under the provisions of 
H.R. 1646 and H.R. 2772, that 1/3 of permit holders who had no current 
interest in the fishery could block the development of a LAPP in the 
New England groundfishery for any reason or for no reason at all. We 
believe that other fisheries around the country have similar situations 
with respect to inactive permits in their fisheries. Killing the LAPP 
approach as a reasonable management option makes no sense as a matter 
of federal policy.
    LAPPs are an important tool that some fishery management councils 
have used and may want to use in the future in order to achieve optimum 
yield in their fisheries in a manner consistent with the Act's national 
standards. CLF does not believe that LAPPs or other catch share 
approaches are the only form of fisheries management that will work in 
U.S. fisheries, but they are one approach that does have a positive 
track record in many fisheries and managers should be encouraged to 
consider them in appropriate circumstances.
    In approaching these issues, we believe members of Congress need to 
keep in mind that the regional fishery management councils that would 
evaluate the wisdom and propriety of LAPPs or other catch share 
programs under the current law are among the most representative of all 
federal public resource allocation mechanisms in the country. The 
management councils are made up of either state fisheries employees or 
non-governmental fishery experts, all of who have been endorsed and 
proposed by a locally elected governor in the region. We share the 
legitimate concerns Congress has about protecting economic minority 
fishing interests from a possible ``tyranny of the majority'' but our 
concerns are placated to a large degree by both the political 
accountability of the council members and the already rigorous 
procedural requirements for approving LAPPs in the Magnuson-Stevens 
Act.
    It would be a significant policy mistake to take LAPPs off the 
management table or to make their formation so unrealistic that fishery 
management councils won't even consider them. These two proposed 
amendments effectively do that. The nation will never achieve optimum 
yield with respect to its fisheries if Congress legislatively 
forecloses the use of any of a range of management tools that may be 
essential to reaching that outcome.

3. Extending Rebuilding Deadlines and Suspending Annual Catch Limits 
        (Flexibility and Access in Rebuilding American Fisheries Act of 
        2011, H.R. 3061; American Angler Preservation Act, H.R. 1646)
    Two of the bills would extend the current requirements of the 
Magnuson-Stevens Act with respect to rebuilding deadlines for 
overfished fisheries and one of the bills, H.R. 3061, would 
additionally authorize the suspension of the setting of annual catch 
limits under certain circumstances. The current requirement is that 
overfished stocks of fish should be rebuilt in a time ``as short as 
possible,'' 16 U.S.C.A. Sec. 1854(e)(4), and, in any event, within 10 
years of being declared to be overfished ``except where the biology of 
the stock of fish, other environmental conditions, or management 
measures under international agreement in which the United States 
participates dictate otherwise.'' 16 U.S.C.A. Sec. 1854(e)(4)(ii). One 
of the bills, H.R. 3061, would also change ``possible'' to 
``practical'' so that rebuilding time frames become a function of the 
social and economic conditions in a fishery. These proposed changes to 
existing law are either unnecessary because they are already in 
practice or are harmful to the nation's interests of achieving optimum 
yields in its federal fisheries as quickly as possible.
    First, it is important to note that there is already significant 
flexibility and latitude built into the existing rebuilding program 
requirements. In New England, for example, the Council started to 
rebuild Atlantic cod in 1996 and the Georges Bank cod stock is not 
required to be rebuilt until 2026, some thirty years. Gulf of Mexico 
red snapper has a 32-year rebuilding requirement and South Atlantic red 
snapper has a 35-year rebuilding program. Numerous stocks of federally 
managed fish have rebuilding requirements that exceed 10 years and, in 
some regions, we understand that the majority of a council's stocks 
exceed the 10 years under existing law. Many of the same factors that 
H.R. 1646 and H.R. 3061 seek to introduce are already taken into 
account when the rebuilding deadline is being set or re-evaluated over 
time.
    Other provisions in these bills significantly weaken the current 
law with respect to rebuilding and delay achievement of optimum yield 
in the nation's fisheries. Considerations such as ``provid[ing] for the 
sustained participation of fishing communities or to minimize the 
economic impacts'' (H.R. 1646, sec. 3(1)(B) and H.R. 3061, sec. 
2(1)(B)), authorizing overfishing on one stock in a complex of stocks 
in a multispecies fishery (id.), the change in the biomass rebuilding 
target during the rebuilding period (id.), or because the biomass 
rebuilding target exceeds the highest 25-year biomass abundance (id.) 
have one thing in common: they all weight the short-term economic costs 
over the long-term economic benefits and the long-term ecological 
benefits of rebuilding the nation's fisheries from the effects of prior 
mismanagement in as short a time as possible. The inherently vague 
nature of these considerations also introduces another element into 
fisheries management that has plagued New England's groundfishery for 
decades: business uncertainty.
    The 10-year default rebuilding requirement is a policy choice that 
Congress made but it is a policy choice that is backed by both science 
and experience. Congress received testimony from population dynamics 
scientists that indicated many of the nation's overfished stocks could 
recover in less than five years without fishing. Other eminent marine 
scientists have estimated that 10 years is twice the amount of time 
that ``the majority'' of these fish populations would require without 
fishing pressures. Safina et al., ``U.S. Ocean Fish Recovery: Staying 
the Course,'' Science, vol. 309 at 707 (July 29, 2005). Economics and 
social considerations and extrinsic environmental circumstances have 
already been factored into the current rebuilding requirement and 
should not be used to allow further delays in rebuilding. I have 
attached a joint letter from numerous marine scientists that support 
the approach taken under current law with respect to rebuilding. 
(Attachment 3)
    Authorizing overfishing on one stock in a multispecies complex 
would also work against the nation's long term economic and ecological 
interests. One example from New England might illustrate this point. In 
1996 in New England, haddock were determined to be collapsed. Haddock 
was, at that time, the ``weakest stock'' in the groundfish fishery. 
Under the proposed language, haddock rebuilding would not be bound by 
the 10-year period and overfishing on haddock could be authorized. 
Fortunately, that was not the rule. Haddock was put under the same 
rebuilding requirements as the more abundant Atlantic cod. That may 
have been one of the key factors in the ability of the haddock stock to 
produce several exceptionally large year classes of fish, enabling 
haddock to now be fully rebuilt well ahead of its rebuilding schedule.
    The requirement in both bills that there be ``evidence that the 
stock of fish is on a positive rebuilding trend'' is of limited 
significance and does not change the fundamental truth: allowing a 
stressed stock of fish to linger at low levels as long as there is some 
``positive evidence'' exposes that stock to further declines, 
perpetuates the imbalances in the ecosystem, and creates higher risks 
that extrinsic factors such as environmental change will overcome that 
species' reproductive strength. New England's groundfish experience has 
demonstrated that having a robust, diverse fishery of numerous 
populations of fish can make all the difference.
    Indeed, these bills would provide the least protection for the most 
threatened fish stocks in any multispecies fishery. Every time a 
fishery manager or Congress takes its eye off the prize--optimum yield 
for the fishery as a whole--long-term benefits are being put at risk, 
if not forfeited. Moreover, in many, if not most cases, gear 
improvements and technology advances that emerge from the fishing 
industry, almost always driven by necessity, have demonstrated the 
ability fishermen often have to target desired stocks while 
substantially avoiding stocks in the greatest need for rebuilding. This 
language could easily remove the action-forcing incentives in current 
law and practice.
    Turning to the bill language that would suspend or otherwise alter 
current annual catch limits (ACL) requirements in certain cases (H.R. 
3061, sec. 4, H.R. 2304, sec. 2), we cannot support these changes. ACLs 
are a fundamental part of the new accountability system created by 
Congress in 2006 and they seem to be working well in New England. There 
is no need for an extension until 2014 for any of the New England 
Council's fisheries and the groundfishermen have already demonstrated 
that they are able to work within the current ACL framework.
    The language of H.R. 2304 further appears to exempt fisheries 
permanently from the ACL requirement if there hasn't been a peer-
reviewed stock survey and assessment within 5 years of the enactment of 
H.R. 2304. Even if the exemption was not permanent, we see no business 
or policy sense in linking a requirement that fishermen be accountable 
to their harvest limits of a public resource on a year-to-year basis 
and the presence or absence of a peer-reviewed stock survey and 
assessment. Moreover, without a recent survey or assessment, it is not 
clear on what basis the Secretary would make a determination that 
overfishing is not occurring, as specified in H.R. 2304.
    This provision actually creates a perverse disincentive for a 
fishery management council keeping up with its surveys and assessments 
and removes even the most basic form of accountability at a time when 
funding for fisheries science may be declining below its already-
inadequate levels. H.R. 3061 would further suspend annual catch limits 
if the Secretary determines that there is an insufficiently high level 
of uncertainty with respect to the scientific advice. The Secretary 
already has that power and an obligation to disapprove fishery 
management plans that are based on such data. There is no reason to 
focus the issue solely on annual catch limits or change existing law as 
H.R. 3061 proposes.
    With respect to the suspension of the ACL requirements for 
ecosystem stocks, there is existing guidance language that addresses 
this issue under current law. While we recognize the issue we think 
H.R. 2304 is directed toward, defining and managing ``ecosystem 
stocks'' is a highly complex issue with a great deal of variation 
around the country. We believe that any ACL requirement for these 
stocks is best left for continued agency interpretation and 
implementation at a guidance level, rather than at a statutory level.
    The provisions related to extending the rebuilding requirements and 
suspending the ACL requirements have two final problems. First, they 
each require significant additional fishery science, data collection 
and assessments at a time when there is not adequate funding for even 
basic fisheries management science, data collection and stock 
assessments. Second, because of the complexity and variety of the 
nation's fisheries, it is almost guaranteed that these few paragraphs 
of vague legislative text will produce volumes of interpretive 
regulations and guidelines. Fisheries management is already 
sufficiently complex; any claims for change in the system that increase 
that complexity should be advanced only under the most compelling 
circumstances. Those circumstances are not present with these two 
management elements.

4. Modifications to the Management of the Asset Management Fund (H.R. 
        2610, sec. 2; H.R. 1013, sec. 3)
    The genesis of these bills was the discovery and analysis of 
problems and management failures with respect to the Asset Management 
Fund in 2010, in most cases, longstanding practices and policies that 
the current Administration promptly investigated and largely addressed 
when the issues were brought to their attention. H.R. 1013 would add a 
requirement that the New England Council become the beneficiary of any 
of these funds that related to violations within the Council's 
jurisdiction. The funds would be used for various specified purposes by 
the New England Council related to improving our regional fisheries. 
There are no accountability provisions. H.R. 2610 channels the same 
funding to the states in a region and would apply broadly across the 
country. A number of worthwhile activities are identified for the use 
of these funds by the receiving state. As with H.R. 1013, there are no 
specified accountability provisions to the American people on how these 
funds are actually used.
    In New England as elsewhere in the country, additional funding for 
the purposes specified in these bills is critically needed, 
particularly in the area of improved fishery data, surveys, 
assessments, and monitoring. Improved funding in these areas is 
directly linked to improved fisheries management, reduced volatility in 
the fishing industry, and increased economic yield from the fisheries. 
We further believe that the funding for the enforcement function of the 
Magnuson-Stevens Act should be separated from the funds sitting within 
the Department of Commerce in the Asset Management Fund.
    We are interested in further discussion around these topics with 
the following concerns. It is not clear that it is in the nation's 
broad interest to re-direct these funds either to the councils or the 
states without further controls and accountability measures. We are 
also not aware of a similar approach being used in any of the other 
federal natural resource management regimes and think that the 
underlying policy objectives with respect to enforcement-related 
funding in all these federal resource management programs should be 
examined. Finally, this source of funding would be a very unstable and 
variable source of funding for some of the most critical management 
functions in federal fisheries. We are concerned that these bills could 
be seen as a justification for cutting current funds in those science 
and research programs, which are already inadequate.
    With respect to the attorneys' fees provisions in H.R. 2610, CLF is 
not categorically opposed to this mechanism. It would seem to be better 
public policy, however, while still keeping with the spirit of the bill 
that some language be included that required a finding of bad faith 
prosecution by the Secretary of Commerce on the government's part with 
respect to the ``covered person.'' We do not take a position on whether 
it is appropriate to re-direct enforcement-related funds generated from 
violations around the country for this more narrow regional purpose.

5. Legislating Risk Levels (H.R. 1646, sec. 2)
    Section 2 of H.R. 1646 would mandate one level of risk across all 
federal fisheries in the nation. Identified as a ``risk neutral'' 
approach, this level of risk has been equated to the odds of a 
particular outcome on a coin toss: a 50% chance one will win. In the 
fishery case, a council would not be allowed to have any better than a 
50% chance of accomplishing its fishery objectives. Further, this 
section would restrict any science and statistical committee from 
providing fishery advice that increases or decreases annual catch 
limits by more than 20% unless the recommendation has gone through a 
third party review process. In our opinion, a coin toss and a third-
party review requirement are not good bases on which to manage the 
public's fisheries or set time-sensitive harvest levels. In New 
England, the SSC already produces a range of specification 
recommendations for the New England Council that range from risk 
neutral to risk adverse. The Council exercises its expertise and local 
knowledge in making its final policy decision about risk levels in each 
fishery and often on each stock of fish in that fishery. It is reviewed 
by the agency before approval. Most of the SSC's work in New England is 
based on peer-reviewed science as well. As far as we know, it is 
similar in most other council systems. We think it is a bad idea for 
Congress to legislate either particular risk levels for all the 
nation's fisheries (especially requiring risk neutral recommendations) 
or a provision that would tie the hands of an SSC (and therefore the 
council) with respect to its recommendations to the council to which it 
reports.

6. Various Provisions in the Bills that Require Additional Funding
    Most of these bills introduce new, expensive administrative and 
management costs on both the federal agencies as well as the management 
councils. Without commenting on their individual merits, these include 
requiring live internet coverage of council meetings and recorded audio 
and video files (H.R. 2753), investments in critical working waterfront 
infrastructure and fishery management improvements (H.R. 594), annual 
fishery impact statements and science and statistical committee 
reporting requirements (H.R. 3061), funding an NRC review on best 
practices for the assessment of recreational fisheries data (H.R. 
3061), and new closure certification programs (H.R. 1646). We do not 
know the source of any of this funding. To the degree Congress imposes 
new mandates on the agency or the councils without new sources of 
funds, that money will have to come from some other critical program 
within NOAA or NMFS. Before Congress takes any action that presents 
even a possibility of that result, it should carefully consider its 
fishery management priorities and ensure that its action is fully 
consistent with achieving those priorities.
    Thank you for considering our testimony.
                                 ______
                                 

                              Attachment 1

Extended Testimony on the Background of the New England Groundfish 
        Fishery To 2006
    The Atlantic Ocean is one of New England's most distinguishing and 
defining features, its vast beauty a fundamental part of our sense of 
place. The ocean's natural resources have supported America's oldest 
commercial industry, fishing, and continue to form the base of the 
economy of many of New England's most iconic coastal villages. But all 
that the ocean provides--tourism, recreation, sustenance, and 
commerce--has been under threat from overfishing, industrial 
development, pollution, and now climate change. Excepting climate 
change, responding to overfishing has proved to be one of our greatest 
challenges. The experience we have gained through our work in that area 
over the past thirty years is relevant to the bills before this 
Committee, which seek to amend the Magnuson-Stevens Fishery 
Conservation and Management Act (Magnuson-Stevens Act).
    The oldest commercial fishery in New England is the Atlantic cod 
fishery, which started in the 1600's and has continued without 
interruption through today. Once pursued as far away from New England 
as the Grand Banks off Newfoundland, Canada, since 1976 the U.S. cod 
fishery has been limited by the U.S. Exclusive Economic Zone at 200 
miles offshore and includes the Gulf of Maine, a significant portion of 
Georges Bank, and southern New England waters. When the Fishery 
Conservation and Management Act of 1976 took effect, Atlantic cod 
became the subject of the first comprehensive federal management 
activity in New England. Atlantic cod are managed in New England as 
part of a ``groundfish'' complex, that is, a group of bottom-dwelling 
fish including cod, haddock, various flounder species, pollock, and 
redfish. In total, the groundfish complex comprises thirteen species, 
managed as 20 separate stocks.
    A combination of excessive capital investments in the New England 
groundfish fishery that were heavily subsidized by federal tax, grant, 
and loan incentives, weak management, dramatic improvements in 
electronic fish finding technology that replaced personal expertise as 
the key to finding and catching fish, and ecological subsidies flowing 
from allowing continued overfishing to avoid short term economic 
impacts came close to destroying the commercial groundfish fishery in 
New England for the first time in history. Total New England groundfish 
landings dropped 60% between 1983 and 1993. U.S. cod landings declined 
55% over the same period and U.S. haddock landings dropped over 90% and 
haddock were declared to be collapsed as a species. Stock assessments 
conducted later indicate that cod and haddock may have reached their 
lowest abundance levels ever recorded in the 1994-1995 period.
    The economic costs were devastating to New England fishing 
communities: an estimated $25 million (1993 dollars) was directly lost 
to the boats from cod, haddock, and yellowtail flounder alone from 1983 
to 1993, even as new boats and fishermen were continuing to be added to 
the fishery. Unknown numbers of fishermen were lost from the industry: 
some redirected their fishing efforts to other species like American 
lobster, others left fishing forever. Communities in eastern Maine that 
had been groundfishing for generations lost all their groundfish 
permits as the fleet contracted toward the areas of remaining 
populations of groundfish, which were generally located off 
Massachusetts. Many of those communities still do not have any 
fishermen with groundfish permits and are completely dependent for 
their survival on lobster fishing alone.
    Rebuilding a fish population has several indispensible components: 
overfishing has to stop, the overfished population has to regenerate to 
a self-sustainable level, and the unintended catch, or bycatch, of 
those rebuilding fish in other fisheries has to be minimized. The New 
England Fishery Management Council (Council), first under court order 
and later under its own initiative, has been working to rebuild cod, 
haddock, and the other since 1994. For much of that time, operating 
under prior versions and interpretations of the Magnuson-Stevens Act, 
the Council designed fishery management programs that had significant 
flexibility built into them. They were, at best, risk-neutral in terms 
of their likelihood of success in achieving the rebuilding objective, 
i.e. only a 50% likelihood of achieving the objective, and in many 
cases they allowed continued overfishing during the rebuilding period. 
Additionally, there was no accountability for exceeding the annual 
catch ``target,'' producing even higher mortalities than the managers 
authorized. In some cases, like the Gulf of Maine cod stock, estimated 
catches were 5 and 6 times higher than authorizations.
    One of the consequences of this approach was that fishermen in the 
region periodically faced significant ``balloon payments'' on the 
rebuilding plan, that is, significant new cuts in catch allocations 
based on the need to continue the progress toward rebuilding the fish. 
These dramatic, and often negative adjustments, to authorized fishing 
levels made groundfishing highly volatile and financing for operations 
on the boats difficult. In retrospect, the Council's high risk 
management efforts failed on many levels but two failings stand out: 
the most important groundfish stocks were not getting rebuilt to a 
level that was biologically sufficient exposing them to continued risk 
of renewed collapse and the groundfish fishery was almost constantly in 
turmoil, making rational economic planning, decision making, and 
investing virtually impossible.
    Groundfish jobs and the numbers of permitted boats in the fishery 
continued to drop as the fishery adjusted to the new catch levels. 
Twenty-three percent of the groundfish permits in the region 
disappearing between 2004 and 2008 with a similar decline in the number 
of groundfish boats that landed any groundfish. Groundfish landings 
from 2001 to 2007 dropped by 43% and gross revenues from groundfish 
fell by 37% in that period. Fortunately, some of these vessels were 
able to stay in fishing by diversifying onto other non-groundfish 
species and rising fish prices to the boat. There is little reliable 
data on employment losses for crew associated with these precipitous 
declines, although they must have been significant.
    In addition to the ecological and economic costs that New England 
and New England fishermen paid as a result of this series of management 
failures, the turmoil came at a price to the nation. In August 2010, 
the Congressional Research Service tallied the following disaster 
assistance funds provided to the New England groundfish fishery:\1\
---------------------------------------------------------------------------
    \1\ Commercial Fishery Disaster Assistance. Harold F. Upton, 
Analyst in Natural Resources Policy, Congressional Research Service, 
July 29, 2010
---------------------------------------------------------------------------
        <bullet>  1994--$30 million. Assistance: fishing industry 
        grants that included employment for fishermen (training, new 
        business opportunities, aquaculture, marketing, and by-catch 
        reduction), demonstration buyback program, loan program, and 
        family assistance centers.
        <bullet>  1995--$25 million. Assistance: vessel buyback, 
        administration, and fisherman health program.
        <bullet>  1999--$6.8 million. Continuation from 1994 failure 
        with assistance that included compensation for lost fishing 
        time and cooperative research.
        <bullet>  2000--$25 million. Continuation from 1994 failure 
        with assistance that included permit buyback and cooperative 
        research.
        <bullet>  2001--$1 million. Continuation from 1995 of the 
        fisherman health program.
        <bullet>  2008--$13.4 million. (Disaster not declared.) 
        Assistance: funding for fishermen, fishing businesses, and a 
        health insurance program.
                                 ______
                                 
    The Chairman. Thank you, Mr. Shelley. I appreciate your 
testimony.
    Next I recognize Mr Robert Hayes, the recreational fishing 
representative. You are recognized for five minutes.

                 STATEMENT OF ROBERT G. HAYES, 
              RECREATIONAL FISHING REPRESENTATIVE

    Mr. Hayes. Thank you, Mr. Chairman. I would like to talk 
about three things this morning. I want to talk about Mr. 
Wittman's bill and the need for you to pass it immediately. The 
second thing I would like to discuss is some of the other bills 
that are before you, and the last thing I would like to address 
is this issue of should we amend the Magnuson Act because by 
some tokens it is working.
    Let me start with the Wittman bill. What is happening in 
fisheries management as a result of the 2006-2007 amendments is 
that we are beginning literally to do what Mr. Shelley doesn't 
want to do. We are micromanaging the way in which fisheries in 
this country are being managed. We are in a position where we 
may well have a quota on every sector for every stock of fish 
in the ocean. That is a stunning number of potential quotas. 
That is micromanagement at a level that no one in Congress I 
think envisioned when they passed this bill in 2006 and 
certainly no one in the recreational community has ever seen.
    Recreational fisheries in this country are managed by bag 
limits, seasons and size limits, successfully managed. They are 
managed by states every day in ocean waters, in salt waters and 
in fresh waters by a simple system and it works. What we have 
in the Magnuson Act at the moment is a system that frankly the 
agency will be incapable of managing.
    What 2304 does is it allows you to manage to the science 
you have, not on the science you wish you had. I almost think 
to myself in sort of a cynical way that it was adopted in this 
manner so that you could come up here and demand greater 
appropriations, greater money, greater everything else for 
greater science, greater science centers and more and more and 
more. Well, the reality in this Congress and, frankly, I think 
in any future Congress is that that is not going to happen.
    So what we need to do is reform the statute to allow us to 
go backwards to a system, frankly, that worked, the 1996 
amendments. Essentially the Wittman bill will allow you to do 
this. I would like to point out two things about that bill. The 
first thing is, Mr. Oliver will like this, it doesn't prevent 
you from putting a quota in by sector. It simply doesn't 
require you to do it. There is a big difference there.
    Now the second thing is it does not apply to any fish, any 
stock of fish, that is overfished because I think everyone at 
this table and everyone has agreed that we need to have closer, 
tighter controls on overfished stocks, but overfished stocks 
according to Mr. Schwaab were about 48 in 2010. Forty-eight is 
a long way from 528 stocks and stock complexes, which may be 
800 different stocks of fish. That is a long, big difference, 
and I think they have the capability of doing those overfished 
stocks.
    The last thing I will say about this bill is Mr. Wittman is 
correct. There is a statutory deadline. It is the 1st of 
January or the 31st of December of this year, whichever way you 
want to look at it. We need to pass this bill and we need to 
pass it urgently, as soon as possible.
    The second thing I would like to talk about--just quickly--
are the other bills. No one in this room is opposed--I hope is 
opposed--to greater transparency, more money for fisheries 
research. Those things and those bills, as Mr. Shelley points 
out, are bills that essentially are things that can be done and 
should be done. I don't see that they are in any way 
destructive bills. They don't undermine the basic conservation 
ethic of this statute.
    With respect to the flexibility bill that Mr. Pallone has 
put in, I think our position has been pretty clear on that. We 
have been opposed to it from the beginning because we think the 
agency has the flexibility to do it. It is a matter of getting 
them to do it, and that has always been the problem.
    And last, I just want to talk about this whole idea of 
amending the Magnuson Act, and I think this is kind of a key 
thing. What I just heard from Mr. Shelley and what I heard from 
the Charterboat Association, what I heard from the Charterboat 
Association was we don't think you ought to amend the Magnuson 
Act. What I heard from Mr. Shelley was the endorsement of four 
bills that amend the Magnuson Act, including Mr. Pallone's 
bill.
    I think when it is necessary to amend the statute you ought 
to, and I think those things that don't undermine the basic 
conservation ethic of this statute are useful for amendment. 
Thank you.
    [The prepared statement of Mr. Hayes follows:]

                      Statement of Robert G. Hayes

    Good morning Mr. Chairman. My name is Robert Hayes, and I have 
worked with conservation groups for a number of years to foster federal 
policies that improve the conservation of our nation's public ocean 
resources and enhance the recreational experience of America's 
recreational anglers. I would like to thank you for this opportunity to 
speak today about the immediate need to pass H.R. 2304 sponsored by 
Rep. Rob Wittman and a number of members of this committee and 
supported by the Congressional Sportsman's Caucus and the Congressional 
Sportsmen's Foundation. I would like to point out that Senators Nelson 
and Rubio, along with others, introduced in the Senate on Monday 
S.1916, a bill functionally similar to H.R. 2304.
    One of the groups I have worked with is the Center for Coastal 
Conservation, which is a coalition of America's leading advocates for 
marine recreational fishing and boating. It is dedicated to promoting 
sound conservation and use of America's marine resources. The 
organization includes the American Sportfishing Association, Coastal 
Conservation Association, International Game Fish Association, National 
Marine Manufacturers Association, The Billfish Foundation, as well as 
other institutions and individuals across the country. Along with the 
Congressional Sportsmen's Foundation, these organizations all endorse 
my testimony today. There are three issues I would like to address 
today: 1. The importance of marine recreational fishing to the citizens 
and businesses of this country; 2. The need to prevent the adoption of 
quotas by sector for every stock of fish under federal management; and, 
3. The urgency of acting now.

Why Recreational fishing matters.
    In 1977, when the Magnuson-Stevens Act was originally passed, few 
if any in the Congress or the administration gave much thought to 
management of marine recreational fishing. For the most part, it was 
being done through size, season and bag limits by the states. The 
boating and fish catching technology were, by today's measure, 
relatively primitive. Most anglers stayed closer to shore and were less 
efficient. Today, both by number of anglers and the boats and gear they 
use, all that has changed. Saltwater anglers can easily fish off shore 
and, given the state of the technology, can easily locate target 
species. In 2006--the last year the National Marine Fisheries Service 
generated national estimates of effort and participation--24.7 million 
saltwater anglers took nearly 100 million recreational fishing trips 
(97.7 million)--almost four trips per saltwater angler each year.
    Saltwater recreational anglers generated $92.2 billion in total 
sales (in 2011 dollars). Of that total, anglers generated $15.2 billion 
in total sales from trip expenditures that included food, lodging, 
fuel, bait and charter fees, among other expenses. Trip expenditures 
are dominated by the cost of fuel used in personal vehicles to travel 
to and from the fishing site or marina followed closely by the purchase 
of food and beverages. Additionally, those same anglers generated $76.9 
billion from expenditures on durable goods that include tackle, gear, 
boats, houses and vehicles used for saltwater fishing. This category of 
spending is dominated by boat and vehicle purchases, with boat 
purchases generating $6.8 billion in economic impact and vehicle 
purchases generating $5.3 billion in economic impact. The boat-building 
business is almost exclusively a U.S.-based industry. Both trip and 
durable goods expenditures support 533,813 jobs across the U.S. In 
terms of economic impact, Florida has the highest numbers at $14.2 
billion in total sales supporting 130,900 jobs followed in order by 
Texas, California, Louisiana and North Carolina.
    As a matter of comparison, in 2006 commercial fishing in the U.S. 
generated $102.5 billion in total sales and supported 1.5 million jobs. 
This estimate includes impacts from the harvester right through to the 
consumer.
    In addition to expenditures on trip costs and fishing equipment, 
anglers contribute a considerable amount to direct fisheries management 
at the state level. Across all states, recreational anglers contribute 
$621.5 million in license purchases and $329.8 million across just the 
coastal states (2010 estimates). The vast majority of this money 
returns directly to management and enhancement of recreational fishing. 
In addition to license sales, recreational anglers contribute to 
conservation through excise taxes on fishing equipment and fuel 
purchases. In 2010, these excise taxes generated $650 million 
nationwide and those monies are apportioned back to the states for 
fishery management purposes. State fish and wildlife agencies depend 
heavily on these funds to operate their programs.
    While the economic impact of marine recreational fishing is vast, 
it is still not reflected in the management process. The primary reason 
may simply be the very nature of the commercial and recreational 
sectors. The number of commercial fishermen is small relative to the 
number of recreational fishermen. The number of businesses that 
commercial fishermen buy their supplies from and sell their fish to is 
an even smaller number of operators. As a result, the commercial 
activity moves through a smaller number of hands and is a larger payday 
in those businesses' pockets. This makes it much easier for the 
commercial sector to build a cohesive base that secures the attention 
from the agency responsible for collecting the science affecting their 
sector.
    Recreational fishermen spend their dollars at thousands of gas 
stations, grocery stores, marinas, marine dealers, mom-and-pop bait-
and-tackle shops, restaurants and hotels along with everybody else 
buying those goods and services. The local gas station or convenience 
store is not likely to band together with anglers to build a base of 
support to represent them before NOAA Fisheries. You are not going to 
see truck manufacturers clamor for better data for recreational anglers 
even though the purchase of trucks to tow boats is the second biggest 
durable goods expenditure made by anglers. As a result, policymakers do 
not truly recognize the large economic impact of recreational fishing.
    To the credit of the leadership at NOAA, Jane Lubchenco and Eric 
Schwaab, there has been a substantial effort to try to solve this 
problem. But institutionally, the problem remains and will need 
continued long- and short-term attention.
So what is the problem we can fix?
    In 2006, the Congress passed a series of amendments to the Magnuson 
Stevens Act. Many of these amendments were based on two basic 
paradigms. The first was that fisheries in federal waters off Alaska 
were in substantially better condition than stocks elsewhere in the 
United States as a result of the process used and the resulting 
management decisions of the North Pacific Council. The second was a 
perception that although the prescription to stop overfishing and 
rebuild overfished stocks had been in existence for almost ten years, 
no Council except for the North Pacific Council had been able to 
achieve the objective. These two premises lead to a series of changes 
in the Act which required every Council to operate like the North 
Pacific Council and impose a series of measures to stop overfishing.
    The first set of changes seems to ignore that not every Council 
manages commercial fisheries worth billions of dollars. Nor do they 
manage fisheries that on the whole have never been subject to 
overfishing. A North Pacific Council meeting is attended by dozens of 
advocates, scientists and consultants representing all of the views of 
the various stakeholders. The members of the Council have a wealth of 
information and expertise on which to rely. In addition, NOAA Fisheries 
provides annual stock assessments for the economically important 
species, and periodic assessments for the rest. Since the fisheries 
managed are almost exclusively commercial, there is a wealth of real-
time data which allows the Council and NOAA Fisheries to make 
adjustments to regulations with a degree of certainty unmatched 
anywhere else. The difference between the data available in Alaska and 
in the other parts of the country is staggering. As an example, for the 
past few years the agency has been conducting about 40 stock 
assessments a year in Alaska. At the same time, it has been assessing 
15 stocks a year in the Gulf of Mexico, South Atlantic and Caribbean 
combined and most of those assess commercial shrimp stocks. For the 
sport fish that anglers pursue, the agency does about six assessments 
per year.
    The one-size-fits-all 2007 amendments undermine the discretion of 
Councils, which must manage to the species, fishermen and management 
systems available to them. Don Rumsfeld once said, ``You go to war with 
the Army you have, not the Army you might want or wish to have at a 
later time.'' The same has to be true for fisheries management. The 
statute can't simply require increasingly onerous restrictions without 
some accommodation to the lack of science and management capability in 
the agency.
    The second set of changes resulted in strict measures to stop 
overfishing. The first change was partially implemented in 2010 when 
Annual Catch Limits (ACLs) and accountability measures (AMs) were put 
in for all stocks that were overfished. In 2009, that included some 48 
stocks, many of which already had measures similar to this requirement. 
Now, by the end of 2010, all fisheries under management by NOAA, with 
few exceptions, were requires to have ACLs and AMs. NOAA, in the 
implementation of this provision, has required that the provision be 
put in place for every sector for all stocks regardless of the science 
available or the management capability in the region. This meant that 
in fisheries in the Gulf, South Atlantic, Caribbean and western 
Pacific, for which little or nothing was known other than some basics, 
stocks would now be managed by quotas. For recreational fishermen used 
to being managed by traditional tools like seasons, time and area 
closures, size and creel limits, this comes a quite a shock.
    Stopping overfishing is something everyone can appreciate. Managing 
every sector and every stock under management by quota, whether it's 
healthy or not, is quite another matter. I doubt anyone envisioned this 
result when the 2006 amendments passed the Congress. Over the past few 
years, it has become painfully apparent to anyone associated with 
marine recreational fisheries that NOAA Fisheries does not have the 
data to properly manage fisheries to the requirements of these 
provisions. A NOAA convened workshop on Recreational Data Timeliness 
recently concluded:
        A general theme of the Timeliness Workshop was the need to 
        consider adapting management to data constraints rather than 
        adapting data to meet management needs. Improvements in 
        recreational data quality and timeliness that can feasibly be 
        implemented through MRIP should not be viewed alone as a 
        panacea for management of recreational ACLs. Rather, management 
        approaches for addressing the management uncertainty associated 
        with data imprecision or estimation lag times must also be 
        considered for successful management of recreational sector 
        ACLs.
    To understand the magnitude of the problem, a description of what 
is being managed is helpful. The term ``fish'' has been interpreted to 
cover hundreds of species of finfish, corals, vegetation and jellyfish. 
Of these possibly thousands of stocks of fish, the federal government 
has about 528 stocks of fish and stock complexes under management. 
Although NOAA seems reluctant to identify how many stocks are in all 
the stock complexes being managed, one stock complex in the South 
Atlantic alone contains some 73 different stocks. In its testimony 
before the Natural Resources Subcommittee on Fisheries, Wildlife, 
Oceans and Insular Affairs this July, the agency referred to 500-plus 
managed stocks. Assuming that all of the stocks in the stock complexes 
were counted, the real number is probably 800-plus. Of that, the agency 
only assessed 132 in 2010 and only includes some 230 in its Fish Stock 
Sustainability Index. Not only are the other stocks not assessed, there 
is no plan given present scarce resources to improve this shortfall.
    Apart from major data problems associated with stock assessments, 
there are major problems when it comes to measuring recreational 
fishing effort and impacts. Such data is very difficult to collect 
compared to commercial fishing as methods such as on-board monitoring 
and dock surveys do not apply effectively to recreational fishing. 
Congress attempted to address this problem in the 2006 Magnuson-Stevens 
amendments through language that has led to the creation of the Marine 
Recreational Information Program (MRIP)--the recreational fishing 
survey system adopted by NOAA Fisheries to replace the ineffective 
Marine Recreational Fisheries Statistics Survey (MRFSS). The National 
Research Council concluded in 2007 that MRFSS data was incapable of 
being used for any purpose, leading Congress to direct the agency to 
make substantial changes to how it collected recreational fishing data. 
However, the data being relied on by the Councils to make all of the 
ACL decisions for the recreational sector is MRFSS data. The new and 
improved MRIP system is only now being tested and its data was not 
available to any Council for its decision-making this year. As NOAA 
Fisheries Director Eric Schwaab told the subcommittee in July, NOAA is 
rerunning the data outputs using raw data from 2005 to date. What he 
didn't say was that the reanalyzed raw data using the new MRIP 
assumptions in many cases produces different results. Whether those 
results change any of the previous assessments will have to wait for 
further analysis, but whether those results would have changed the ACLs 
cannot be doubted--yet none of them are being used for that purpose.
    Faced with a statutory deadline requiring annual catch limits on 
all stocks by the end of this year, the agency and the Councils are 
moving to meet their obligations, regardless of the inadequacy of the 
data, a plan to improve it, or the resources to implement it.
    The management system is using three different tools to implement 
this measure. The first is to simply delete the stock from federal 
management. The Gulf Council has adopted a plan amendment that deletes 
18 stocks from the reef fish fishery The South Atlantic Council has 
proposed an amendment deleting 39 stocks from management. When a stock 
is deleted from a Fishery Management Plan, it is removed from federal 
management protections. So the Council no longer has to worry about 
setting an ACL with inadequate data, but these particular stocks are no 
longer protected, for instance, from prohibitions on taking them with 
drift gill nets or fish traps in federal waters.
    The practical effect? Management of those stocks will likely be 
left to the states which will perhaps manage the stocks with state 
landings laws. But the states neither asked for the management 
responsibility nor received funding to engage in management.
    The second method of ACL implementation is to classify stocks as 
ecosystem stocks, which are not deleted from federal management, but do 
not require an ACL. This classification cannot be found in the 
Magnuson-Stevens Act, nor did most of the Councils use it as a refuge 
for avoiding ACLs. This logical and potentially appropriate designation 
for many stocks of fish was presented to Councils with overly 
restrictive parameters saying the regulatory exemption for a stock that 
was ``not sold or retained.'' That interpretation lead to Councils 
simply ignoring this potential tool because they realized that 
recreational anglers often retain even the most minor species.
    The last method adopted is the most arbitrary and was referred to 
by Mr. Schwaab in his July testimony this year as using a ``variety of 
proxies'' to substitute for data in making ACL decisions. This idea is 
fine for data-rich fisheries, but in data-poor ones the assumption is 
that the health of one stock is directly related to the health of 
another. It might happen that way or might not. No matter how poor the 
data, the Councils are simply going ahead and applying it to set ACLs. 
Historically, Councils have created allocations by sector largely based 
on historical catch records. When the Councils thought the data was 
poor, they applied a buffer between what the annual catch might be and 
some lower level to ensure that the sector didn't exceed its quota. 
Many of these calculations are extremely conservative and result in 
allowable landings of just a few hundred fish in some fisheries. In the 
South Atlantic, the annual catch for recreational fishermen of snowy 
grouper is less than 300 fish. How does the agency, even with the new 
and improved MRIP, count that few fish? It will only take the 
misidentification of a couple of them in a creel survey to close the 
whole fishery. Yet there is no plan to educate fishermen or to improve 
the data system to avoid this result.

Why the Fisheries Science Improvement Act--H.R. 2304?
    Many groups have said MSA is working and should not be amended. 
They base this conclusion on the rebuilt fisheries that have resulted 
almost exclusively from the 1996 amendments to MSA, which required an 
end to overfishing and a rebuilding of stocks in a time certain. Those 
amendments clearly have worked. What happened in 2007 was an over-
reaching of control that has deprived many of the Councils of the 
discretion they need to tailor measures appropriate to the science and 
the management capability they have, not what they would like to have. 
Adopting and implementing ACLs will lead to the closure of perfectly 
healthy fisheries, to litigation and, subsequently, to the loss of all 
respect for the process that required them.
    Oceana has already filed suit challenging the Mid-Atlantic 
Council's attempt to implement the ACL and AM requirement. Oceana 
claims MSA requires the agency to ``count, cap and control'' the 
harvest of every stock under management. Oceana alleges that the agency 
failed to require the collection of statistically reliable information 
to enforce catch limits. Other suits are sure to follow if NOAA adopts 
the amendments the Councils have submitted to implement the ACL/AM 
requirement. These suits will challenge the deletion of stocks from the 
fishery management plans, the designation of ecosystem stocks, and the 
regulatory creation of the category. They will challenge any ACL that 
is not set conservatively enough to meet a ``count, cap and control'' 
standard.
    Lastly, for those ACLs that make it through the litigation 
gauntlet, the ENGO community will challenge the agency's 
implementation. Federal judges may have trouble understanding complex 
fishery management policies, but judges have no trouble understanding 
numbers. When that hard ACL is exceeded (and it will be) environmental 
lawyers will be there to shut fisheries down, whether or not there is a 
positive conservation benefit.
    Artificially low ACLs/AMs based on poor data, combined with current 
statistical survey methods of recreational harvest, create the very 
real possibility that a very few fish being recorded in a survey will 
be extrapolated to project a total harvest number exceeding the ACL. 
The result will be to not only shut down fishing for that stock, but in 
many cases will serve as the basis for shutting down the whole fishery. 
This is the domino effect that occurred in the South Atlantic last year 
when managers were within inches of shutting down all bottom fishing in 
thousands of square miles to recover red snapper stocks. The shutdown 
was averted when unprecedented pressure and protest from all quarters 
compelled NOAA Fisheries to conduct a second full stock assessment on 
red snapper, which revealed that the stock was not in need of such 
drastic management measures.
    Many of the examples used in this testimony have related to the 
recreational sector, which indeed is not accustomed to being managed by 
quotas. However, the pain from these measures will be applied equally 
to all sectors. One example has already occurred in Alaska where a pot 
fishery for Pacific cod had been closed because the ACL for the 
bycatch--octopus--was caught before the quota for the directed fishery. 
A reasonable result, if the ACL for octopus had been anything other 
than a guess, but in this instance there seems to be little 
relationship between the health of either the Pacific cod or octopus 
stocks and the measure taken.
    The Oceana suit specifically addresses the bycatch in Atlantic 
fisheries of summer flounder claiming the lack of an ACL/AM for the 
bycatch is inadequate to count, cap and control the total catch of 
summer flounder. The bycatch of summer flounder is accounted for in the 
assessment, but it is not subject to a hard bycatch number.
    Another example being discussed is the bycatch of the shrimp 
fishery. As everyone knows, there is a large bycatch of a multiple 
stocks of finfish in the shrimp fishery. ACLs for annual stocks like 
shrimp do not require an ACL, but under the Oceana view of the world 
every stock in the shrimp bycatch requires an ACL specifically for the 
shrimp fishery. Since no one has any idea what the bycatch ACLs for the 
shrimp fishery ought to be other than the existing one for red snapper, 
they will be developed just like the rest of ACLs, as conservatively as 
possible.
    The scenario painted above is not fictional. The only reason there 
have not been more suits filed is because NOAA hasn't approved all of 
the ACL/AM amendments yet.
    When Congress reauthorized the Magnuson-Stevens Act in 2006, none 
of us knew that NOAA Fisheries was so data-poor. NOAA Fisheries has not 
received substantial increases to manage either the science or the 
implementation of a system like the one Oceana envisions. Imagine that 
there are some 800 stocks under management and that each of the stocks 
has only two sectors catching them. Now add all of those stocks that 
are also caught in fisheries other than the one being managed directly. 
NOAA would be required to manage more than 2,000 quotas annually and 
take regulatory measures for each one. No one in the recreational 
community believes the agency has the data, appropriations or 
management to accomplish that.
    The Wittman bill gives NOAA the ability to manage the species that 
matter the most to commercial and recreational fishermen, monitor and 
collect data on the rest, and continue to provide for comprehensive 
management of the oceans' resources.
    The bill removes the authority to issue ACLs/AMs for any stock of 
fish that does not have a survey or assessment within the last five 
years. It continues the authorization of ACLs/AMs for all stocks that 
are overfished or overfishing is occurring and, as a precautionary 
measure, authorizes ACLs/AMs for any stock in danger of being 
overfished.
    The bill gives the Councils greater discretion to avoid removing 
fish species from management and leave them in the jurisdiction of the 
agency by allowing the agency to put certain stocks of fish into an 
``ecosystem'' category. FSIA authorizes the category and broadens the 
eligibility for stocks of fish that can be placed in it.
    Finally, the Fishery Science Improvement Act gives NOAA Fisheries 
three years to go back and work with the Councils to figure out how to 
implement science-based measures that are appropriate for each region 
and its fish.
    The Wittman bill--already co-sponsored by 34 of his colleagues--is 
very concise, simple and targeted. The implementation of the 2006 
Magnuson Stevens Act Amendment has gone to a level never imagined by 
recreational fishermen. In addition to seasons, bag and size limits, 
they are about to get quotas on every fish they catch in the ocean 
based on a mountain of bad data. Without Congressional action, 
arbitrary decisions affecting millions of anglers and commercial 
fishermen and thousands of businesses will continue to be made.
    H.R. 2304 needs to be passed as soon as possible--the time bomb is 
ticking.
    Mr. Chairman, that concludes my testimony, and I would be happy to 
take questions.

About our organizations. . .
    The Center for Coastal Conservation (Center) is a coalition of the 
leading advocates for marine recreational fishing and boating. It is 
dedicated to promoting sound conservation and use of ocean resources by 
affecting public policy through the political process.
    The American Sportfishing Association (ASA) is the sportfishing 
industry's trade association, committed to looking out for the 
interests of the entire sportfishing community. The association invests 
in long-term ventures to ensure the industry will remain strong and 
prosperous as well as safeguard and promote the enduring economic and 
conservation values of sportfishing in America. ASA also represents the 
interests of America's 60 million anglers who generate over $45 billion 
in retail sales with a $125 billion impact on the nation's economy 
creating employment for over one million people.
    The Coastal Conservation Association (CCA) is a national 
recreational fishing membership organization of some 100,000 members 
and is organized to do business in 17 States on the Atlantic, Gulf of 
Mexico and Pacific Coasts. It has been actively involved in the 
majority of the nation's marine resource debates since its inception in 
1977. Its membership is composed of recreational fishermen who fish for 
every important marine recreational fish available in the EEZ. CCA 
brings not only an educated perspective on how to fish, but a 
conservation ethic which recognizes the value of recreational fishing 
as a pastime and obligation to take care of the resource and use it to 
the best benefit to the nation.
    The Congressional Sportsmen's Foundation (CSF) is the most 
respected and trusted organization in the political arena promoting, 
protecting and advancing the rights of hunters and anglers. CSF is the 
leader in providing access and a voice for sportsmen with elected 
officials, land and wildlife management agencies, non-governmental 
organizations (NGOs), and sportsmen allied industry groups across the 
nation. CSF is a 501(c)(3) non-profit governed by a Board of Directors 
composed of leaders of the top conservation and outdoor industry 
organizations in the nation.
    The International Game Fish Association (IGFA), is a 70-year-old 
world renowned not-for-profit organization committed to the 
conservation of game fish and the promotion of responsible, ethical 
angling practices through science, education, rule making and record 
keeping. IGFA accomplishes its mission by enlisting the voice of over 
300 official IGFA representatives in nearly 100 countries, and more 
than 15,000 angler-members around the globe.
    The National Marine Manufacturers Association (NMMA), the nation's 
leading marine industry trade association, represents nearly 1,600 boat 
builders, engine manufacturers, and marine accessory manufacturers who 
collectively produce more than 80 percent of all recreational marine 
products made in the United States. The U.S. recreational marine 
industry contributes more than $30 billion in new retail sales and 
300,000 jobs to the economy each year.
    The Billfish Foundation (TBF) is dedicated to conserving and 
enhancing billfish populations around the world. The non-profit 
organization is an effective advocate for international change, 
synthesizing science and policy into fishery management solutions. By 
coordinating efforts and speaking with one voice, TBF is able to work 
for solutions that are good for billfish and not punitive to 
recreational anglers.
                                 ______
                                 
    The Chairman. Thank you very much. I appreciate all of your 
testimony.
    We will begin the question period. I have just a couple of 
questions first, Mr. Marks, for you. Some groups seem to think 
that we should require councils to set ACLs for every species 
even if they are minor species that are rarely caught. Do you 
believe that the Act currently requires this? And if it is 
unclear about that, what should our response be?
    Mr. Marks. Mr. Chairman, I believe that the Act does 
require that, and we are seeing ACLs set for all stocks 
regardless of their size. We are actually seeing ACLs set for 
stocks where we can make a determination whether they are 
overfished or overfishing is occurring, and certainly we don't 
have the sufficient information to do that.
    So I do see that we have a problem and that at least the 
agency has implemented the 170 pages that you handed them to 
move forward and set ACLs for all of those stocks.
    The Chairman. So what should our response be?
    Mr. Marks. I am sorry?
    The Chairman. So what should our response be to that?
    Mr. Marks. Well, what I think we need to do, and I made one 
of the recommendations on my wish list, was to enable the RFMCs 
to be able to set single ACLs for a group of fish stocks, which 
would include a multispecies complex, for example, where 
basically you could set one level and whatever harvest comes 
out of that amount you wouldn't have individual ACLs, but you 
would have one. So whatever suite of species Mother Nature 
allows you to harvest, you set that level for that group and 
that is what you are allowed to take.
    The Chairman. Mr. Oliver, H.R. 2772, I think you alluded to 
this in your testimony, but just for clarification, H.R. 2772 
includes a provision which would require industry to pay all 
costs associated with management of any new LAPP plan, and it 
removes the 3 percent cap. How would this affect your catch 
share program specifically in the North Pacific?
    Mr. Oliver. I am not certain I know the answer to that, Mr. 
Chairman. I didn't comment on that specific provision of the 
bill. I haven't done the math on that. I know our industry 
currently does pay a fee on some of the IFQ and LAPP programs. 
In some cases, that fee does not exceed the 3 percent, so in 
those instances, it probably wouldn't have a terribly negative 
effect. I suspect that in some fisheries where that fee might 
be higher than 3 percent, and I don't know how much higher, I 
guess that would be where the rubber meets the road.
    But I suspect in many cases the industry would be able to 
absorb that up to a point depending on whether or not the fee 
would also be able to cover the cost of observers because we 
have quite an extensive, and expensive, observer program in the 
North Pacific.
    The Chairman. If you could follow up and try to clarify 
that, that would be helpful to us.
    Another question. While your region, the North Pacific 
Region, does have better scientific information, as has been 
alluded to by several of the witnesses, are there any species 
for which data is poor and that might cause you problems as a 
result of lower harvest levels due to that inadequate 
information?
    Mr. Oliver. Yes, sir. Yes, sir, there are. I did touch 
briefly on one example. We have some species, octopus was the 
example I used, which is a very difficult species to survey, 
though it is recognized as an abundant species, yet we have 
what I would probably describe as an artificially low ACL 
because it is not based on a robust stock assessment. It is 
based on historical harvest information, life history 
parameters and other things. Yet, as I mentioned in my earlier 
testimony, it shut down a rather valuable cod fishery this year 
because we reached that ACL. And sharks as well as squid are 
two other examples.
    The Chairman. OK. Thank you very much. I will recognize the 
gentleman from the Northern Marianas, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman, and good 
morning, everyone. I have a question for Mr. Shelley. Why was 
the 2006 amendments made to the Magnuson-Stevens Act so 
critical to sustaining our fisheries?
    Mr. Shelley. I think there were three elements that were 
introduced by that law. First it introduced hard deadlines. 
Fishermen had been overrunning their quotas for decades as a 
result of that component, so a hard deadline affected the 
ability to stop at a specific number that they could 
statutorily do. The second provision was a requirement for 
annual accountability. They need to stay within their numbers, 
and they would be held accountable around those numbers. And 
then the third was the deregulation of the small businesses 
that was made possible by the sector management point.
    Mr. Sablan. All right. And again, Mr. Shelley, there has 
been a lot of discussion about the arbitrary 10-year rebuilding 
requirement. Can you explain how this requirement came about, 
how it was decided upon?
    Mr. Shelley. As I understand it, and I have read the 
record, it was a policy decision made in Congress. It was not 
pulled out of the air. Congress received testimony from 
population dynamics specialists. They talked to scientists. 
There was a calculation made that the majority of the U.S. 
commercial stocks could be actually rebuilt within five years 
if there was no active fishing pressure.
    Congress doubled that time in order to accommodate social 
and economic possibilities and then provided an escape valve 
for those stocks of fish where the biological circumstances, 
the environmental conditions, the sort of things that are in 
some of the bills before the Committee today, where those 
conditions were present, the councils and the agency were free 
to explore a longer timeframe.
    Mr. Sablan. And finally, in your testimony, you mentioned 
that modifying the annual catch limit and rebuilding 
requirements will not only create business uncertainty, but it 
would also require volumes of interpretive regulations and 
guidelines. Why would anyone in the fishing industry support 
these provisions, and who are the winners and losers?
    Mr. Shelley. I don't know. I don't know why anyone would 
support that. I do know from a lot of experience and a lot of 
observation of what has happened with earlier statutory 
language that the simplest phrase can be expanded into the most 
complex set of rules of any agency because of the complexity of 
the fisheries in this country. It is not that the agency is 
acting poorly. It is because all the fisheries are not unique, 
but they are very specific, and so the regulations and the 
guidelines have to encompass a whole panoply of possibilities.
    The fishermen who are subjected to these rules then in my 
opinion don't understand them most of the time, are often held 
accountable for them and fined for rules that they don't 
understand and shouldn't be reasonably expected to understand, 
and so I think the real losers here are the small businesses 
that fish in America, and that is why I am opposed to changes 
to the law that aren't critically needed and are not surgical 
to a particular problem.
    Mr. Sablan. All right. Thank you. Earlier Congressman Frank 
mentioned about fishermen actually going out and telling you 
that there are fish in the ocean and that adds to the science, 
and I come from an island community where I have seen 
fishermen. They will tell you what they are going to catch 
today, but I have also seen fishermen who tell you the strength 
of their catch.
    Mr. Colby, one of the things we often hear from fishermen 
is again how many fish they are seeing in the water compared to 
what the fishery science says. Can you address the discrepancy 
that sometimes occurs, besides catching these fish, in the 
science?
    Mr. Colby. Bear with me, but our anecdotal observations are 
great fishermen to fishermen. Many times I have saved a charter 
by somebody telling me where to go fish, so I understand the 
usefulness in that.
    In terms of red snapper, everyone from NOAA down to my next 
door neighbor knew red snapper was rebuilding. It wasn't 
surprising that we had fishermen coming back with anecdotal 
observations that this stock was everywhere. They were walking 
across red snapper. And I will tell you, if I take my 
fishermen's hat off for a minute and put my biologist hat on, 
that is a dangerous type of data or observation to use in 
formulating a scientific assessment for fishery management.
    Recently I had a discussion with a group of fishermen from 
the Aylesworth Fish & Bait Company, a large wholesaler in 
central Florida. They indicated fishermen were coming into this 
bait shop telling them gag grouper we have limited out easily, 
couldn't have had a better trip and were complaining that there 
was only a 60-day compressed season, which ended in November.
    Then we continued talking, and he said, ``How was your red 
grouper fishing,'' mindful that red grouper is not currently 
under a rebuilding plan. I said, ``Well, I had six trips this 
year with six customers of 36. We caught 72 head of legal-sized 
red grouper in six trips. I limited out every trip.'' He said, 
``You are lying.'' I said, ``No, sir.'' ``Where were you 
fishing?'' I said, ``In the 90-foot bottom about 15 miles north 
of where you would fish out of St. Petersburg.''
    Well, the Aylesworth family, we are pretty good fishermen. 
We took three trips into that cheese bottom, 90 to 100 foot 
area, and had one trip where we only caught shorts, two other 
trips where we caught two legal fish per trip. Now there is 
where anecdotal observations have a double-edged sword. It can 
get you into trouble, so you should be very careful in how you 
use that information to assess any kind of changes to a 
scientific fishery management plan.
    Mr. Wittman [presiding]. Thank you, Mr. Sablan. I am going 
to recognize myself for five minutes as being the next in line 
of asking questions.
    Mr. Hayes, I wanted to go to you and follow up on some of 
the comments that you made. You spoke about the 2006 amendments 
to Magnuson and the timeframe that it creates to require ACLs, 
annual catch limits, to be put in place for all species by 
December 31, 2011. Does NOAA currently have the data to make 
those quantifiable decisions on all 800 of the species that are 
included in that requirement under Magnuson-Stevens? And under 
that, why is it important for Congress to act in a timely 
manner in order to make sure that this deadline is kept in mind 
as far as the actions that need to be taken on these fish 
stocks?
    Mr. Hayes. Yes. Well, when the statute was amended the 
agency went forward and put together a series of annual catch 
limit amendments to literally every fishery management plan 
that they had. I think there are one or two exceptions. I think 
shrimp is one. Those amendments are in the process of either 
having been approved or being approved by the National Marine 
Fisheries Service at this very moment. Those amendments cover 
528 stocks and stock complexes.
    I think it was done in probably as fast and as arbitrary a 
way as you could do it. They simply took a look at a fishery. 
My favorite is snowy grouper. There is a snowy grouper fishery 
off the South Atlantic. There are good commercial landings data 
on that. There are almost no recreational landing data on that.
    And so what they did is first they allocated it by sector 
and then they proceeded to take a look at the historical data 
and say, well, let us go kind of with the mean here. We don't 
know much about them, so maybe we will go a little bit below 
that even. They wound up I think the quota is 263 snowy grouper 
per year for recreational fishermen.
    Now anybody who knows anything about the National Marine 
Fisheries Service knows that they are absolutely unequivocally 
incapable of counting 263 fish. That is impossible. The local 
county can't do it. How in the world could you expect the 
National Marine Fisheries Service to do it or NOAA Fisheries. 
Excuse me. They simply don't have the data.
    And as your bill correctly points out, it deals with 
assessments, not with guesses, not with the best science you 
have available, which happens to be MRFS, which I believe the 
National Resource Council said was incapable of use in any 
purpose whatsoever. That would include this one obviously. So I 
know they haven't got the data, and frankly the thought that 
they might get it sometime in the future is just folly.
    Mr. Wittman. Let me ask you this. You speak about the snowy 
grouper as an example. Can you give me your assessment of the 
closure of the Atlantic cod fishery or, excuse me, the Alaskan 
cod fishery as a highlight of the potential problems with ACL 
limits that are set and some of the unintended consequences?
    Mr. Hayes. Sure. What we have done in fisheries these days 
is digitize all of this so that we have a number. Everybody 
understands a number. As I understand it, Mr. Oliver is 
obviously much more familiar with this than I am, but the 
Council realized that there was a bycatch of octopus in a pot 
fishery for cod fish, Pacific cod in the North Pacific, and so 
they decided to put an ACL on it.
    And as I understand it, they decided a very high number, 
fully intending that it would not be met I think, that it would 
sort of be a trigger that would kind of work to look at things. 
It got exceeded. It got exceeded, and we closed down a Pacific 
cod pot fish fishery. There is no biological problem with 
Pacific cod, and as best anybody can tell there is no 
biological problem with octopus, and yet we have gone ahead and 
closed down a perfectly viable fishery. It is illogical.
    I might give one good anecdote here, which I think is part 
of the problem. What this statute does today is it allows you 
to go through rote, mechanical application of things: ACLs, 10-
year rebuilding periods, things like that. Years ago there was 
a guy named Dick Frank who was head of the National Marine 
Fisheries Service, and the first day he was there he wanted to 
see how in the world they had been forecasting D.C. weather. He 
was a D.C. guy. So he went out to the local weather guy and he 
said to the local weather guy how do you predict our weather 
every day.
    The guy showed him the models and he showed him all the 
different scientists that were involved, and he said I always 
talk to the other forecasters so I have really the most 
comprehensive, scientific view of it that I can possibly get. 
And the last thing I do before I give that weather report is I 
look out the window. NOAA stopped looking out the window.
    Mr. Wittman. Thank you, Mr. Hayes. We are going to go to 
Mr. Pallone now for five minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to start 
with Mr. Zales.
    One of the major concerns that I hear is that although a 
fishery is rebuilt and not subject to overfishing, and I will 
use black sea bass as an example, that fishermen still don't 
have access to the stock because of overly precautious 
management measures that stem from a lack of science.
    As you know, I have introduced the Flexibility Act. My bill 
would allow for more flexibility in rebuilding timelines and 
ensure that the Secretary of Commerce has the authority to step 
in and stop overly burdensome restrictions that are not 
supported by science. So I just wanted to ask if you support 
this approach and if you think it will help fishermen that you 
represent.
    Mr. Zales. Yes, sir, I do. You know, this gets into I think 
part of especially on the recreational side part of the data 
system in which Mr. Hayes and some others have mentioned. 
Clearly under the current data system that we have that I have 
played with, I have been involved in fishery management from 
this side of the table since 1988, and it started pretty much 
with king mackerel and the problems with MRFS way back then 
because we had a king mackerel fishery shutdown on the Gulf of 
Mexico two years in a row based on flawed data.
    And when you get into a situation like the sea bass thing, 
and I am not totally familiar with it, but I believe I am 
familiar with it enough, it is kind of like a Spanish mackerel 
fishery in the Gulf of Mexico. We have a Spanish mackerel 
fishery in the Gulf of Mexico that has been perfectly healthy 
for years. Not overfished, not undergoing overfishing.
    Because of the ACL requirements that have come into play 
now and because of the lack of data--and to give you a little 
more history, the State of Florida, and I think this was 10 or 
12 years ago, created a net ban because Spanish mackerel were 
commercially caught in nets. At that point, the harvest was 
exceeded many years in a row, but since the net ban that 
fishery has just continued to grow and grow and grow and you 
can't put enough hooks in the water to catch the fish.
    Well, the Fisheries Service in their wisdom now, because 
Spanish mackerel is a fish that lives about 10 years, and the 
fish that are there today never have seen a net. The commercial 
harvest is extremely low. So, in the SSC's parameter of 
creating the recommended OFLs and ABCs to set annual catch 
limits, they are using the last 10 years' average of harvest 
for Spanish mackerel. Well, it is about half of what it used to 
be years ago. So that is where they have set their catch limit.
    Now where that is going to go if they continue to go down 
that road is that if somebody comes up with an innovative way 
to catch Spanish mackerel at some point in the future and you 
are able to get close to that point, because of the buffers and 
all the regulations that are there, the closer you get to it 
the more restricted you get. So when you set it down low you 
will never be able to see it high ever again.
    Mr. Pallone. Yes.
    Mr. Zales. And that is part of our problem, and I think 
that is going on with your sea bass.
    Mr. Pallone. All right. Let me ask you another one. In your 
experience, is it possible for a fishery to be considered to be 
overfished but be able to be fished at levels that allow 
rebuilding and maintain fishery jobs?
    Mr. Zales. There is no question. Red snapper in the Gulf of 
Mexico is a classic example. You have heard testimony here 
today and information on the Act that was reauthorized in 1996. 
Red snapper began its rebuilding in the 1990s. The first 
regulations on red snapper were put into place in the late 
1980s. The first recreational requirement and commercial was a 
minimum 12-inch size limit.
    There was a buoy gear fishery on the commercial side that 
targeted deepwater and targeted your large order red snappers. 
It took a lot of those fish out of the fishery. That fishery 
was eliminated in the late 1980s and early 1990s. As that 
fishery began to rebuild, in 1996 when the Act was reauthorized 
a provision was put in there that said that when red snapper, 
the recreational quota was met, the fishery would shut down.
    Well, we had closures from 1996 to 1999. In 2000, the 
Fisheries Service instituted a six-month season for us with red 
snapper with a four fish bag limit. That season went on for six 
years. It was a resounding success. It allowed everybody, 
including fishermen, the charter businesses, the supporting 
businesses, the anglers to be able to plan year after year 
because they knew when they could fish, what they could fish 
for and what they could catch.
    Well, because of what happened in 2007, we then got into 
the situation to where you had to bring everything back down, 
so then we had reduced quotas. The season was eliminated. Now 
every year that we go into this red snapper fishery the only 
thing we know for sure certain is that red snapper will open on 
June 1, 2012. We don't have any clue as to whether it will be a 
one-day season or a 100-day season, and that is part of the 
problem.
    You can continually rebuild because red snapper, it is like 
Mr. Colby said. And this is anywhere from the Keys to 
Brownsville, Texas. If you put a hook in the water in the Gulf 
of Mexico, you are going to catch a red snapper regardless of 
what you are trying to target.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mr. Pallone. We are going to go to 
Mr. Duncan now for five minutes.
    Mr. Duncan of South Carolina. Thank you, Mr. Chairman, and 
thanks for your efforts in putting forth this piece of 
legislation I am a proud cosponsor of. I am glad to see we are 
having a hearing. What I hope is that we can expedite the 
passage of this before the deadline of December 31. The 
emphasis I want to make to this Committee, and I will make to 
the Chairman himself, is that we need a markup on this bill and 
we need it to the Floor.
    I think it is imperative that we make sure that NOAA is 
using sound science to set these catch limits for the nation's 
fisheries. This summer we had testimony from a number of 
captains I think it was in July, and as their testimony clearly 
pointed out, the computer models that are used by NOAA are not 
consistent with the situation that we are seeing out in the 
ocean and that we are seeing the results at the dock.
    The models are flawed, and they are set up on a computer 
model. I get that, but computer models and what actually 
happens out in the biological ocean are two different things. 
The end does not result--should not result--in the means, and I 
think that is what Mr. Zales was saying that they are 
experiencing in the Gulf.
    Here is what I see happening. We have seen this before, and 
I can point to the wolves and the depredation or what they say, 
the wolves depriving the elk out west. We see regs set without 
real data, and then the research is done after the reg is 
implemented. The research is done going forward and they see 
there is this booming fish population and they are pointing to 
the regulation that was set on flawed data when in actuality 
the fishery was very, very good.
    The reg was set saying we need to limit the number of fish 
that are caught and then we are going to do the research 
afterwards and we are going to say see, we told you. This 
regulation was put in place and it has benefitted the fishery 
when actually the fishery was good all along. I have seen this 
time and again, and so I think we need to use real data and 
real science and the end should not justify the means. The 
sportsman in that scenario is the one who suffers because of 
these flaws.
    And so what I would like to do is ask Mr. Hayes. I am 
concerned about the December 31 deadline and so we have to do 
something prior to the implementation of these new regs. I 
think there is a sense of urgency. Congress assumed a new 
recreational data collection system would be in place two years 
before the ACL requirement kicked in. In 2006, they assumed 
that. We haven't seen that. And so is it fair to put the ACL 
requirement in place before the new recreational data 
collection system is ready? Mr. Hayes?
    Mr. Hayes. Thank you, Mr. Duncan. I should point out that 
the agency has done a yeoman's effort, and recreational 
fishermen have spent an enormous amount of time--Mr. Zales, 
myself and others--trying to fix the Marine Recreational 
Fishery Survey. The improvement is in fact an improvement, but 
I think it is clearly to me unfair, as you stated. But the 
problem I think is that it is wholly arbitrary, which is a 
legal standard.
    And the reason I say it is wholly arbitrary is because the 
National Marine Fisheries Service is now rerunning all of the 
previous data that the decisions were made on and they are 
rerunning that data and what they are finding out is what a 
surprise. You take the raw data, you put it in a new model, you 
get slightly different answers. In some cases, they are big 
different answers.
    Now I don't know what the significance of that is to an 
assessment because I don't have the model, but I do have a 
feeling that if I was a fishery management council member and I 
had a different number in front of me, up or down, that I might 
have made a little different decision. And it seems to me 
somewhat arbitrary for the Secretary to approve a bunch of 
annual catch limits based on data which I think everybody, 
certainly Congress, agreed was inadequate for any purpose and 
particularly this purpose.
    Mr. Duncan of South Carolina. Let me just ask you a 
followup question because, at the July hearing, testimony was 
heard that it was not the 2006 amendments that caused the 
problem with the catch limits, but it was the agency's 
regulations. And so we are dealing with statute and we are 
dealing with regulations. How should Congress address a problem 
that is caused by regulations and not statutory language?
    Mr. Hayes. Well, I think what Mr. Wittman's bill does is it 
removes the mandate to put annual catch limits in place, so 
even if the agency were to go forward and adopt all of these 
measures and you passed the bill they would have no authority 
to put those particular annual catch limits in place. 
Presumably they would have to go back and delete them from the 
regulation.
    You know, the great thing about the Constitution is it 
gives Congress the authority to set the parameters upon which 
those regulatory discretions are applied. What Mr. Wittman's 
bill does and your bill does is it removes that direction and 
thereby makes them both unnecessary and unauthorized.
    Mr. Duncan of South Carolina. I am out of time, but that is 
an important point for this Committee to remember. I yield 
back.
    Mr. Wittman. Thank you, Mr. Duncan. I am going to go to Ms. 
Hanabusa now for five minutes.
    Ms. Hanabusa. Thank you, Mr. Chairman. I would like to 
first begin with Mr. Marks.
    Mr. Marks, you made an interesting statement when you said 
that the 2006 amendment altered the MSA, but what we did was to 
adopt the Alaska model without the science of Alaska. I am also 
curious about that statement and tied to that the fact that you 
believe that the Act now requires basically catch limits on 
every type of fish. Did I hear you correctly?
    Mr. Marks. That is correct. You did. I think we did try to 
apply the Alaska model because Senator Stevens was heavily 
engaged in the reauthorization, and Alaska has been held up as 
the model in the country for fisheries management.
    I think the focus was to try and move the rest of the 
country more toward that. And as I indicated, the biggest 
concern with that is that the high exemplary scientific 
capabilities of the Alaska region did not follow to the rest of 
the country. We are lacking, and that means that without 
sufficient science the precautionary buffers that are now added 
to these ACL requirements are extremely large. Even if we set 
general proxies for stocks we don't know much about, we have to 
be extraprecautionary under the way the Act was interpreted.
    Ms. Hanabusa. So, to then address, for example, Hawaii 
doesn't--I am from Hawaii. Hawaii doesn't have technically 
overfished stock. So, if you are going to set or under how you 
interpret the law, if they are going to then set ``limits'', 
then it is sort of a situation where how do they get--well, I 
would like to understand from you how you believe they can get 
to the point of setting a limit when the stock isn't 
overfished.
    Mr. Marks. Well, I am not arguing that they shouldn't set 
limits. My point is that they should set appropriate limits 
based on the scientific information that they have. You are 
lucky that you don't have any overfished stocks apparently, but 
they still have to set limits on those stocks based on the 
information that they have at hand.
    If they don't have sufficient information, they still have 
to set an ACL limit based on whatever information they have--it 
may be weak, it may be strong, but they still have to set that 
limit--and then fishermen have to abide by that.
    Ms. Hanabusa. Do you feel that if it is not overfished that 
you need to set a limit?
    Mr. Marks. Do I feel if it is not overfished do we need to 
set a limit? I don't have a problem with setting a limit if the 
stock is not overfished to make sure that we don't overfish 
that stock. Again, it gets back to the fact that we should set 
an appropriate one.
    Ms. Hanabusa. Why do you believe that the Alaska model has 
good science and other regions have not been able to duplicate 
that level of information? Because it seems like if you are 
going to set limits for Hawaii, for example, we don't have the 
situation overfished. I am really concerned if we don't have 
the Alaska science to then go and help them establish those 
limits.
    Mr. Marks. Mr. Oliver would love this question, but I can 
tell you that from the economy of scale some of the largest and 
most economically valuable fisheries in the country take place 
off the coast of Alaska. They have their own science center. 
They have most of the stock assessments done on a more regular 
basis than any other region in the country. Again, I am not 
arguing that they do a wonderful job up there. We need to do 
that everywhere else, in Hawaii and on the East Coast and in 
the Gulf. We just don't have the capability.
    Ms. Hanabusa. And that was actually a great segue because I 
was going to ask Mr. Oliver. What makes it so that Alaska has 
this great science? Your testimony is clearly I think from 
someone's perspective who has the great science, and of course 
this doesn't bother you as much as it bothers everyone else. So 
can you tell me how is it that you have the great science and 
nobody else has?
    Mr. Oliver. Well, I don't know that I can fully answer. I 
think Mr. Marks hit upon it. We have our Alaska Fisheries 
Science Center. We have had the luxury of having that 
relatively well-funded. We have had a lot of ship time and 
regular surveys in the Bering Sea and the Gulf of Alaska. 
Hopefully we will be able to continue.
    That was one of the points of my testimony was the need to 
enhance stock assessments in regions where you don't have that, 
but we also want to keep the robust stock assessments that we 
have. It is an expensive process.
    We also have some fisheries that happen to be more amenable 
to stock assessment surveys. Pollock, for example, one of our 
largest fisheries, a lot of that survey information comes from 
hydroacoustic surveys rather than having to do alternative 
surveys, so some of them lend themselves better to stock 
assessments.
    Ms. Hanabusa. Isn't it kind of ironic? I mean, usually when 
we set standards we don't set to the highest standard because 
it seems just unfair for everyone else to have to achieve to 
that level because what you have is a lot of equipment and a 
lot of centers that no one else has. But anyway, with that, I 
will yield back. Thank you, Mr. Chair.
    Mr. Wittman. Thank you, Ms. Hanabusa. We are going to go to 
Mr. Runyan now for five minutes.
    Mr. Runyan. Thank you, Mr. Chairman. Gentlemen, thank you 
for being here.
    Mr. Marks, just a very quick question. My bill provided 
requirements for the industry generated petition and full 
referendum of eligible permit holders before any catch share 
program can be permitted. Very, very simple. How long can we 
wait to have this put into action? I think as we talked earlier 
talking about regulation and small business, I think this is a 
prime example of that.
    Mr. Marks. Thank you, Mr. Runyan. We appreciate your bill. 
To answer your question as succinctly as you asked it, we need 
it right now. We do not have a referendum option in the mid-
Atlantic. We understand from NOAA that we are facing six new 
catch share programs, and we are not even sure which ones they 
are. We have already had one catch share program, the first one 
post the 2006 amendments, which was tilefish. The State of New 
Jersey lost its entire historic tilefish fishery.
    We are now trying to fend off a monkfish catch share 
program, and again it doesn't appear we will have a vote in 
that. We need to be able to protect ourselves if we don't want 
a catch share program, and we do not have the luxury of a vote, 
so we need your petition and your vote referendum as soon as 
you can make it happen.
    Mr. Runyan. Thank you for that.
    Mr. Colby and Mr. Zales, based on the answer Mr. Marks just 
gave about the commercial industry, would you gentlemen prefer 
that all charter boat owners and operators have a full say in 
the development of catch share programs in your fisheries, or 
would you rather leave it up to the Secretary to make those 
decisions? And again, can we reasonably wait for this to 
happen?
    Mr. Colby. Well, Congressman, I will tell you what we have 
been telling our regional council for years now is any 
investigation or deliberation on a share allocated model that 
might work for for-hire operators, A, may not look anything 
like the commercial model that we have in the Gulf; B, could be 
a model that is devised on an IFQ or a day at sea or a length 
of time permit held or some such item that nobody knows what it 
will be.
    I remember one of our Gulf Council representatives, Mr. 
Bill Teehan, who is with the designate from FWC, I think he 
said it well. He said this council right now is not trying to 
pass catch shares for the for-hire industry. We are obligated 
to investigate and deliberate those alternatives and models, 
and that is what I want our industry to do in the beginning is 
just come up and give us the opportunity to discuss them. Have 
some pilot programs.
    I can guarantee you with the greatest certainty to every 
Committee member here that there is not a single for-hire 
operator that I know that is going to rubber-stamp catch shares 
for the for-hire industry unless it works. These guys are 
businessmen. They are small businessmen. They are pragmatic 
people. They are not going to willy nilly let somebody from the 
top down shove catch shares down their throat. They want to see 
if it works. This is what I have been telling the council, and 
I hope I am answering your question, that we are not on this 
catch share bandwagon beating the drum, but we sure will be if 
we find out they work.
    Mr. Runyan. Mr. Zales?
    Mr. Zales. And from our perspective, I can tell you that we 
have--and like I said earlier, I have been involved in this for 
over 20 years and am involved in many, many things working with 
the Fisheries Service. I helped design the for-hire survey, 
which is a better program that we have now than we had prior to 
2000.
    The situation with catch shares in the charter industry, 
there are currently 1,300, give or take, Federally permitted 
charter vessels on the Gulf of Mexico. There are another 1,000 
or so state licensed vessels that don't have Federal permits 
that fish state waters. In Texas there is a nine-mile limit. On 
the west coast of Florida there is a nine-mile limit. The other 
three states have three-mile limits. There is a substantial 
amount of fish harvested in state waters that you don't have a 
Federal permit on.
    We have asked over and over again for the Fisheries Service 
to explain to us how a catch share program is going to include 
those state licensed people. It is a substantial amount of 
jobs. It is a substantial industry for the states. And it is 
like Mr. Colby said. Clearly I think that if you do this you 
need to include every permit holder. You need to include every 
state licensed vessel in the process.
    Even though the Fisheries Service doesn't control state 
licensed vessels, they do control the fish that are fished in 
state waters and so you have to have that. We have asked for 
the Fisheries Service to ask these people where do you stand on 
this, and they have constantly refused to do it and they are 
spending countless dollars and a countless amount of time 
trying to develop different scenarios to try to convince people 
to go into a catch share program.
    We would rather see people say we either want it and we 
want to work with you to help develop it or we don't. Let us 
use that money and time in helping the science, and let us 
figure out where our stocks are because most of us feel like 
our stocks are stable enough at the present time that we don't 
need catch share programs to do this, that our stocks are 
resilient. They are growing. They are getting better and better 
every day. That is kind of where we are.
    Mr. Runyan. Thank you very much. I think it is all about 
asking the question and having the stakeholders have a say in 
the process. Thank you, guys.
    Mr. Wittman. Thank you, Mr. Runyan. We will go to Mr. Holt 
for five minutes.
    Mr. Holt. Thanks, Mr. Chairman.
    Mr. Colby or others, you have talked about the need to 
address recreational data, data collection for recreational 
fishing. In the bills before us, do you see any of them that 
will do that, do you have other suggestions and are there any 
states that do a better job than others in collecting 
recreational data?
    Mr. Colby. Thank you, Congressman. I wanted to see some 
kind of laundry list of ideas and solutions for improving data. 
No one argues that we don't need better data, certainly not 
with my fishery or educational background. I have worked with 
data sets all my life, and I don't know why we can't seem to 
have an agreement about how we bring certain components of our 
fishery into a data collection process.
    I know we have MRIP now, and I will get back to that in 
just a second, but in terms of our charter-for-hire industry we 
are already approaching the council to the table with our data 
collection offers. I mean, we are going to have electronic 
logbooks here very shortly to look at catch and bycatch and 
discards for us. We already have an invitation from our Fish 
and Wildlife Commission in Florida to----
    Mr. Holt. So are you saying it will be good enough?
    Mr. Colby. Sir?
    Mr. Holt. Are you saying that the way we are going now will 
be good enough?
    Mr. Colby. No. No, sir.
    Mr. Holt. OK.
    Mr. Colby. I am trying to answer what I have seen in the 
bills. I wanted to see a list of ideas that would help improve 
the science and improve the data, but I didn't see that. What I 
am telling you what I think we need is more cooperation among 
the sectors of the fishery. Currently I am mandated to comply 
with data collection.
    Mr. Holt. And you don't see that in the legislation in 
front of us?
    Mr. Colby. No. No, I do not.
    Mr. Holt. OK. That was really my question.
    Mr. Colby. All right.
    Mr. Holt. The Science Committees, Mr. Zales, and actually I 
did say I was going to give other people a chance to speak 
about that last one. Briefly, please. My time is running out.
    Mr. Zales. Real briefly. Yes, sir.
    Mr. Holt. OK. Yes.
    Mr. Zales. In Mr. Pallone's bill there is a provision in 
Section 6 on the study of the recreational fisheries data that 
would from the way I understand it have the National Research 
Council again study the various methods that have been looked 
at to see where they are and how they are done. The last study 
of the NRC clearly said that the data system was fatally flawed 
and shouldn't be used in anything we have, so clearly that 
particular bill does include that provision.
    Mr. Holt. OK. Yes, Mr. Hayes?
    Mr. Hayes. Just quickly, I would point out that the 
difficulty with this Committee addressing data frankly is it is 
not a substantive legislative problem. It is a money problem. 
The National Marine Fisheries Service or NOAA Fisheries simply 
doesn't have the kind of money that it takes to go ahead and 
collect this kind of data.
    You asked is it better someplace else. The answer is 
absolutely. If you take a look at the North Pacific--excuse me, 
at the Northwest--and you look at their management of salmon 
and the data collection system that they have in place----
    Mr. Holt. I was asking about recreational in particular.
    Mr. Hayes. It is recreational. Every recreational fisherman 
in the Pacific Northwest when they catch a salmon or a 
steelhead has to report, and that data is collected and put 
together. Every salmon that swims up a stream is counted. I 
mean, it is not magical here.
    Mr. Holt. OK.
    Mr. Hayes. They simply don't have the resources to do it.
    Mr. Holt. OK. Before I get to my last question in the short 
time remaining, I would like to ask unanimous consent, Mr. 
Chair, to enter in the record a letter signed by a number of 
scientists to support the idea of catch limits.
    Mr. Wittman. Without objection.
    Mr. Holt. I don't think that this is definitive, and it is 
clear that every aspect of catch shares is not based in 
science. There are matters of fairness and safety and 
predictability and things that aren't really scientific 
questions that may or may not argue for or against catch 
shares, but I do think it is important to have this in the 
record.
    Mr. Wittman. Without objection.
    [The letter offered for the record by Mr. Hayes follows:]
    [NOTE: The letter submitted for the record by Mr. Hayes has 
been retained in the Committee's official files.]
    Mr. Holt. Well, I guess my time has about expired. I was 
going to ask how the Science Committees are biased, but I think 
we will leave that for further questioning. Thank you.
    Mr. Wittman. Thank you, Mr. Holt.
    Mr. Holt. Or whether they are biased I should say. Thank 
you.
    Mr. Wittman. Very good. Thank you, Mr. Holt. We will go to 
Mr. Southerland for five minutes.
    Mr. Southerland. Thank you, Mr. Chairman.
    Mr. Colby, your being from Florida, I can ask you this. Are 
you in favor, because not everyone is familiar with this, are 
you in favor with the net ban?
    Mr. Colby. That previous net ban?
    Mr. Southerland. That was passed by amendment.
    Mr. Colby. That is correct. That is correct. That was a 
double-edged sword for me. I was in favor of it, but I thought 
that the way it came down it should have left some room for 
other participants in that fishery. It closed it down 
completely and then reauthorized it--correct me if I am wrong--
with certain mesh sizes and whatever. But, no. Overall, yes, I 
was in favor of that.
    Mr. Southerland. You were in favor of the net ban?
    Mr. Colby. At that time I was, yes.
    Mr. Southerland. OK. The current net ban, you made earlier 
comments in your testimony that you believe that observation 
was a dangerous method of data collection.
    Mr. Colby. Congressman, what I said was it should be looked 
at carefully as an assessment tool for scientific 
decisionmaking. I didn't say it was dangerous in fact, excuse 
me, unless I did.
    Mr. Southerland. I think you did.
    Mr. Colby. All right. Well, then I stand corrected.
    Mr. Southerland. But observation, I think that is a common-
sense tool that the good Lord gave us when he made us to get 
out of a shower or rain, as you alluded to, and look out the 
window I think is how you stated it.
    You know, currently the two-inch net that are mandated upon 
people to use in Florida has a 98 percent bycatch--98 percent--
whereas if they go to a three-inch, OK, something that would 
allow them to feed their families and put food on the table, it 
only has a 2 percent bycatch. Now that is just observation. I 
would say that is common sense. And yet those that are 
continuing to push this nonsensical rule upon the citizens of 
Florida are unwavering. This agency that you seem to applaud, 
OK, is unwavering.
    So I guess my problem is we can have rules that violate 
common sense and just plain observation, and yet government and 
sometimes the councils and the agencies show zero flexibility. 
Zero. We were actually catching juvenile fish, and that rule is 
wayward and that rule is crushing the fisheries. So I think you 
may be a little bit more trusting of some of the ability of 
government agencies to look out for the well-being of hard-
working men and women. Am I fair there, because you said that 
you are in favor of the net ban.
    Mr. Colby. Well, Congressman, I have a cynical side to 
myself as well. I don't believe that everything that a state or 
Federal agency does for me may or may not be good for me. Your 
analogy is interesting, but I can't argue to it one way or the 
other.
    Mr. Southerland. My analogy is more than interesting, sir.
    Mr. Colby. Yes.
    Mr. Southerland. Based on God-given observation, my analogy 
is factual. You know, you claimed earlier also that we have 
very good science, and I certainly wrote that down when you 
said that, because all of us seem to agree that we need more 
science, better science, but you said that we had very good 
science and you alluded to another person that spoke on the 
panel and you talked about that testimony.
    I find it interesting that you have a guaranteed ownership 
in a natural resource. Doesn't your opinion seem self-serving 
when the average citizen, the private angler, is scrambling, 
trying to attempt to enjoy an access, a God-given right, to a 
natural resource that you own?
    Mr. Colby. Are you asking me a question?
    Mr. Southerland. Yes. Isn't it somewhat self-serving when 
the private citizen doesn't enjoy that God-given right and you 
own a share of the natural resource?
    Mr. Colby. Well, as part of the vehicle for many of those 
private citizens to access the resource maybe I am selfish in 
that regard. I enjoy giving access for anglers who don't own 
boats who can't fish in Federal waters that access to that very 
same resource.
    Mr. Southerland. So you are there in place to make sure 
that these individuals must go through you, the gatekeeper, to 
enjoy their God-given access and their rights to fish?
    Mr. Colby. Well, if they have no other access to the 
Federal EEZ zone except through charter-for-hire operators, we 
are the platform in place that gives those people that 
opportunity.
    Mr. Southerland. Yes, but a lot of people have their own 
boats.
    Mr. Colby. That is correct.
    Mr. Southerland. OK. And I am in Florida. I have been 
there, my family, a couple hundred years. We have boats. So you 
having catch share ability, OK, is really worthless to me, OK? 
The problem is you own a natural resource that the private 
citizens of the country do not.
    Now none of our bills do away with what you already have, 
but what these bills all try to do in a very bipartisan effort 
is to protect the God-given rights of individuals. And so when 
you oppose that I take great exception to that. I have run out 
of time. God knows I have a lot more, but I yield back time I 
don't have.
    Mr. Wittman. Thank you, Mr. Southerland. We will go now for 
five minutes to Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman. I am sorry. I was 
running a little late getting here.
    To Mr. Oliver, in your testimony you mentioned the octopus 
bycatch is resulting in closures of other species. How many 
vessels has this closure affected, one?
    Is it true that North American Fisheries Management Council 
is meeting next week to discuss the new octopus stock 
assessment and then of course the actual subsequent annual 
catch limit recommendation from the plan team provided by the 
Alaska Fishery Science Center, which will raise the octopus 
annual catch limit over 500 percent next year?
    Is this not the case when the job was done, arguably done 
well, by the regional council under the current system, and 
isn't this preferable to amending the law wholesale for the 
sake of addressing specific issues or special interests? Mr. 
Oliver?
    Mr. Oliver. If I understand your series of questions, the 
first was yes, octopus did constrain a Pacific cod pot fishery 
this year. I think they were shut down maybe 1,000 metric tons 
short of their sector quota. I can't give you the exact number 
of vessels that were affected by that.
    Mrs. Napolitano. Roughly?
    Mr. Oliver. I think maybe 20, somewhere in that 
neighborhood. Again, I have to check that number.
    Mrs. Napolitano. So there was a loss of business and 
economy?
    Mr. Oliver. Yes, to some extent. Those boats can switch 
gears and continue to access that cod resource with other gear 
types, but not without cost, not without operational costs. So 
it wasn't as if they didn't have another option to at least 
access some of that quota.
    Yes, our council is meeting next week. Every December we 
set our annual catch limits, as we have done for decades, for 
the subsequent year. I don't know the exact number. I have not 
reviewed the stock assessment, the octopus stock assessment for 
the upcoming year, so I can't answer your specific question 
about the percentage increase. I thought there was an increase, 
but I did not think it was on the order that you mentioned.
    Mrs. Napolitano. Well, shouldn't we wait to find out what 
the records will show before we try to change the law?
    Mr. Oliver. Through the Chair, I was not suggesting that 
the law necessarily needed to be changed. I cited our example 
with octopus as one example where ACLs have been constraining 
and constraining in a situation where you have a species that 
is relatively poorly assessed but understood by most everyone 
to be an abundant species----
    Mrs. Napolitano. OK.
    Mr. Oliver.--and that some of the bills in consideration 
could provide some relief from that situation.
    Mrs. Napolitano. Thank you. Mr. Colby, will there always be 
the uncertainty in managing fisheries, and should we simply 
stop managing them if there is uncertainty? When will there be 
enough data such that the NMFS councils and other fishery 
scientists have sufficient information to do a good job?
    Mr. Colby. Well, I certainly hope it won't last too much 
longer. I would like to see the certainty get better. I guess 
what I have tried to enumerate on a previous question is that 
there are all kinds of sources we can use to add greater 
certainty to our data from the commercial operator to the for-
hire operator to the recreational angler who owns a boat who 
participates in that Federal fishery. All three of those groups 
can step to the plate.
    The commercial operator and the for-hire operator are doing 
that right now. And as I mentioned earlier, we are going to 
have electronic logbook reporting for our business. Hopefully 
that will be in the form of an iPad that is coming out of I 
believe the Texas A&M system.
    Mrs. Napolitano. My time is running low, but I can tell you 
that in----
    Mr. Colby. But, yes, I think the data will improve with 
participation among the fishery, and I think we should see that 
in a shorter time period than you are probably thinking.
    Mrs. Napolitano. Great. One of the issues in California has 
been for many years the salmon. There were three years where 
there was a total no fish declared, no fishing of any kind for 
salmon, and now it is rebounding. Everybody is benefitting. It 
is a win/win for everybody.
    So there has been an example at least in my state of where 
being able to do this particular type of waiting for the 
numbers to the data and for the recovery to take effect so then 
there is enough for the fishermen, for the recreation 
fisheries, et cetera.
    Mr. Colby, when the 1996 amendments to the Magnuson-Stevens 
Act were debated my colleague, Congressman Young, stated, and I 
quote, ``It is crucial that the management agencies within the 
Federal Government be proactive in protecting fisheries rather 
than attempting to address overfished stocks after they are in 
crisis situation.''
    And then he continued, ``The regional councils are required 
to take steps to address any overfished fishery and include 
measures for rebuilding the overfished stocks.'' Can you 
briefly tell us the importance of the stakeholder-driven 
regional fisheries management council process?
    Mr. Colby. Well, if you talk to our fishermen in the marina 
who I am representing now, this is their conduit. The council 
process is their platform to go and get it off their chest. I 
don't believe you can have a fishery management plan for any 
stock of fish that is fished commercially or recreationally 
without that being a process that goes right through council 
staff and our regional process. Magnuson set that up.
    And I will apologize and admit that many, many years ago I 
was a table pounder and I didn't want to approach the table, 
but I see the benefit in doing that now. As I said before, it 
is a cumbersome, time-consuming process. It can be convoluted 
and it can be really frustrating, but our fishermen have 
learned how to work within that framework. We figured out how 
to do that successfully.
    And I can't imagine us now having to go down several 
different roads with different pieces of legislation. There are 
a lot of good things in some parts of it for transparency and 
this and that, but I really want to leave it at our level. I 
don't know how I can switch gears and change horses.
    Mrs. Napolitano. Thank you so very much. Thank you for your 
indulgence, Mr. Chair.
    Mr. Wittman. Sure. Absolutely. Thank you, Mrs. Napolitano. 
We will go now to Mr. McClintock for five minutes.
    Mr. McClintock. Thank you, Mr. Chairman. In discussing the 
salmon runs in the Northwest Pacific, my colleague from 
California has actually described the Pacific Decadal 
Oscillation, which is a natural fluctuation of cold water 
currents, which for the past 10 years have been favoring record 
salmon runs in Alaska. It has now shifted back to the Pacific 
Northwest. We are watching salmon runs decline in Alaska and 
increase dramatically in California, which is exactly the 
phenomenon that Mr. Duncan had discussed earlier, confusing 
regulations with the natural processes that occur.
    Mr. Hayes, I want to thank you for some of the most 
sensible testimony I have heard before this Committee in the 
three years that I have sat on it. I think it was Cicero who 
said that the best laws are the simplest laws, and yet there is 
something in our human nature when we get a little bit of 
political power that just loves to devise the most intricate, 
complex, convoluted, micromanaging and unworkable edicts that 
grow farther and farther from reality every year. So I think 
you put your finger on exactly the problem that we are trying 
to address with the legislation before us.
    You have discussed the Wittman bill extensively. Have you 
any observations on the other bills pending before us or for 
that matter any other reforms that you would suggest?
    Mr. Hayes. I have sort of two comments. One, I think I did 
refer to some of the other bills by saying that the obvious 
enhance bills--enhance science, collect better data, transfer 
funds that would otherwise go to NOAA enforcement into science, 
all of those are obviously good things. And transparency. There 
is a vast need in this game at the councils to have 
transparency, and the more you can do to push that along the 
better.
    Mr. McClintock. To what extent have political appointments, 
political considerations on the appointments of these regional 
councils, subverted the science that they should be practicing?
    Mr. Hayes. I think there has always been great debates, and 
I think I have been in most of them, about the quality of 
individual council members and the process that is used to 
appoint them. It is highly political, and it is highly 
political because the nominations come from the Governors and 
Governors are obviously partisan. There are qualifications in 
the bill. There are requirements both in the bill and at NOAA 
to balance the kinds of representation that are on those 
councils. I think by and large the mix that you get is the mix 
that you get.
    Mr. McClintock. So are we watching then science being 
perverted by political agendas?
    Mr. Hayes. I think what we are watching is science being 
perverted by individual groups, which are essentially pushing 
an agenda. I don't think there is any doubt about that.
    Mr. McClintock. Let me ask you about the role of fish 
hatcheries. What role do they play in the population counts? I 
have part of the Klamath Valley in my district in northeastern 
California.
    Mr. Hayes. Congratulations.
    Mr. McClintock. But the point I want to make is this. The 
Administration is in the process of pushing to tear down four 
perfectly good hydroelectric dams on the Klamath because of 
catastrophic declines in salmon populations on the river. We 
have discussed that a little bit already.
    When I was first up there I said, well, that is just 
terrible. How many are left? Oh, just a few hundred. I said, 
well, why doesn't somebody build a fish hatchery? The response 
was, well, we have a fish hatchery at the Iron Gate Dam. It 
produces five million salmon smolts a year. Seventeen thousand 
return as fully grown adults to spawn in the Klamath. The 
problem is they don't let us include them in the population 
counts.
    Mr. Hayes. Yes, I am pretty familiar with the Klamath 
situation. Hatcheries in the Northwest have been in existence 
since the 1850s. Those hatcheries have augmented salmon runs 
for all of that time. There is considerable question amongst 
most biologists today as to what a pure wild salmon is. Of 
course, a lot of the salmon policy that is done is done in 
respect to the need to ensure some genetic diversity for the 
Endangered Species Act.
    Mr. McClintock. Well, I would think that the larger the 
genetic pool the greater variety that the forces of natural 
selection have to work from.
    Mr. Hayes. And that is what I was getting to.
    Mr. McClintock. As one biologist explained to me, the 
genetic difference between a hatchery fish and a wild fish is 
the difference between a baby born in a hospital and a baby 
born at home.
    Mr. Hayes. I have heard that explanation, and I can tell 
you that we as CCA, who I am the general counsel of, the 
Coastal Conservation Association, we run two very large 
hatcheries in Texas for redfish, speckled trout, things like 
that. We are very big on hatcheries. We think that they are a 
tremendous augmentation tool. We think that the amount of 
science today that is applied to hatcheries is nothing like the 
activities of hatcheries 30, 40, 50 years ago. We created the 
problem in the Pacific Northwest with hatcheries. That is 
absolutely true, but that problem is being solved.
    Mr. McClintock. I am out of time, but just a quick yes or 
no answer. Should we be doing more to encourage construction of 
additional hatcheries for many species?
    Mr. Hayes. Actually I am in favor of additional hatcheries 
all around the country. In fact, we are at the moment looking 
at some in response to the BP oil spill and looking at some to 
augment and immediately mitigate some of that damage that was 
done in the Gulf.
    Mr. McClintock. All right. Thank you.
    Mr. Wittman. Thank you, Mr. McClintock. I want to thank our 
panel members for joining us today. We are going to now take a 
break for just a minute and ask our next panel to be seated. 
Thank you.
    While these panel members are moving I want to thank them 
again for their testimony. Members of the Committee may have 
additional questions for the record, and I ask that you respond 
in writing to those as you receive them. Thank you very much.
    And now we will hear from our third panel. I want to thank 
Mr. Eric Schwaab, who has been here with us for the duration 
back there listening to the questions and the deliberations 
here. Mr. Schwaab, I thank you for your patience and for your 
time today to be here to listen to the testimony and questions 
from the members of the Committee and the members of our panel, 
and I want to welcome you here and invite you to provide your 
opening statements within the allocated five minutes.

 STATEMENT OF ERIC SCHWAAB, ASSISTANT ADMINISTRATOR, NATIONAL 
                    MARINE FISHERIES SERVICE

    Mr. Schwaab. Thank you, Chairman Wittman, Ranking Member 
Napolitano and members of the Committee. Thank you for the 
opportunity to testify before you today. My name is Eric 
Schwaab, and I am the Assistant Administrator for Fisheries at 
NOAA.
    In the Magnuson-Stevens Act, Congress established an 
innovative management process that combines sound science, 
effective management and a level, compliant playing field to 
achieve and maintain sustainable fisheries. Most importantly, 
the process relies on our system of fishery management councils 
to ensure local input and design of key management decisions.
    Reauthorized in 2007, the Act further incorporated explicit 
requirements and deadlines for implementation of science-based 
annual catch limits and accountability measures to end 
overfishing and rebuild depleted stocks. The bills before the 
Committee today would amend the MSA in a number of ways. And 
while the Administration does not have formal positions on any 
of these bills, we are very aware of the issues they seek to 
address, and I am happy to have the opportunity to discuss them 
with you today.
    At the core of many of our collective concerns today are 
fishing jobs. Fishing jobs, both commercial and recreational, 
are the lifeblood of many of our coastal communities. Fishermen 
and fishing industries rely not only on today's catch but also 
on expectations of sustainable fisheries for years to come.
    Under the standards set in the MSA and together with the 
fishery management councils, states, tribes and fishermen, we 
have made great strides in ending overfishing, rebuilding 
stocks and building a more predictable, sustainable and 
profitable future for our fishermen and the people who depend 
on them. Today, nearing the end of the 35th anniversary year of 
the Magnuson-Stevens Act and after decades of chronic 
overfishing in many fisheries, through the hard work of fishery 
management councils and short-term sacrifice of fishermen we 
are on track to implement annual catch limits that end 
overfishing in all Federally managed fisheries.
    Between 2000 and 2010, we ended overfishing on 36 stocks 
and rebuilt 23 stocks. History has shown that effective 
management ends overfishing and results in significant economic 
benefit. Rebuilding of all U.S. fish stocks would generate an 
additional $31 billion in sales impacts, support an additional 
500,000 jobs and increase dockside revenues to fishermen by 
$2.2 billion, a more than 50 percent increase over current 
annual dockside revenues.
    As we end overfishing and rebuild stocks, we must also 
recognize the need for management systems to keep pace. We have 
long known that there is no one-size-fits-all approach to 
sustainable fisheries management. Together with fishermen and 
the councils, we are employing innovative and dynamic 
management measures across the country.
    Catch share programs have been a much debated aspect of 
recent management efforts. Rather than continuing to rely on 
blunt instruments of fishery closures, restrictive seasons and 
other input controls, councils have used catch share systems to 
focus on controlling catch.
    Catch share systems allow fishermen greater control over 
when and where they fish, reduce burdensome regulations, 
improve safety at sea, allow independent decisions that 
maximize dockside values and unleash the creativity of 
fishermen to better address challenging issues like bycatch 
reduction and in some cases restrictive catch limits on some 
stocks in the fishery. While catch shares have been a 
successful tool in many instances, we recognize that they are 
not appropriate for every fishery and where implemented they 
need to be carefully designed locally.
    Recreational fisheries also carry their own management 
challenges. Success in recreational fisheries is measured often 
more by quality of time on the water than pounds landed, so we 
have embarked upon specific activities to better engage and act 
upon the unique needs and concerns of recreational anglers and 
the industries they support. These have included revamped 
methods for evaluating recreational catch and effort, targeted 
efforts to reduce recreational discard impacts and improved 
communication around regional priorities.
    Several of the bills under discussion today are focused on 
improving fishery science. Fishery science provides information 
needed to define and attain sustainable and valuable fisheries, 
and although we would all like to know more, today we know more 
about our fish stocks than ever before, and it is vital that we 
continue to build on this foundation. As we together face a 
challenging budget climate, we must redouble our efforts to 
improve the technology, methodologies and partnerships that 
maximize the accuracy, precision and timeliness of our data and 
assessments.
    Fishermen and regulators alike share the goal of healthy 
fisheries that can be sustained for generations. Achieving this 
goal depends on a dynamic cycle of best available science in 
forming sound management assured by effective enforcement that 
protects the resources, ensures effectiveness of management 
efforts and maintains a level playing field. We need a solid, 
sustained commitment to each of these three components--
science, management and enforcement--to succeed.
    Challenges remain, Mr. Chairman and members of the 
Committee, and implementing these measures has not been easy 
for fishermen, both recreational and commercial, the councils 
or the agency, but as fish populations grow and catch limits 
increase the benefits of sound management for the resource, the 
industries they support and the economy are beginning to 
emerge.
    We are doing our best to implement Congress's 2007 mandate 
to ensure a sustained resource today and for future 
generations. We must ensure that any changes to this law don't 
undermine the progress we have made. Thank you again for the 
opportunity to testify before you today.
    [The prepared statement of Mr. Schwaab follows:]

  Statement of Eric Schwaab, Assistant Administrator, National Marine 
  Fisheries Service, National Oceanic and Atmospheric Administration, 
                      U.S. Department of Commerce

    Chairman Hastings and members of the Committee, thank you for the 
opportunity to testify before you today. My name is Eric Schwaab and I 
am the Assistant Administrator for Fisheries, within the Department of 
Commerce's National Oceanic and Atmospheric Administration (NOAA). 
NOAA's National Marine Fisheries Service (NMFS) is dedicated to the 
stewardship of living marine resources through science-based 
conservation and management. Much of this work occurs under the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act), which sets forth standards for conservation, management 
and sustainable use of our Nation's fisheries resources. The Magnuson-
Stevens Act also sets forth an innovative process of fishery management 
councils as a means to ensure local guidance of important science and 
management decisions.
    The pieces of legislation before the Committee today would amend 
the Magnuson-Stevens Act in a number of ways. I will discuss the issues 
they seek to address in my testimony, which will focus on the process 
of ending overfishing, deadlines and progress in rebuilding depleted 
stocks, challenges of ensuring sustainable use, obtaining and using the 
best available science, implementing catch share systems, and 
particular challenges associated with recreational fisheries 
management. Together, these and other elements provide both great 
opportunity and challenge as we work together to ensure sustainable 
fisheries and the economic benefits they provide for current and future 
generations. While the Administration does not have formal positions on 
these bills, we have concerns with several provisions and briefly 
discuss our criteria for supporting proposed legislation.

Transitioning to Sustainable Fisheries under the Magnuson-Stevens Act
    Since its initial passage in 1976, the Magnuson-Stevens Act has 
charted a groundbreaking course for sustainable fisheries. Reauthorized 
most recently in 2007, the Act mandates the use of science-based annual 
catch limits and accountability measures to end overfishing and rebuild 
depleted stocks. The Act also provides for use of market-based fishery 
management through Limited Access Privilege Programs (or catch shares), 
focuses on collaborative research with the fishing industry, 
establishes standards for bycatch reduction, addresses the need to 
improve the science used to inform fisheries management, and seeks to 
end illegal fishing and bycatch problems around the globe so that 
foreign fishing fleets are held to the same standards as U.S. fleets.
    At the core of many of our discussions today are fishing jobs. 
Fishing jobs, both commercial and recreational, are the lifeblood of 
many coastal communities around our Nation. Fishermen and fishing 
industries rely not only on today's catch, but the predictability of 
future catches. Under the standards set in the Magnuson-Stevens Act, 
and together with the fisheries management councils, states, tribes and 
fishermen, we have made great strides in ending overfishing, rebuilding 
stocks and building a sustainable future for our fishing dependent 
communities. Thanks in large part to the strengthened Magnuson-Stevens 
Act and the sacrifices of fishing communities across the country, the 
230 most economically important fish stocks have collectively improved 
steadily over the last decade. Now, during this 35th anniversary year 
of the original passage of that bold legislation, and after decades of 
chronic overfishing in many fisheries, we are on track to end 
overfishing in all federally managed fisheries. Between 2000 and 2010, 
we ended overfishing on 36 stocks and rebuilt 23 stocks.
    Collectively, we have learned that ending overfishing and 
rebuilding depleted fisheries brings significant economic and social 
benefit, but doing so takes time, persistence and sacrifice. The 
Magnuson-Stevens Act, as reauthorized in 2007, sets strict goals and 
timetables for ending overfishing, requires adherence to scientific 
information, and values precaution when uncertainty exists.
    Let me be clear: Implementation of these measures has not been 
quick or easy for fishermen--commercial and recreational--nor has it 
been easy for the agency or the councils. Nonetheless, fishermen and 
regulators alike share the goal of healthy fisheries that can be 
sustained for generations. Without clear, science based rules, fair 
enforcement, and a shared commitment to sustainable management, short-
term pressures can easily undermine progress toward restoring the 
social, economic, and environmental benefits of a healthy fishery. 
Challenges remain, but as populations grow and catch limits increase, 
the benefits for the resource, the industries it supports, and the 
economy are beginning to be seen.

Ending Overfishing
    One of the most significant new management provisions of the 2007 
Magnuson-Stevens Act reauthorization was an explicit mandate to 
implement annual catch limits (ACLs) and accountability measures to end 
and prevent overfishing in federally managed fisheries. I am happy to 
say that we are making very good progress towards meeting that mandate. 
In 2010, the fishery management councils put in place annual catch 
limits and accountability measures for all stocks then experiencing 
overfishing. I am also happy to report that we are on track to have 
annual catch limits in place for all managed stocks for the next 
fishing year. As we complete assessments for these stocks in the coming 
years, we will be able to confirm that overfishing has ended. Until 
then, we will have science-based catch limits in place designed to end 
overfishing.
    History has shown that effective management ends overfishing and 
results in significant economic benefit. Rebuilding all U.S. fish 
stocks would generate an additional $31 billion in sales impacts, 
support an additional 500,000 jobs and increase dockside revenues to 
fishermen by $2.2 billion, a more than 50 percent increase over current 
annual dockside revenues. A prime example of the benefits of rebuilding 
is seen in the New England sea scallop fishery, where revenues 
increased five-fold as the fishery rebuilt, from $44 million in 1998 to 
$265 million in 2010, making New Bedford the largest port by value 
every year since 2000.
    Many other stocks are expected to rebound as we end overfishing and 
execute rebuilding plans. For example, after the first year under new 
catch limits in the New England groundfish fishery, in 2011, improving 
stocks allowed catch limits for 12 of 20 stocks in the New England 
groundfish complex to increase, providing immediate benefit to 
fishermen and local fishing communities.
    In addition, many of the Alaska groundfish fisheries, by far the 
largest in the country by volume, have long been managed under a system 
equivalent to annual catch limits. None of these stocks is overfished 
or subject to overfishing, and all are near or above the abundance 
levels that support the long term optimum yield from the fishery. By 
comparison, ACL implementation is very new for most other fisheries. 
Increases in catch rates in future years are yet to be realized for 
those fisheries just now starting to implement them.
    These success stories are a product of strong leadership by the 
regional fishery management councils and investment by the Congress, 
the hard work of scientists and fishermen across the country to attain 
the data needed to effectively inform management decisions, and in many 
cases, short-term sacrifice on the part of commercial and recreational 
fishermen. We recognize this sacrifice and are working to provide the 
councils with the best scientific and economic information available 
upon which to base management decisions, to ensure that management 
actions are as precise and focused as possible.
    NOAA's investment in science allows us to set ACLs that end 
overfishing and are as precise and focused as possible. We have made 
significant progress in this respect but we can continue to make 
improvements.

Catch Shares
    Catch share programs have been a much discussed aspect of recent 
fishery management efforts. Catch share programs allocate harvest 
privileges or quotas to individuals or defined groups of fishermen, and 
are often implemented in fisheries where overcapitalization and 
overfishing are challenges that need to be addressed. Rather than 
employing closures, restrictive seasons, restricting days at sea or 
other input controls, catch share systems focus on controlling catches. 
By shifting focus to outputs, catch share systems allow fishermen 
greater control over when and where they fish, reduce burdensome 
regulations, allow independent decisions that maximize dockside values 
for fishing businesses and unleash the creativity of fishermen to 
better address challenging issues like bycatch reduction.
    Within a framework of scientifically established annual catch 
limits, catch share systems give more direct control of fishing 
activity back to fishermen, allowing fishermen to plan their fishing 
seasons and be more selective about when and how they catch their 
allocation. Because catch share programs focus on individual 
accountability and fishermen are allocated a share in a fishery, 
fishermen gain an economic incentive to catch their allocation at the 
least cost, when market values are most advantageous, and without 
exceeding their allocation; as a fish stock rebuilds, the holder's 
share increases in value.
    Catch share programs have been particularly valuable for fisheries 
where, due to rebuilding requirements, more restrictive catch limits 
have been set, or where bycatch concerns have constrained fishing 
activity. In these cases, the increased flexibility afforded fishermen 
has allowed them to operate more economically.
    Catch share programs, which include a variety of approaches such as 
Limited Access Privilege Programs, authorized by the Magnuson-Stevens 
Act, have operated successfully in the United States since 1990. 
Currently, there are 15 different catch share programs in place, 
stretching from Alaska to Florida.
    Catch share programs can bring a wide range of social, economic, 
and biological benefits to a fishery and communities.
        <bullet>  They have been shown to eliminate dangerous ``race-
        to-fish'' or ``derby'' conditions and improve safety for 
        fishermen.
        <bullet>  Fisheries with these programs have experienced 
        increased landings, reductions in bycatch, improved stability 
        and increased season length.
        <bullet>  These conditions encourage product innovation, reduce 
        costs, and result in higher profits for fishermen.
        <bullet>  Catch share programs also improve the quality and 
        quantity of fishery data, which leads to reduced scientific 
        uncertainty and potential for increased catch quotas.
    The security and predictability that comes with catch share 
programs have the potential to help us get out in front of the boom and 
bust cycle we deal with in many fisheries. In the long-overfished Gulf 
of Mexico commercial red snapper fishery, quotas were regularly 
exceeded and fishing derby conditions were resulting in shorter and 
shorter seasons. Since 2007, when an individual fishing quota program 
was implemented, the commercial season length has been extended from an 
average of 88 days before the individual fishing quotas to year-round 
after program implementation. In combination with other favorable 
factors, the share price, which reflects the long-run expectations of 
economic returns, has more than doubled since program implementation, 
increasing from $6.74 in 2007 to $16.81 in 2010. Additionally, median 
ex-vessel prices for red snapper in 2010 increased 25% over 2006 
prices. The stability provided by catch share programs gives fishermen 
the opportunity for improved business planning. Knowing they will have 
a certain allocation each and every year allows them to make investment 
decisions to improve their business and increase profits.
    The 2011 implementation of the West Coast Groundfish Trawl Catch 
Share Program was a strong and effective move to preserve the economic 
potential of the fishery. Preliminary results indicate a strong 
performance by the fishery this year. After a slow start early in the 
year, landings have steadily increased, to the point that both landings 
and revenue during June of this year were higher than 2010 and even 
higher than the historical average for June. Encouragingly, revenues 
per vessel are also up substantially. These positive economic trends 
for fishermen are even more remarkable because they are accompanied by 
a vast reduction of discarded catch. On average there was a 28 percent 
decrease in discards across species categories in the program between 
2009 and 2011. That's an extremely positive result for fishery 
management and conservation.
    A fisherman in Morro Bay, who fishes under the West Coast 
Groundfish Trawl Program, is part of an experimental program, in which 
he's fishing hook-and-line instead of trawling. Trawling, he used to 
get about $1.80 a pound for black cod. After he made the switch to 
hook-and-line, he's getting $5 a pound. He's not catching as many fish, 
but chefs are clamoring for his superior product. This strategy allows 
black cod populations to recover because there are not as many fish 
taken, yet gives fishermen a better return for their effort. He is now 
fishing smarter, not harder and is optimistic about his future.
    However, while catch shares have been a successful tool in many 
instances, they are not appropriate for every fishery, and we need to 
remain mindful of potential drawbacks these programs can have. 
Improperly designed catch share programs can result in consolidation of 
the harvesting sector because some fishermen holding shares will decide 
to lease or sell their privileges to someone else. There have also been 
concerns about how catch share programs might affect recreational 
fisheries, contribute to job losses on shore, or threaten small boat 
communities as shares are transferred among vessels and ports. All of 
these concerns can be resolved by proper catch share design at the 
local level by fishery management councils. The NOAA Catch Share 
Policy, effective November 4, 2010, provides guidance and direction to 
the councils as they implement these programs and NMFS continues to 
engage with the councils and stakeholders to address issues that have 
been raised.

Recreational Benefits
    Recreational fishermen are a large and important constituency for 
NOAA. Recreational fishing is an important national pastime and a 
significant contributor to the U.S. economy, generating $50 billion in 
sales impacts, contributing $23 billion to the Gross National Product, 
and supporting 326,000 jobs in 2010.\1\ Recreational fisheries face 
unique challenges, as in many cases success is measured less by pounds 
landed and more by quality fishing opportunity and time on the water 
with family and friends. For this reason, new approaches are necessary 
to ensure a satisfying recreational fishing experience and conservation 
mandates. One new approach currently underway is a proactive 
collaboration between NMFS and the angling community to improve 
survival of recreationally released fish and reduce the ``footprint'' 
of recreational fisheries. Success of the NMFS-FishSmart partnership 
may allow for increased recreational fishing opportunity in some 
instances by reducing the impact of individual anglers, and therefore a 
given fishery as a whole. Long-term management success, however, will 
require the regular and active engagement of an empowered constituency 
working in partnership with the Agency.
---------------------------------------------------------------------------
    \1\ Fisheries Economics of the United States, 2009.
---------------------------------------------------------------------------
    To this end, NOAA embarked on a focused effort in September 2009, 
referred to as the Recreational Fisheries Engagement Initiative, to 
establish a strong and trusting partnership with the recreational 
fishing community. We released a national plan of action to accomplish 
this goal in October 2010, and have aggressively pursued its 
implementation. Soon, NMFS will release regional recreational fisheries 
action plans which will mark the first time NMFS has had both national 
and regional plans in place to identify and address the concerns and 
priorities of our recreational fishing constituents. NMFS has also 
undertaken numerous projects to improve data collection and estimation 
methodologies including:
        <bullet>  Implementation of the National Saltwater Angler 
        registry to increase efficiency in developing recreational 
        fishing effort estimates (January 2010);
        <bullet>  Upcoming implementation of an improved methodology to 
        provide more accurate recreational catch estimates (early 
        2012);
        <bullet>  Upcoming implementation of new survey designs for 
        collection of recreational catch and effort data (pilot testing 
        in 2012; operational deployment for Atlantic and Gulf coasts 
        January 2013);
        <bullet>  Development and testing of improved survey designs 
        for the Pacific RecFIN surveys (pilot tests of improved designs 
        currently underway in Washington and Oregon, and being designed 
        for California pilot testing in 2012);
        <bullet>  Implementation of multiple pilot recreational data 
        collection projects, such as the Gulf of Mexico For-hire 
        Logbook, to streamline and improve data collection (pilot 
        project completed in 2011; final project report and 
        recommendations for implementation due in early 2012);
        <bullet>  Implementation of the 2011 National Angler 
        Expenditure Survey to provide better and updated economic data 
        on recreational fishing (March 2011); and
        <bullet>  A stakeholder review to identify gaps in NMFS' 
        recreational socio-economic data and data collection systems 
        (April 2011), an internal workshop to address data and modeling 
        needs (July 2011) and a follow-up stakeholder workshop to 
        discuss results of the needs assessment (early 2012).
    NMFS recognizes the important role that recreational fishing plays 
in our economy, and we are committed to working with the recreational 
fishing community to ensure that we are protecting the resources they 
care so deeply about and that we are fostering a substantial economic 
driver of our coastal communities. Again, this requires a delicate 
balancing act between preventing overfishing and maximizing 
recreational fishing opportunities.

Rebuilding Deadlines
    When fishery stocks are determined to be overfished, the Magnuson-
Stevens Act requires that that those stocks be rebuilt as soon as 
possible but in no case longer than 10 years unless the biology of the 
stock, other environmental conditions, or international obligations 
dictate otherwise. Nationwide, 45 stocks are subject to a rebuilding 
plan with an estimated timeline to rebuild, of those stocks 56% have 
rebuilding timeframes longer than 10 years due to the existing 
flexibility in the law. For example, the rebuilding timeframe for 
Georges Bank cod is 22 years, Gulf of Mexico red snapper is 32 years, 
Pacific Cowcod is 72 years, and Atlantic dusky shark is 100-400 years. 
Rebuilding timelines vary based on the life history of the animal. For 
example, sharks are very long-lived and do not reach sexual maturity 
for years.
    Our experience is that when overfishing has been ended in a 
rebuilding program, the stocks have rebuilt well and the rebuilding 
timeframes have not been a problem. However, rebuilding deadlines set 
by the Magnuson-Stevens Act are ultimately a policy decision. It is a 
matter of how long you want to wait for rebuilding (and associated 
economic benefits) to occur and what short term sacrifices you are 
willing to make to get there. Congress ultimately made a policy 
decision when determining the 10-year rebuilding deadlines in the 
Magnuson-Stevens Act but they also added flexibility to deal with 
certain issues as described above. I understand the concerns about the 
rebuilding deadlines and at the request of some Members of Congress, 
NOAA committed funding for a National Academy of Sciences review that 
will provide much needed scientific evaluation of the rebuilding 
timeframe. This study, which will be completed in early 2013, will 
evaluate current methodology relative to a spectrum of stock assessment 
issues, review the success of stock rebuilding plans both in the United 
States and abroad, and identify any systemic knowledge gaps that offer 
impediments to the implementation of stock rebuilding programs. The 
answers to these questions will help NOAA continue to provide the best 
scientific information available to fisheries managers to meet the 
mandate of sustainably managed U.S. fisheries.

Science
    Without high quality fishery science, we cannot be confident that 
the Nation is attaining optimum yield from its fisheries, or that we're 
preventing overfishing and harm to ecosystems and fishing communities. 
Attaining optimum yield requires an investment in information about 
fish stocks, their fisheries and their ecosystems. The United States 
has a clear legislative mandate to achieve sustainable fisheries, based 
on a strong regulatory structure in association with the regional 
fishery management councils. NMFS is committed to generating the best 
fishery science to implement this program. We are international leaders 
in fishery science, at the forefront of rebuilding overfished stocks 
and preventing overfishing, efforts that are beginning to pay off in 
many coastal communities. Today, we know more about our fish stocks 
than ever before, and it is vital that our science not regress, as this 
would inevitably lead to declines in our stocks and a loss in the 
economic and social values they provide.
    While uncertainty is inherent in all fish stock assessments, 
investments in increased and improved assessment data reduce 
uncertainty, thus allowing a larger optimum yield without increasing 
the chance of overfishing. This in turn allows for greater fishing 
opportunities and improved economic benefits. Conversely, reduced 
investment in assessments, including reduced support for the NOAA 
fleet, which provides the platforms for collecting vital fisheries-
independent data, will lead to either increased uncertainty and lower 
catch limits or greater risk of overfishing.
    From 2005 to 2010, NMFS had the data and capacity to assess an 
average of 95 stocks each year. With this level of assessment activity, 
NMFS is able to provide regular assessments for the most important 
stocks tracked under the Fish Stock Sustainability Index. The Index 
tracks progress towards ending overfishing and represents a combination 
of stock status, fishing rates, and our level of scientific 
understanding of a group of important fish stocks. Of the 500 plus 
federally managed stocks, 230 have been identified for inclusion in the 
Index, constituting over 90 percent of U.S. commercial landings. NMFS 
has been able to increase the number of Index stocks with adequate 
assessments from 119 in 2005 to 132 in 2010. The overall index score, 
which measures our progress, has shown a 63 percent improvement since 
2000. Continued progress on the quality and frequency of stock 
assessments gives us more confidence in the ACLs we are implementing.
    Investment in science and management results in sustainable 
fisheries. That is why NMFS has always focused on getting the most 
data, and the highest priority and quality data, by fully utilizing the 
funding Congress has provided. With sustained Congressional support, we 
can continue to make substantial progress. Conversely, reducing 
commitments to science, or retreating from the mandates of the 
Magnuson-Stevens Act, will hurt our fisheries and reduce local economic 
benefits.

General Views on Proposed Legislation
    NOAA supports the collaborative and transparent process embodied in 
the regional fishery management councils, as authorized in the 
Magnuson-Stevens Act. Generally speaking, we would oppose legislation 
that limits the options available for fishermen to sustainably harvest 
their respective fisheries. NOAA believes that catch shares, in 
particular, are a viable option for many fisheries and regional fishery 
councils should be given the freedom to recommend this option to the 
Secretary for approval.
    It is critical that we maintain progress towards meeting the 
mandate of the Magnuson-Stevens Act to end overfishing and, as 
necessary, rebuild stocks. ACLs are an effective tool in improving the 
sustainability of fisheries around the Nation, and NOAA has concerns 
with legislation that would create exemptions or otherwise weaken 
provisions regarding ACLs. Uncertainty in the stock assessments upon 
which ACLs are based should not be used as a basis for exempting 
fisheries from ACLs.
    In an increasingly constrained fiscal environment, legislation 
should not mandate duplicative or otherwise unnecessary actions. 
Additional stages of review for certain types of fisheries data, or 
repeating data collection and stock assessment efforts when there are 
already sound peer reviewed processes in place are examples of actions 
that will divert resources to a select few fisheries at the expense of 
others with little additional benefit. Moreover, legislation should be 
cost-effective and consistent with the President's Budget. NMFS 
welcomes the opportunity to work closely with Congress, the regional 
fishery management councils, and the recreational and commercial 
fishing industries, to use the best available science to seek 
opportunities for efficiency and improved management in order to end 
overfishing and rebuild stocks.

Closing
    The FY 2012 appropriation for NOAA provided NMFS $794.2 million for 
Operations, Research, and Facilities (ORF), which is $51.0 million 
(6.0%) below the FY 2011 Spend Plan, and $110.3 million (12%) below the 
FY 2010 Omnibus. In addition, significant cuts in other parts of the 
bill may impact funding for important activities, such as days at sea 
for NOAA vessels dedicated to fisheries research. These significant 
reductions, necessitated by the Nation's current economic situation, 
will amplify the challenges facing NMFS, the regional fishery 
management councils, and the commercial and recreational fishing 
industry.
    NOAA will continue to work with Congress and stakeholders to ensure 
our highest priorities are supported as we continue the transition to 
sustainable fisheries during these challenging fiscal times. We will 
continue to invest in our efforts to provide high quality scientific 
information and stock assessments, innovative and timely management 
systems, and fair and effective enforcement programs to ensure our 
marine resources are effectively managed to support coastal communities 
and the Nation.
    Thank you again for the opportunity to testify before you today. I 
am happy to answer any questions you may have.
Appendix: List of Fisheries-related Hearings in 2011
    The following is a list of congressional hearings at which NOAA 
testified in 2011 that focused on issues related to fisheries 
management and the Magnuson-Stevens Act. The content of NOAA's 
testimonies for these hearings may be useful to the Committee as it 
continues to consider the proposed bills that are the topic of today's 
hearing. NOAA would be happy to provide copies of these testimonies for 
the record at the Committee's request.
        <bullet>  March 8, 2011 -``The Implementation of the Magnuson-
        Stevens Fishery Conservation and Management Act'' before the 
        U.S. Senate Committee on Commerce, Science, and Transportation, 
        Subcommittee on Oceans, Atmosphere, Fisheries and the Coast 
        Guard
        <bullet>  June 20, 2011--``How is NOAA Managing Funds to 
        Protect the Domestic Fishing Industry?'' before the U.S. Senate 
        Committee on Homeland Security and Intergovernmental Affairs, 
        Subcommittee on Federal Financial Management, Government 
        Information, Federal Services, and International Security
        <bullet>  July 26, 2011--``NOAA's Fishery Science: Is the Lack 
        of Basic Science Costing Jobs?'' before the U.S. House of 
        Representatives Committee on Natural Resources, Subcommittee on 
        Fisheries, Wildlife, Oceans, and Insular Affairs
        <bullet>  October 3, 2011--``Hearing to Review Massachusetts 
        Fishery Management Plans'' before the U.S. Senate Committee on 
        Commerce, Science, and Transportation
                                 ______
                                 
    Mr. Wittman. Very good. Thank you, Mr. Schwaab. I am going 
to begin with a question directly.
    As you know, just this past week Senators Nelson and Rubio 
introduced a bill similar to H.R. 2304. Can you give me the 
Administration's view on both H.R. 2304 and S. 1916?
    Mr. Schwaab. Thank you, Mr. Chairman. As I mentioned, we 
don't have a formal position on any of these pieces of 
legislation at this time. I do think it fair to say that 
because of the inclusion of the ecosystem component category in 
our National Standard 1 guidelines, which is something that we 
intend to continue to refine going forward regardless of 
whatever legislative changes might come to pass, clearly that 
is something that we see as an important aspect of the 
management process going forward.
    Obviously some of the other elements of both of those bills 
require some detailed analysis before we can fully understand 
their implications, but we certainly understand some of the 
challenges that they are seeking to address.
    Mr. Wittman. OK. Very good. In your prepared statement, you 
said that uncertainty in stock assessments upon which ACLs are 
based should not be used as a basis for exempting fisheries 
from ACLs. You have heard from our earlier panel the example of 
the Alaskan Pacific cod fishery and the closure that resulted 
there with the setting of the ACL, and I am concerned that that 
may be one of many examples yet to come.
    Is uncertainty in stock assessments really worth shutting 
down well-managed, highly valuable fisheries like the Pacific 
Alaskan cod fishery, and do you expect to see similar closures 
in the future as a result of exceeded ACLs? What assurance do 
we have that ACLs established without sufficient data will 
result in closures to valuable commercial and recreational 
fisheries?
    Mr. Schwaab. Thank you, Mr. Chairman. There are two parts I 
think at a minimum, two-part answers to that question. The 
first is relating to those stocks where we do have a clear and 
robust stock assessment. In those cases, uncertainties are 
factored in by the Science and Statistical Committee, and those 
carry forward into the establishment of limits through the 
fishery management council process to lead us to some 
reasonable expectation of either maintaining a safe fishing 
level or rebuilding stocks where that rebuilding process is 
appropriate. So I think it fully appropriate that we factor in 
through that scientific process uncertainties to lead to some 
reasonable outcome that we all seek, sustainable fisheries at 
healthy levels.
    There are of course categories of stocks for which there is 
an inadequate or absent assessment. In those cases, we have 
used--the Science Committees have recommended and the councils 
have used--many different proxies for setting catch limits. In 
some cases, we have worked very closely with the councils to 
encourage them to use some additional latitude so that we don't 
just simply adhere, for example, to an average among 10 years 
of historical catch.
    Mr. Wittman. Right. Very good. You know, as I look at how 
these annual catch limits are set, I know there are a number of 
other elements there--the overfishing limit, which corresponds 
to maximum sustainable yields--so I am going to kind of dive 
into a few fishery science terms here, and the acceptable 
biological catch.
    You know, my concern as you look at this, you try to paint 
I think in fisheries management a three-dimensional picture to 
try to figure out what are all the aspects that affect 
population dynamics and affect biomass. If we only have a 
single dimension or in some instances no dimension of figuring 
out what affects these stocks, where does mortality rest, and 
we know that fishing is only one realm or one dimension of 
mortality and then we look at fecundity, we look at spawning 
success among different year classes and all those different 
things that go in to figure out this three-dimensional picture.
    If we continue to go down the road and say listen, we only 
have one dimension to this and we are going to go down the road 
of saying the only way that we can assess how to control this 
or how we can have some effect on mortality is through 
regulating the fish catch in instances where there is nothing 
to indicate that commercial or recreational fishing mortality 
is having any kind of impact, it concerns me that that is the 
management tool that we are going to use going down the road 
instead of looking at other dimensions and saying wait a 
minute, let us create the three-dimensional picture we need for 
every one of these stocks before we go and say well, we are 
going to manage it just in this one dimension.
    I wanted to get your thoughts about how do you as an agency 
overcome that, or how do we get out of that particular 
situation?
    Mr. Schwaab. Thank you, Mr. Chairman. So the 1996 
reauthorization placed significant emphasis on essential fish 
habitat, and the agency has been working hard not only to deal 
with fishing levels but to address fishery habitat concerns. 
The 2006 reauthorization and agency actions have focused on 
broader ecosystem-based implications. So clearly there are 
carrying capacity issues that affect an ecosystem's ability to 
support a level of fishery productivity.
    I think it appropriate that we work harder to factor all of 
those things in. I would be concerned about a premise that we 
need to have an all-encompassing picture before we set some 
appropriate catch limits. It strikes me that that could be 
particularly risky to many important fish stocks around the 
country.
    Mr. Wittman. Very good. Thank you, Mr. Schwaab. We are 
going to go now to Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask Mr. 
Schwaab, the 2006 National Research Council Report, which 
Congress mandated to be used in improving recreational data 
collection methods in the Magnuson Act, in the 2006 
reauthorization of Magnuson, found that the Marine Recreational 
Fishing Statistical Survey was fatally flawed, and so the 2006 
reauthorization required a new system now known as the Marine 
Recreational Information Program to be implemented by January 
1, 2009.
    I wanted to ask what recreational data collection systems 
are regional fisheries management councils currently using to 
develop annual catch limits and if you would describe the 
status of the MRIP program and the quality of information that 
it is currently producing?
    Mr. Schwaab, what I am hearing is that in fact we are not 
necessarily using the MRIP and we are still using the old 
flawed survey or maybe some combination of the two. I am trying 
to get to the bottom of it.
    Mr. Schwaab. Yes. Thank you, Mr. Pallone. If I could say at 
the outset there are two different ways in which recreational 
data factor into the management process. One is as a component 
of the assessment process, and certainly recreational effort 
and landings are considered by the scientific teams that make 
assessment decisions. And then, obviously, second is managing 
once a quota is set the recreational component of the fishery.
    We have been working hard to implement the MRIP program. 
One physical manifestation of that was the creation of the 
National Angler Registry and then the subsequent adoption by 
many states of state-level licenses. That establishes a new 
sampling frame from which we can do the front end participation 
estimate, and that sampling frame will be phased in beginning 
in 2012.
    A second component of this is a reestimation methodology 
that has been subject to significant input from the science 
community, from fishermen as well as from our state partners. 
That reestimation methodology is something that we are working 
with right now to fully implement in 2012 as well as to look 
retrospectively at 2004 through 2011 data.
    Mr. Pallone. Let me just interrupt because I know that the 
time is running out. So, in other words, you are still using 
the old data for the most part now and you are not going to 
really fully implement using the new data until 2012? Is that 
how I understand your response?
    Mr. Schwaab. So we will have the reestimation methodology 
fully in use for 2012. The third piece of that is the revised 
access intercept process, which won't be implemented fully 
until 2013.
    Mr. Pallone. But in other words, am I correct in asserting 
that the old data which, as I said, was characterized as 
fatally flawed, the Marine Recreational Fishing Statistical 
Survey, is still being used for the most part today?
    Mr. Schwaab. Through 2011, yes, sir.
    Mr. Pallone. All right. So, I mean, that January 1, 2009, 
didn't really mean much. You just weren't able to meet it or 
what?
    Mr. Schwaab. So we have put a program in place. It is the 
full implementation of that program.
    Mr. Pallone. Oh, I see. So you said that you would put it 
in place by then, but you are not fully implementing it until 
2012 or 2013?
    Mr. Schwaab. And some of that has been the result of 
challenges that we have encountered along the way. Some of 
that, for example, has resulted from we heard from the states 
when we went to the new licensing framework.
    Mr. Pallone. OK. That is all right. I mean, I would like to 
talk to you more. Maybe we can in the future, but let me just 
get to my second question because I wanted to ask about the 
catch limits.
    Do you believe that it is fair that NMFS is moving forward 
with forcing regional management fishery councils to implement 
annual catch limits while the recreational information program 
that was designed to ensure ACLs were developed with accurate 
data is yet to be fully implemented or producing the data 
needed to properly manage our fish stocks?
    I mean, the concern obviously is they are still using this 
and you are essentially encouraging or forcing the regional 
managers to implement catch limits, but we are still using the 
old data.
    Mr. Schwaab. Yes, sir, Mr. Pallone. Certainly it is 
suboptimal, but in most cases, the recreational catch data is 
only a small part of the assessment process, so there are 
fishery-independent surveys. There are commercial, commercially 
reported data. There are other for-hire sources that factor 
into the assessment process.
    Certainly, as we complete these reestimations, we will be 
able to look back over a number of stocks and see which ones 
might have been more significantly affected historically by a 
different marine recreational survey result.
    Mr. Pallone. The problem though, Mr. Schwaab and Mr. 
Chairman and my colleagues, is that they are still using this 
flawed data----
    Mr. Schwaab. Yes.
    Mr. Pallone.--for most purposes, and that is a major reason 
why our constituents are complaining. They say these decisions 
are being made with what is acknowledged to be flawed data. I 
mean, this is why we continue to get all these expressions of 
concern from our constituents.
    Thank you. Thank you, Mr. Schwaab.
    Mr. Schwaab. Thank you, sir.
    Mr. Wittman. Thank you, Mr. Pallone. A very good point. I 
think we all hear concerns from time to time about the validity 
and the robustness of the data used to make these very 
difficult decisions. Thank you.
    We will go to Ms. Hanabusa for five minutes.
    Ms. Hanabusa. Thank you, Mr. Chair.
    First of all, Administrator Schwaab, I want to thank you 
and your staff for the time that you have afforded me. I have 
told you constantly and consistently that Hawaii is different 
and, as you know, fishing for us as recreation takes on a 
different meaning when you look at Hawaii fishing. It is 
cultural plus it is a very major economic engine.
    Having said that, I was very interested in both your 
testimony and your written statement where you talk about the 
fact that for so long one size has been meant to fit all and 
now you are modifying that. You made a statement that it may 
not be appropriate for every fishery to use catch shares, and I 
was curious about that. Why that statement and under what 
circumstances do you believe that it would not be appropriate 
for every fishery to use catch shares?
    Mr. Schwaab. Thank you, Congresswoman. So there has been 
much suggestion, including in some of the earlier testimony 
today, that in some fashion the agency is forcing upon the 
councils or the fishermen the implementation of catch share 
systems.
    We have been very clear that we see a catch share based 
approach as a viable tool that should be considered for a lot 
of fisheries, but it is not necessarily one that a council 
should use in every case or one that we would advocate be used 
in every case. And even in those cases where they are utilized 
we strongly support their local design and implementation to 
ensure that appropriate conditions and sideboards are set to 
protect local economic and other social desires. That is 
something that we have strongly advocated throughout.
    Certainly they are most readily used and most clearly 
effective with respect to commercial fisheries. There has been 
a lot of discussion about the ways in which they might affect 
recreational or for-hire fisheries and mixed stock fisheries, 
and that is something that we also believe should be considered 
very carefully at the local level.
    Ms. Hanabusa. I don't know who it was that was testifying. 
You know, when we were looking at this whole issue the question 
came up about the science, right, and it is all based on 
science, and then we see the disparity between Alaska, for 
example, which is I guess what we should all try to aspire to 
and other areas which doesn't have the resources to do that 
science. So how then do you put together the science, which is 
going to then determine the concept of how we would have a 
catch share, for example, or probably whether an alternative 
should be used to catch share when the science in and of itself 
is questionable in many of the areas? Have you had to deal with 
that?
    Mr. Schwaab. Yes. Thank you. I agreed with the vast 
majority of what Mr. Oliver had to say when he spoke to the 
situation in Alaska versus the situation in other places. He I 
think alluded to and what I would focus on a little more 
directly is the fact that in many places, particularly in the 
South Atlantic, the Gulf and in Hawaii, we have fish stocks 
that don't lend themselves as readily to the kinds of surveys 
that are used in Alaska, and those present some unique 
challenges.
    We have worked to invest over a period of years much more 
aggressively in some new on-the-water surveys as well as some 
new assessment efforts in some of those places so that we could 
try to bring more effectively up to speed our assessment 
capabilities in some of those other places, and I think we are 
making some headway there.
    Ms. Hanabusa. One of the interesting two pieces of 
legislation is Mr. Frank's and Mr. Keating's, and that is 
regarding basically the Forfeiture Fund and in Mr. Frank's 
situation putting that money into the states to assist with 
research and science. How much of that would be helpful and, 
alternatively, how much of that would really help us build the 
science that we are all seeking to understand here?
    Mr. Schwaab. So I would make two points, maybe three 
points. First of all, we certainly appreciate the sentiment 
around more investment needed in science, and in a corollary to 
that, we work very closely with our state partners to utilize 
their science and to work very collaboratively on management 
processes. Having said that, I think that the amount of money 
that might be available in the Asset Forfeiture Fund frankly 
should not be overestimated in its ability to affect that 
science challenge.
    And then finally I would note, as I did in my testimony, 
that a good and effective fishery management system depends 
upon sound science, effective management and good compliance. 
And so, if we rob from the compliance end to build up the 
science end, it might be that we end up with a result that is 
not what we are all looking for.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chair.
    Mr. Wittman. Sure. Thank you, Ms. Hanabusa. We are now 
going to go to Mrs. Napolitano for five minutes.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Schwaab, are annual catch limits an effective tool to 
not only end overfishing but also to prevent it?
    Mr. Schwaab. Yes. Absolutely.
    Mrs. Napolitano. Well, isn't removing catch limits on a 
stock because it lacks a stock assessment putting the health of 
our fish populations at risk similar to spending money on a new 
car when you don't know if you have money in the bank?
    Mr. Schwaab. Well, I think it certainly increases the risk 
of going in a direction with respect to the stock that you 
don't intend to go. You know, I think catch limits are 
certainly a measure of where you are with respect to 
prosecution of that fishery, and lacking that measure could 
certainly lead you astray.
    Mrs. Napolitano. Thank you. In your testimony, you mention 
that these bills are likely to create duplicative and otherwise 
unnecessary actions. If enacted, would these new regulatory 
requirements compete with and divert funds that could otherwise 
be used to improve fisheries?
    Mr. Schwaab. Certainly there are some elements of some of 
these pieces of legislation that could potentially be 
duplicative or certainly perhaps not additive to the management 
challenges and the science challenges that we face. I think I 
allude to some of those in more detail in my written testimony.
    Mrs. Napolitano. But doesn't it bear that improving the 
health of our fisheries helps the fishing industry, thereby 
helps the economy?
    Mr. Schwaab. Absolutely. I mean, it is our contention that 
not only, as I mentioned in my testimony, is there great 
opportunity in front of us associated with rebuilding and 
sustainable management of fisheries but that we are already 
seeing a number of those results on the water and on the docks 
today.
    Mrs. Napolitano. Would it be wise to focus on funding key 
fishery science and data collection programs that can provide 
better information and create more of this business certainty 
we look at and then of course ensure that we have the input 
from the fisheries?
    Mr. Schwaab. There is no question that better science 
allows us to reduce uncertainty and then puts the councils and 
the fishermen in a place where they can manage closer to a 
sustainable fisheries line. I mean, a continuing challenge on 
our part is to both within available resources and using 
current and new methodologies to improve our output if you will 
of more regular assessments for a larger number of species.
    Mrs. Napolitano. Thank you for that. You did mention there 
is flexibility in the Magnuson-Stevens Act rebuilding 
requirements. Could you describe a little more in detail what 
that flexibility is?
    Mr. Schwaab. Absolutely. Thank you, Congresswoman. Some of 
those flexibilities were alluded to in some earlier testimony, 
but the current Act sets that 10-year rebuilding timeline but 
provides some very significant exceptions, one of those being 
for where the life history of the species would dictate a 
longer timeline.
    We have more than half of the stocks that are under 
rebuilding programs now that already have rebuilding timelines 
that exceed that 10-year level. We have also in some cases 
where we have seen new data emerge been in a position where we 
could effectively restart a rebuilding clock based on some new 
science that has emerged.
    And then finally, and Mr. Frank mentioned this, the 
transboundary legislation that you enacted about a year ago, 
the transboundary conditions which were provided for in the 
current Act that were expanded with respect to some of the 
species that we work closely and jointly with Canada to manage.
    Mrs. Napolitano. Thank you. One last question has to do 
with the economic and social data currently being considered in 
NOAA stock assessments and rebuilding analysis. How much of 
this do you hold in doing your assessments?
    Mr. Schwaab. Yes. The councils already undertake 
assessments around science and economics as a part of the 
decisionmaking process.
    Mrs. Napolitano. Yes, but how much of it do you take into 
account in your decisionmaking?
    Mr. Schwaab. So they are largely taken into account when 
choosing among management alternatives. They aren't explicitly 
taken into account in actually setting catch limits, but when 
choosing among some of the different management options that 
might be available they are looked upon, and that is the domain 
predominantly of the councils.
    Mrs. Napolitano. Right. And we were discussing this briefly 
here with the Chairman that sometimes we have folks who have 
never been out in a boat, never been fishing making some of the 
decisions that the fishermen sometimes find a little abhorrent, 
and so to take information from them, translate it into helping 
you become more cognizant of reality out in that area to me is 
critical.
    Mr. Schwaab. Absolutely. Absolutely, Congresswoman. 
Cooperative research is something that we place great emphasis 
on in a number of places around the country. The individual 
observation of fishermen certainly also factor in.
    Mrs. Napolitano. I would hope so.
    Mr. Schwaab. But if I could perhaps borrow or build upon 
the analogy of Mr. Hayes' looking out the window to check the 
weather, it might be raining in Clearwater but sunny in Panama 
City, so analogies or anecdotal experiences only take us so 
far.
    Mrs. Napolitano. Thank you. Thank you, Mr. Chairman.
    Mr. Wittman. Thank you, Mrs. Napolitano.
    Mr. Schwaab, thank you so much for your testimony. I 
appreciate you taking the time to be with us today. Members of 
the Committee may have additional questions for the record, and 
I ask that you respond to these in writing.
    If there is no further business to come before the 
Committee, without objection, the Committee stands in 
adjournment.
    [Whereupon, at 1:05 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

      Statement submitted for the record by Jim Clements, Member, 
            Board of Directors, Gulf Fishermen's Association

    My name is Jim Clements. I represent the Gulf Fishermen's 
Association. I had the opportunity to view the Committee Legislative 
Hearing on H.R. 594, H.R. 1013, H.R. 1646, H.R. 2304, H.R. 2610, H.R. 
2753, H.R. 2772 and H.R. 3061. I am a commercial grouper and red 
snapper fisherman in the Gulf of Mexico. I am a participant in both the 
red snapper and grouper/tilefish Individual Fishing Quota (IFQ) 
programs, sometimes referred to as catch share programs. Some 
congressmen have been influenced by anti catch share activists to the 
point of introducing bills in the House and Senate that would harm our 
Gulf programs. The Alaska and North Pacific catch share programs are 
not mentioned in these bills. Neither should ours in the Gulf of 
Mexico.
    Thirteen other commercial fishermen, both large and small, as well 
as myself, were on the Gulf of Mexico Fisheries Management Council 
Advisory Panel that developed our catch share (IFQ) program. We 
designed our program to best fit the needs of all commercial snapper/
grouper fishermen in the Gulf. The programs were voted on by the 
commercial fishermen. They both passed by a margin greater than 80%. 
Each permit holder was awarded an initial allocation equal to his catch 
history over a 5 year period for grouper and a 10 year period for red 
snapper.
    The commercial IFQ programs have nothing to do with the 
recreational quota. It is a means to insure that the commercial sector 
never exceeds its quota. Caps were placed so no one entity could 
acquire excessive shares. Not a single permit holder was cut out of the 
fishery. If a fisherman, like myself, does not own enough shares, he 
can lease allocation sufficient to harvest the number of fish he needs. 
In less than 18 months after the programs began, the price of some fish 
have exceeded the extra cost of leasing the allocation to catch that 
fish. We are now able to catch less fish and earn more income. This 
makes the fishing industry more successful, viable and profitable. Our 
catch share programs have created more full time professional 
employment, provided year round access of fish to the public, and are 
helping make our marine resource more sustainable.
    Now, new entrants are coming into the fishery, whereas before the 
IFQ programs, fishermen were leaving the fishery because they could not 
manage their businesses year round, and avoid closures. Before the IFQ 
program, there was an open derby fishery that closed when a particular 
species was projected to meet its quota. Any other species that was 
affected because of bycatch was also shut down. With the sometimes 
drastic cutbacks in the Annual Catch Limits of some overfished species, 
under an open fishery, the entire Gulf may be closed for as much as six 
months out of the year until the overfished stock is rebuilt.
    Some fishermen who might want to abolish the IFQ program and go 
back to an open fishery should be careful of what they wish for, unless 
they want to look for a job for as much as six months while the season 
is closed and their boats are tied to the dock. That will be total 
unemployment for the entire fishing industry and other businesses that 
depended on it, not to mention the deprivation of fresh Gulf red 
snapper and grouper to the American consumer.
    Our IFQ (catch share) programs not only are working; they saved our 
industry. The Gulf Fishermen's Association, which represents a 
substantial number of commercial fishermen in the Gulf, needs your 
help.
    When the Natural Resources Committee begins its markup of the bills 
addressing catch shares, please do not adopt legislation that would 
preclude the use of future catch share programs, and certainly do not 
interfere with our existing red snapper and grouper/tilefish IFQ 
program in the Gulf of Mexico. Since their inception two years ago, 
participants in these programs have made substantial investments in the 
type of shares to prevent dead discards and keep the fish we catch so 
they can be sold to the public. Interfering or dismantling these 
programs would undermine our fishery in the Gulf, devastate our fishing 
communities, and destroy our jobs and livelihood.
                                 ______
                                 

        Statement submitted for the record by Lee R. Crockett, 
      Director of Federal Fisheries Policy, Pew Environment Group

    The Pew Environment Group appreciates the opportunity to provide a 
statement for the Committee's hearing on a suite of bills related to 
ocean fisheries management under the Magnuson-Stevens Fishery 
Conservation and Management Act (MSA).
    Since the MSA was enacted 35 years ago, Congress has recognized the 
value of the ocean fish populations that sustain commercial and 
recreational fishing businesses, and the importance of ending 
overfishing. Most recently in 2006, Congress strengthened the MSA by 
requiring catch limits and accountability measures to end and prevent 
overfishing by 2011. Though skeptics said that this could never be 
done, all of the eight regional fishery management councils have put in 
place amendments to fishery management plans intended to end and 
prevent overfishing, meeting the ambitious deadlines of the Act. Thanks 
to Congress' efforts in 2006 and the hard work of managers and 
stakeholders in the regional councils, the United States now has one of 
the best fishery management systems in the world.
    Unfortunately, some of the bills under consideration by the 
Committee threaten to take us back to the failed policies of the past 
that resulted in overfishing, depleted fish populations and lost 
fishing jobs. Though they claim to ``improve science'' or ``create 
flexibility,'' in reality these bills weaken the conservation 
requirements of the MSA for the sake of short-term interests and waste 
the years of hard work and sacrifice that are finally putting our 
nation's fisheries back on healthy footing. These bills also inject 
instability into the fishery management system, which is detrimental to 
the commercial fishing interests, charter boats, and other small 
businesses that depend on a stable and predictable regulatory 
environment.
    Below I would like to address some of the general themes that 
emerged during the December 1, 2011 hearing about the state of 
fisheries management in the U.S. I will follow these observations with 
concerns that we have regarding specific bills under consideration and 
finally offer some solutions that will help keep our fisheries on the 
path toward long-term sustainability.
    Our nation's fisheries science is world class
    America has some of the best managed fisheries in the world. This 
is largely due to the quality of the science, investments in data 
collection, and our sound, science-based legal framework. Managers and 
scientists have information about every federally-managed fishery, 
incorporating a wide variety of data types and tools ranging from local 
historical knowledge to advanced modeling techniques. Our management 
system is unique in its dedication to using an extensive body of 
knowledge, and its commitment to basing decisions on science and the 
input of stakeholders.
    Despite this fact, some claim that fishery management decisions in 
the U.S. are based on guesswork. Specifically, they assert that when 
managers set annual catch limits without official stock assessments, 
they are doing so without any scientific data. That assertion is false.
    In those situations, managers rely on other scientifically valid 
sources of information and tools to set catch limits, including:
        <bullet>  Species biological information such as growth rates, 
        age at maturity, how many offspring are produced, and natural 
        mortality;
        <bullet>  Population abundance information such as historical 
        catch data estimates and local knowledge of population history;
        <bullet>  Statistical models developed specifically to assess 
        population health and set catch limits when fishery independent 
        surveys are not available; and
        <bullet>  Stock complex management where like fish species are 
        grouped, and catch limits are established for the entire 
        complex based on species within the group that have official 
        assessments.
    This year, managers have set reasonable catch limits for stocks 
lacking full assessments. For instance, in the Gulf of Mexico, annual 
catch limits for species that don't have recent full assessments are 
set at around 23% above the average landings over the past ten or so 
years. Such limits will keep the catch within historic levels, which 
will limit the risk of overfishing that could result without 
enforceable catch limits.
    The argument that scientific uncertainty is justification for 
risking overfishing by undermining the catch limit requirement is 
unfounded and dangerous. Scientific uncertainty is an inherent part of 
fisheries science and fisheries management. A number of independent 
reviews have demonstrated that we have some of the best fisheries data 
in the world, and continue to improve it thanks to current law and 
committed funding from Congress.
    We are poised to finally end sanctioned-overfishing
    When Congress reauthorized the MSA, it included specific deadlines 
so that managers could no longer avoid taking the hard but necessary 
steps to end overfishing and rebuild scores of depleted fish 
populations decimated by years of overfishing. Thanks to the hard work 
of the regional fishery management councils and the National Marine 
Fisheries Service, we are on track to achieve these deadlines, and 
science-based catch limits should be in place in early 2012 for nearly 
all federally-managed species. This is a key milestone in our nation's 
fishing history, and Congress should oppose any efforts to derail this 
progress.
    The MSA is flexible
    Some argue that the MSA is inflexible and advocate for weakening 
the rebuilding requirement as a form of economic relief. This short-
sighted argument ignores the fact that (1) the law is already flexible; 
(2) thanks to the rebuilding requirement, 23 fish stocks have been 
rebuilt since 2000 leading to increased fishing opportunities and 
income for fishermen; and (3) doing so would undermine the economic 
future of U.S. fisheries.
    The MSA currently allows rebuilding plans to exceed the law's 10 
year target (which is twice the time scientists calculate that a 
majority of fish populations require for rebuilding) to accommodate the 
biology of the fish species, other environmental conditions, or 
management measures under an international agreement. In fact, over 
half of existing rebuilding plans throughout the nation already exceed 
ten years. <SUP>i</SUP>
---------------------------------------------------------------------------
    \i\ National Marine Fisheries Service (NMFS). (September 2011). 
2011 Status of U.S. fisheries: Third Quarter Update. <http://
www.nmfs.noaa.gov/sfa/statusoffisheries/SOSmain.htm>.
---------------------------------------------------------------------------
    Numerous rebuilding ``success stories'' exist around the country, 
including Atlantic sea scallops, the nation's most valuable fishery, 
and this list is expanding. For example, the National Marine Fisheries 
Service (NMFS) will likely declare mid-Atlantic summer flounder rebuilt 
this year. According to NMFS, fully rebuilding our commercially and 
recreationally-valuable fish populations would generate $216 billion in 
annual sales impacts and support 2.5 million full and part-time U.S. 
jobs <SUP>ii</SUP>--lasting and sustainable economic relief.
---------------------------------------------------------------------------
    \ii\ These numbers are a summation of the value of fully rebuilt 
U.S. fisheries from two sources: Testimony of Eric Schwaab, National 
Oceanic and Atmospheric Administration (NOAA) Assistant Administrator 
for Fisheries at the U.S. Senate Committee on Commerce, Science, and 
Transportation held an Oceans, Atmosphere, Fisheries, and Coast Guard 
Subcommittee hearing on implementation of the Magnuson-Stevens Fishery 
Conservation and Management Act, Mar. 8, 2011, Page 3, 
<www.legislative.noaa.gov/Testimony/Schwaab030811.pdf> on the value of 
rebuilding; and the comparable commercial and recreational estimates 
from National Marine Fisheries Service (NMFS), 2008, ``Fisheries 
Economics of the United States, 2006,'' <www.st.nmfs.noaa.gov/st5/
publication/fisheries_economics_2006.html>.
---------------------------------------------------------------------------
    The regional fishery management council process is working
    Regional decision-making, driven by stakeholders in collaboration 
with scientists and government managers, is the cornerstone of the MSA. 
Every region is different in its history, current needs, and the 
fisheries it manages. Legislating fixes in the hope of helping one 
region or one fishery is not the solution, and only threatens successes 
in other regions and the process as a whole.
    Recently, octopus in the Bering Sea/Aleutian Islands management 
area became an issue for the North Pacific Fishery Management Council 
and was brought to the national spotlight as justification for a 
national fix that allows removal of ACLs from certain fisheries. 
However, when you look at the facts, the octopus example clearly 
illustrates the benefits of our regionally-based system and the 
existing mechanisms within the law that allow for adaptive management:
    Octopus harvesting practices changed <r-arrow> the Council adjusted 
the management plan and set catch limits based on the best available 
science <r-arrow> a potential problem arose as the pacific cod fishing 
season progressed and limited catch in the pot sector of the fishery 
<r-arrow> the Council's Science and Statistical Committee plan team 
investigated and the science center completed another assessment using 
newly available data <r-arrow> the quota for next year will likely go 
up by over 500% based on the plan team's recommendation.
    In sum, there is clear and compelling evidence around the country 
that the MSA is working. We agree with NMFS Director Eric Schwaab that 
the MSA is ``charting a groundbreaking course for sustainable 
fisheries.'' We urge Congress to support the law and reject short-
sighted efforts, described in more detail below, to undermine the 
progress we have made ending overfishing and rebuilding valuable fish 
populations.
        <bullet>  H.R. 2304, the Fishery Science Improvement Act: This 
        bill would remove the annual catch limit requirement from 
        numerous valuable stocks and risk allowing overfishing. The 
        catch limit mandate under the 2006 MSA reauthorization has been 
        a key component in ending overfishing; by removing it we take a 
        huge gamble on the progress we've made towards restoring fish 
        stocks to stable and healthy levels. Also, the bill does little 
        to actually improve science, and will likely encourage managers 
        to conduct less science on the specific (largely recreational) 
        stocks impacted by the bill, as they will shift their resources 
        to stocks (specifically commercially targeted species) where 
        the catch limit requirement remains.
        <bullet>  H.R. 1646, the American Angler Preservation Act: This 
        bill would mire key fishery management decisions in red tape 
        and delay that could hamper the ability of managers to increase 
        quotas based on new science. The bill would also create 
        unfunded mandates and add loopholes to the law that would 
        threaten the progress we are making restoring valuable fish 
        stocks.
        <bullet>  H.R. 3061, the Flexibility and Access in Rebuilding 
        American Fisheries Act of 2011: This bill includes redundant 
        and costly new reporting requirements, adds loopholes to the 
        law in the name of ``flexibility'' that ignores existing 
        flexibility in the law and impedes efforts to rebuild depleted 
        fish populations, and gives authority to the Secretary to 
        suspend annual catch limits based on arbitrary conditions.
    Rather than support the bills described above that would revert our 
world class management system to the failed approaches of the past and 
risk overfishing, we ask you to please support the following:
        <bullet>  H.R. 594, the Coastal Jobs Creation Act: This bill 
        would strengthen programs that create jobs for fishermen and 
        support fishing communities, including cooperative fisheries 
        research between fishermen and scientists; revitalization of 
        working waterfronts; cleaning up marine debris; and other 
        efforts that benefit fishermen and the environment. If funded, 
        this bill could substantively address fisheries data gaps and 
        promote economic sustainability.
        <bullet>  Appropriations for fisheries research and monitoring: 
        In the Commerce, Justice, Science, and Related Agencies 
        Appropriations Act, 2012, Congress demonstrated its support for 
        our nation's recreational and commercial saltwater fishing 
        industries by investing $161 million in research and monitoring 
        programs. We encourage Congress to continue investing in these 
        programs in FY 2013 and beyond for the benefit of our nation's 
        fisheries, which in 2009 alone generated $116 billion in sales 
        and supported 1 million jobs.
        <bullet>  Proposed legislation to establish long-term financial 
        support for our nation's fish and fishermen: Senator Kerry 
        announced in October that he will introduce legislation that 
        would reform the Saltonstall-Kennedy Act by redirecting 
        existing funds derived from duties on imported fish products in 
        the range of $50-$70 million a year to support critical fishery 
        management and science efforts in the regions. Under this 
        proposal, a regional grant program would be established where 
        fishermen and other regional stakeholders would be able to 
        identify both funding requirements and guide investment 
        decisions to target regional on-the-water needs.
    Thank you once again for providing us with the opportunity to 
provide input into the December 1, 2011 hearing on ocean fisheries 
bills.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
